<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1998

=========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                     L. Baldwin, Staff Assistants
                                ________

                                 PART 3

 Office of Science and Technology Policy..........................    1
 National Science Foundation......................................   95

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
40-343                      WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









 DEPARTMENT OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1997

                              ----------                              

                                          Wednesday, March 5, 1997.

                OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                                WITNESS

JOHN H. GIBBONS, DIRECTOR

                          Introductory Remarks

    Mr. Lewis. The meeting will come to order.
    This morning we want to welcome Dr. John Gibbons--his 
friends call him, Jack--Director of the Office of Science and 
Technology Policy for the hearing on the budget for Fiscal Year 
1998.
    In addition, we will have a number of questions for Dr. 
Gibbons which deal with the budgets of other agencies which are 
primarily concerned with science and technology issues.
    The budget of the Office of Science and Technology Policy 
for the Fiscal Year 1998 is $4,932,000, which is the same as 
Fiscal Year 1997 Appropriations.
    The majority of the budget request, $3,790,000, is for 
salaries and related personnel expenses, to support 39 
personnel staff. This category has growth of $44,000 primarily 
due to the assumption of 3.1 percent general pay rise for 
Fiscal Year 1998. Other expenses are expected to decrease 
slightly or stay the same for Fiscal Year 1997.
    Dr. Gibbons, Jack, we will insert your entire statement in 
the record, as you know. If you would like to offer a summary 
then we will move on to questions.
    Dr. Gibbons. Thank you, Mr. Chairman.
    Mr. Lewis. Maybe before we go to that, because my 
colleague, Mr. Stokes, just was able to come back. If you want 
to make some opening remarks, Mr. Stokes, we would love to have 
it.
    Mr. Stokes. Mr. Chairman, I would just join with you in 
welcoming Jack back before our subcommittee again. We always 
tremendously enjoy his testimony here and look forward to your 
presentation.
    Thank you.
    Dr. Gibbons. Thank you, sir.
    Mr. Lewis. Dr. Gibbons?
    Dr. Gibbons. Well, gentlemen, thank you.
    There are a lot of aspects of my job that are not terribly 
pleasant but this is one that is pleasant because I enjoy the 
company of such distinguished members of Congress who have 
shared the many years with me together in trying to do public 
service, and I appreciate the chance to be with you this 
morning.
    Mr. Lewis. Before you go on, has Ms. Meek, by chance, ever 
tried to figure out how she can get money from your agency? 
[Laughter.]
    Ms. Meek. No.
    Mr. Stokes. But she will. [Laughter.]
    Mr. Lewis. If not, Dr. Gibbons, you can expect to.
    Ms. Meek. He knows me, Mr. Chairman.
    Dr. Gibbons. Ms. Meek is a wonderful person and I was 
thinking about her yesterday because I was meeting with the 
Trinity Institute and we were talking about the status of 
philanthropy in this country and how one raises funds.
    Ms. Meek. Only for the good.
    Mr. Lewis. Only for the good, that is right, absolutely.
    Thank you, Dr. Gibbons.
    Dr. Gibbons. As I was thinking about today I was recalling 
the events of a year ago which, in some ways, seems like a long 
time ago but was, in fact, a pretty short time ago.

             bipartisan support for science and technology

    We were in the midst of heavy snowfalls and government 
shutdowns and talks of draconian cuts in the outlook for 
research because of our commitment to move to a budget 
balancing. We had a lot of acrimonious debates about the 
appropriate role of science and technology under Federal 
support vis-a-vis the private sector and the relations between 
the public and private sectors in these areas.
    And I think that in the year that has now ensued since that 
time, much of that debate, I hope and believe, is behind us. We 
are on a kind of convergent path. But, of course, total harmony 
is not very good either. Jefferson said that freedom rings when 
opinions clash. And I think that it is an important part of our 
tradition, and yet at the same time if you ring freedom's bell 
too hard, it can crack just as the Liberty Bell cracked. And I 
am just glad that ours is ringing in a way that for a musician 
says that we are now beginning to sing in harmony again and 
that can be very productive for all.
    My fervent hope is that we can continue that course of 
recapturing the sort of bipartisan spirit that has pervaded the 
notion of the support of discovery and exploration as a 
national pastime and science being part of that process since, 
certainly, for 150 years, if not longer.
    And while I believe that we have made considerable progress 
in rebuilding strong bipartisan support for science and 
technology as a part of the Federal government's legitimate 
concerns, our fiscal challenge is certainly no less urgent this 
year than it was last year. Budget balancing remains everyone's 
concern. Science and technology, however essential in its 
contribution to the creation of our future wealth, our 
environment, our security, our health, is not immune from those 
same kinds of requirements of being very, very careful with 
every dollar we spend, that it goes to the maximum leverage in 
terms of a yield to the public.
    And we do know that science and technology does hold a key 
to our economic future. We know that the overall annual rate of 
return on the research investment is about 50 percent, plus or 
minus, but it is an enormously high rate of return that has 
been going on for a half a century now.
    We know that Japan is doubling its research budget over 
five years for that same reason, its conviction that this is a 
way to generate the kind of future we want.
    These facts I think justify a high degree of protection for 
this part of our budget and the President said in his State of 
the Union, to prepare America for the 21st Century, we must 
harness the powerful forces of science and technology to 
benefit all Americans.

               making the most efficient use of resources

    But these facts do not excuse the need, as I said, for belt 
tightening. We have really got to continue to figure out ways 
to make those resources go farther. And how do we do it?
    Well, we have obviously been cutting administrative costs 
to put more of the dollars at the bench of the scientists 
instead of administrative overhead. We have been using more 
peer review and other quality control measures to make sure we 
are picking the finest of the ideas in terms of quality 
control.
    We are emphasizing university-based research which provides 
for graduates and new scientists and engineers along with new 
knowledge. We are linking the resources of different Federal 
agencies together through the efforts of the National Science 
and Technology Council to capitalize on their separate 
strengths in ways that make the whole greater than the sum of 
the parts. And finally, we are recognizing that we must operate 
with a national science and technology strategy not just a 
Federal one.
    We need to understand that science and technology is an 
enterprise and not just a Federal enterprise. It is a state 
enterprise; it is a local enterprise, like ``Cleveland 
Tomorrow'' and ``Innovation San Diego;'' and it is an 
international enterprise. And that is why we have to reach out 
and couple these resources together in ways that we can 
leverage our investments.
    For instance, our investment in high energy physics for an 
accelerator in Switzerland means that we can be doing work with 
hundreds of our scientists on a facility that is ten times more 
expensive than the money we put into it because we are sharing 
it with other countries.
    So, these examples, I think amply reflect the fact that 
there are a lot of things we can do over time to continue to 
make our investments in research even more productive than they 
have been in the past.
    Well, the President's budget I think for 1998 does reflect 
that. He has delivered on making it the fifth year in a row in 
which he has called for increases in science and technology and 
education. At the same time, the budget is moving toward 
balance.

                 fy 1998 science and technology budget

    The budget in 1998 is $1.6 billion more than it was for 
1997 and it now runs roughly $75 billion as traditionally 
accounted for in OMB scoring. And it essentially holds the line 
of support for research and technology across the board. And I 
think we can go into details later, but I am just pleased that 
the President came forward with this, and yet, at the same time 
it does move us toward balance. And I was informed this morning 
by Erskine Bowles and by Frank Raines that Frank, I think, has 
just received a letter from June O'Neill from CBO that says 
that the budget and its outyear scoring does concur for balance 
both by OMB and CBO scoring.
    And that is another one of those convergences that I am 
glad to see us all moving toward if we can independently get 
the same numbers then they are a lot more credible.

                      ostp fy 1998 budget request

    Our budget is not a very big part of the Federal budget but 
the budget for OSTP holds the line from the same as 1997 and 
also for 1996, in terms of both people and funding. That means 
that each year we have to eat somehow the increased costs of 
our manpower which is about 80 percent of our total budget. And 
so far I am content with that. I think that we must reflect 
what I think Congress and the President agree is that we all 
have to share this burden and that is why we are simply asking 
the committee's favorable reaction to our proposal that we 
continue on the same course that we have been for the last two 
years.

                 1996 science and technology highlights

    Now, finally, to talk a little bit about some highlights 
which is the more fun part of my monologue with you this 
morning. Last year, I talked about several exciting 
developments in science that had occurred in the previous year. 
And I mentioned that Lewis Thomas, the famous writer and 
physician once said that he believed that the greatest 
discovery of the 20th century was the discovery of the extent 
of human ignorance because we are constantly discovering how 
little we know about ourselves and our world.
    This year is more of the same and I will give you just a 
few examples. I know we all have been reading in the last week 
or so of the extraordinary sort of breakout in the ability to 
clone animals even using a cell of an adult sheep, if it is 
confirmed by additional experiments.
    Now, this has enormous ramifications for understanding how 
cells switch on and switch off in terms of the genes in the 
cells, how cells differentiate and become specialized. And 
that, in turn, leads to a whole host of disease curing and 
prevention capabilities. It is an extraordinary time. And yet, 
at the same time, a difficult time because of the implications 
of cloning that, of course, have been talked about in the 
papers.
    That is why I was pleased that we had established the 
National Bioethics Advisory Commission that the President 
appointed, ably chaired by Harold Shapiro, the President of 
Princeton, who have already undertaken now for the President a 
close examination of this development and what it means for us. 
But it reminds me that science moves along sort of like 
evolution in slow, incremental progressions and even history, 
itself. But every now and then there is a kind of a tectonic 
movement that takes place and everything shifts very suddenly. 
And that is the case in this cloning that we are able to do 
things that probably several years ago we would have thought 
not likely at all.
    Another is that last year I talked about buckyballs, which 
are special forms of carbon that you can make up into things 
that look like a Buckminster Fuller sphere connected together 
and that these actually are found in nature, almost undoubtedly 
brought here in the heart of comets that have collided with the 
earth. And I speculated then that some people had said that it 
could well be that life, even maybe the earliest forms of life, 
actually arrived on earth in that kind of cometary material.
    Well, during the year, of course, a number of events have 
occurred. Not only is the Mars meteorite, which may or may not 
have evidence of ancient life on it, very interesting, but we 
discovered the archeo bacteria in the bottom of the Pacific on 
these thermals where there is no sunlight, a totally different 
energy system is operating and these little bacteria have 
developed. We have found life deep in coal mines, so-called 
deep biology. We have found apparent ocean and ice on one of 
the moons of Jupiter. We have found fossil evidence of 
primitive life forms in the earliest sedimentary rock that you 
can find on earth.
    So, instead of the old paradigm that life is perhaps unique 
and hard to understand where it came from, now within a period 
of not much more than a year we see the possibility that life, 
itself, may persist wherever it is possible for life to be.
    And that is a new way of thinking about this extraordinary 
relationship between the shapes of molecules and atoms and how 
they self-organize and come together and ultimately the miracle 
of life occurs.
    We have done the entire sequence of a bacterium now. We 
know where all the atoms fit and we are finding out the great 
similarity, enormous similarity between say a fruit fly and a 
human being. Someone said it is really discouraging to think 
about people as large fruit flies without wings. [Laughter.]
    Dr. Gibbons. But if you go to the molecular basis, you find 
out there is a commonality in life, itself, and its basic 
structure. All of these things are just pouring out now in this 
time of discovery.
    We now have a teraflop computer operating for the first 
time. It was an important goal and it means new things for us. 
We now have GPS positioning. I walked 20 feet away from the 
South Pole a month ago and the GPS told me I was 20 feet away 
from the South Pole. And this is going to revolutionize air 
traffic safety and so many other things in our lives in the 
future. So, the technology is coming right in behind the 
science.
    It is, indeed, not the end of science, but a very important 
time in science. But we have to remember that science moves 
slowly, that discoveries of 20 years ago are today's Nobel 
Prize winners. And that the pace of science is different from 
the pace of politics and it takes very far-sighted politicians 
to understand the imperative for the continuity in science even 
with discontinuities in politics and that is the challenge to 
the Congress and to ourselves.
    And I appreciate the interest of this committee in that 
notion of the continuity of support of science. What we invest 
today may not help us but it may be the very life and breath of 
our children and grandchildren.
    In my testimony, Mr. Chairman, on page eight to eleven, I 
summarize work at OSTP during the past year. We are engaged 
broadly in all these activities. I also summarize the work of 
the National Science and Technology Council on page six of that 
testimony. And I would offer you today just a summary of 
accomplishments of the National Science and Technology Council 
during 1996.
    As we move into this year, we are working heavily in areas 
such as the health and early development of children before 
they even get to school. On the role of technology and its 
challenges in K-to-12 education, and in graduate education. On 
a broad review of energy strategies which includes our 
sustainable development, global climate change, there is a big 
convention coming up in Kyoto in December which has to do with 
international agreements on greenhouse gases. And on things 
like the Internet Two, which again the Federal Government will 
partner with the private sector in developing the next round of 
this extraordinary new tool known as the Internet.
    In closing, the pace of science, as I mentioned, is very 
high and it depends on long-term support that has a continuity 
to it and you will note in the 1998 and out-year budgets that 
the science agencies' out-year budgets which looked really 
bumpy a year ago have now been smoothed out and it is even more 
important to be smooth than it is the actual level of the 
budget, itself.
    And I want to thank again the committee for your bipartisan 
support and interest in this work and I hope I can answer your 
questions.
    [The statement of Mr. Gibbons follows:]

[Pages 7 - 49--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Dr. Gibbons.
    In an effort to extend this sense and mood and the value of 
bipartisan work, especially within the subcommittee, let me 
mention your statement causes me to want to mention a session 
that I experienced early on last year. My colleagues will 
recall that early in the year we had kind of an outline of 
command performance for the legislative year and things started 
out very swiftly, a lot of legislation moved, et cetera, et 
cetera. There was an environment that may not have reflected 
the best mix of bipartisan spirit in my own judgment. We were 
criticized around the community for moving much too much, much 
too quickly. And currently the environment in Washington is a 
little different. Congress has started out much more slowly and 
you will all note with me with some pleasure that we are being 
criticized for that, as well. [Laughter.]
    So, separate from what those who operate in another circuit 
within the beltway, I would like to mention this. That shortly 
after the budget proposals came forward last year, there was 
some pretty serious shrinkage in areas of science and research 
especially basic but also applied research accounts. Much of 
that funding comes through the agencies that are under this 
subcommittee, a very significant piece of it. But the Speaker 
called those of us who are chairmen of subcommittees in the 
Appropriations Committee to a session in his office with the 
Chairman of the Budget Committee and with the then Chairman of 
the Science Committee. And frankly I did not know what to 
expect.

               house support for research and development

    The Speaker began the meeting by saying, Gentlemen, for 
good or for ill, I have got a penchant for science and 
especially for research and basic and applied research. And, 
so, I want you to know that at least the Speaker wants you, as 
we are going about balancing the budget, to look in every nook 
and cranny that you can to reduce spending but, wherever you 
can, leave research free.
    That was very helpful in our ongoing sessions last year. 
But it is, I think, a reflection of the will of the House on 
both sides of the aisle that you, Dr. Gibbons, I hope would 
take back to the Administration so that there is a broader 
understanding of that. For as we are going down this very 
difficult path of trying to make sense of our balancing the 
budget there are responsibilities of the Federal Government 
that should not be shrinking. Indeed, the country, as well as 
the Congress, needs more and better information, not less.
    With that----
    Dr. Gibbons. Thank you, thank you.

                 nasa--commercial use of space shuttle

    Mr. Lewis [continuing]. Dr. Gibbons, last year the House 
Committee report on the appropriations bill for NASA included a 
request that NASA and the Office of Science and Technology 
Policy review the policy which currently restricts the use of 
the space shuttle for commercial payloads.
    The current policy grew out of reaction to events 
surrounding the Challenger accident in 1986. And I have some 
questions in connection with that. Is the current policy 
regarding commercial payloads on the space shuttle consistent 
with the September 1996 national space policy which calls for 
promotion of commercialization in space?
    Dr. Gibbons. Mr. Chairman, I could speculate on an answer 
to that. But I think I had better go back and check on the 
current status of that. As you know, NASA and the 
Administration are very much in favor of commercialization of 
space, and in fact, of space operations. NASA has gone to the 
commercial sector for a lot of the transformation of the 
shuttle's operations.
    In fact, that is one reason we are saving some money there 
and in Dan Goldin's efforts to accommodate a lower budget. But 
the actual interest and involvement of the commercial sector in 
purchasing space on board for payloads and the like is a matter 
that we encourage but it has to fit in with the other 
requirements both military and civil and governmental for the 
shuttle.
    If you would accept it, I would like to go back and answer 
that one for the record, though, just to review the situation 
for you.
    Mr. Lewis. The committee is very interested in that whole 
subject area, the status of your review is important to us. I 
would like to have it be thorough and so that is fine with me.
    Dr. Gibbons. Thank you.
    Mr. Lewis. I would kind of like to know just, though, your 
personal and initial reaction as to whether or not a change in 
policy on the use of the shuttle would cause problems for items 
like the expendable launch vehicle industry and have you 
addressed this yourself, these questions?
    Dr. Gibbons. Well, the last thing we want to do is to do 
something that would compete with private sector launch 
capabilities. In fact, we have been encouraging and trying to 
support the development of private launch capabilities. And 
that will continue to be the case.
    NASA should not be a launching agency. NASA should be at 
the front edge of space science and other activities. And so, 
if that is a problem, then I can certainly answer that 
straightforwardly. We are trying to promote the growth and 
development of commercial space activities, in fact, we have 
purchased some of those launch capabilities ourselves in some 
of our governmental launches.
    We have also, of course, as you know, been working with the 
Russians as well as the Chinese in some international dealings 
here. And we would like to encourage them to have a good 
commercial space capability, as well. But they do not have a 
pricing system that we can understand or that we believe is 
fair. So, we have to put some more constraints in that system 
until they develop more of a market base for their costing.
    Mr. Lewis. Well, Dr. Gibbons, in this but with other 
agencies that involve themselves with research and the work of 
science, I am very interested in the input of your agency as a 
fair and independent broker of ideas that flush the process. 
You can help us flush a process if you will. This question is a 
piece of that but you will see that other questions I have 
reflect the same interest.
    Dr. Gibbons. All right, thank you, Mr. Chairman.

                        next generation internet

    Mr. Lewis. The President's budget proposes spending $100 
million on a new program called Next Generation Internet. This 
program would help develop and connect our research 
institutions to a new Internet considerably faster and better 
than what exists today.
    The National Science Foundation has been a leader in 
pushing the research and development behind today's Internet 
and has been investing in a high-speed backbone network for a 
year or two. So, this subcommittee had expected to see the 
Foundation play a leadership role in this new program. Yet, the 
Foundation has only $10 million in its budget request for this 
program and as near as I can tell it looks like only about $5 
million of it is actually new money.
    Would you outline the various roles and funding 
responsibilities of the agencies involved in this program and 
help enlighten us as to how the program was put together and 
how you expect to operate?
    Dr. Gibbons. What we hope to do is to follow some of the 
same pattern that occurred in the development of the Internet 
One. Namely, that one, of course, began with Department of 
Defense funding as the so-called ARPANET. And then it grew with 
the engagement of the Department of Energy's weapons programs 
and their large laboratories. And also then it became an NSF-
Net which coupled the universities and then, of course, went 
its own independent way.
    And I think the actual way that the Internet Two is going 
to be carried forward, as a public/private partnership in the 
months ahead, still depends on the degree to which the proposed 
funding is provided by Congress and how the agencies work out 
together the way that they will invest.
    A substantial portion of this money is at Defense, at 
Energy, and a portion at NSF. And we will be working with those 
three agencies, in particular, as a pool, rather than three 
separate agencies to try to make sure that we develop something 
in concert. So, exactly where the money sits in terms of an 
agency budget is less important to me than the fact that we 
work those agencies together in a unit under the National 
Science and Technology Council.

                 registration of internet domain names

    Mr. Lewis. Okay, thank you for that.
    The National Science Foundation has responsibility for, 
among other things, registration of domain names for Internet 
use. The Foundation has contracted with a private entity to 
administer the registration process and collect fees associated 
with the registration. Recently, the NSF Inspector General 
issued a report on the administration of the Internet 
addresses. In that report the Inspector General stated that NSF 
should ensure that a portion of the fees obtained to register 
Internet addresses are used to support the future basic 
research and education related to the Internet with the long-
term objective of making such activities self-sustaining. Is it 
the position of your office that NSF should continue 
responsibility for registration of domain names?
    Dr. Gibbons. We have an interagency working group actively 
working on this right now, Mr. Chairman, but I believe that 
first of all that Network Solutions is the name of the company 
that is in the private sector working with NSF in this regard.
    And a portion of the registration funds flow back into NSF 
in the form of pools for reinvestment in that area. And first 
of all, we would like to make sure that the registry is done 
under a competitive basis. I do not like having single 
contractors. And I think that is one thing that will be 
examined. The second thing is that I do not believe that NSF 
wants to be deeply engaged in this business because it simply 
detracts from their ability to spend their, put their focus on 
fundamental research, mostly university-based research.
    And so, our interagency working group is going to try to 
see if it can figure out how the government should play its 
appropriate role of oversight, but at the same time depend on 
the private sector to carry out the work which we think is the 
cheaper way to go.
    Mr. Lewis. You mentioned revenues or fees, and I want to 
have your input regarding your view of how those revenues 
should be used. But as a preliminary to that the Inspector 
General report estimates that close to a million domain names 
have currently been registered and, as projected, that the 
number of domain names registrations will reach a level of 
about four million by Fiscal Year 1999.
    At this level, revenue of $200 million would be generated 
annually with about $60 million as a net of expenses. In your 
opinion is this a realistic estimate and what effort would you 
expect the Foundation to finance with this amount of money and 
with that any comments you have about alternative thoughts?
    Dr. Gibbons. Well, Ms. Meek might like to know about that 
$50 per applicant. That does mount up to real money after a 
while with four million applicants and $50 apiece a year is 
$200 million.
    Whether that is the proper number over the long term for 
Internet page name is the question that is well worth asking.
    Mr. Lewis. We kind of picked the $50 out of the air, did we 
not?
    Dr. Gibbons. As someone said it was an intuitive choice.
    Mr. Lewis. Yes.
    Dr. Gibbons. And I would rather choose high than low 
because you cannot lose on each one and make it up in volume. 
So, if the funds flow back into the Science Foundation or under 
fiduciary responsibility then I have no concern about the fact 
that very high utility uses can be made for those resources. I 
would hope though that like any charge one makes, one should 
try to associate the revenue from that stream in a reinvestment 
that goes back toward that same stream, namely how to improve 
that whole Internet system, rather than sending it off to some 
other area of research.
    Mr. Lewis. Right, right.

                   federal-private sector partnership

    Let me ask a couple of questions in another area and then 
turn to my colleague, Mr. Stokes.
    Some organizations have criticized portions of the budget 
which finance research and development programs as being 
corporate welfare. For example, a portion of the NASA 
aeronautical research program directly supports high speed 
civil transport research which will benefit commercial aircraft 
manufacturers and airlines--corporate welfare.
    What is the Administration's response to the charge that 
the discretionary budget request is full of corporate welfare 
which should be eliminated from the budget?
    And let me ask the other question I have also. To what 
extent are programs which some organizations label corporate 
welfare really the seed money which helps this country maintain 
a competitive edge in the world's economy?
    Dr. Gibbons. Those are two views of the same phenomenon of 
these Federal private partnerships of various sorts. And I 
think that we are learning as we go along but we have learned 
over 150 years of the enormous utility of creating these ad hoc 
partnerships built on the frontiers of science that flourish. 
And I think that the first one was Samuel F. B. Morse who got a 
Federal grant to help build the telegraph line from Baltimore 
to Washington. And it goes on from there to the most up to date 
things.
    Mr. Lewis. We are still repairing that line.
    Dr. Gibbons. We are still repairing that line. [Laughter.]
    And corporate welfare is, I think, a legitimate question 
because it is one of those many questions that has to do with 
the utility of our public investments. How well are we 
investing, as it were, our taxpayers' resources as investors, 
you and I.
    And I could start with welfare that goes to sugar growers. 
You know, there are lots of forms of welfare and subsidies. 
Some of them fully justifiable and others questionable. That is 
sort of the American enterprise and it has been that way ever 
since our earliest days.
    And you do not solve it, you just keep working at it to 
make sure each year you reexamine these things and you get rid 
of the worst that you can find and you add the best that you 
can find in return. And I think in terms of NASA, that I know 
that the administrator is looking hard at his aeronautics 
programs because what we are after here is to continue the 
responsibility that NASA has for aeronautics inherited from the 
old NACA days and apply them to the highest and best use. And 
the highest and best use these days is probably more in the 
area of aviation safety than it is in very high-speed 
transport. And I think some of the resources are shifting 
because of that.
    But very high-speed transport is a matter that the private 
sector cannot and will not invest in now because it does not 
reach their hurdle rate. It is beyond them except for military 
aircraft. And, so, if we want to stay up to the state-of-the-
art of very high-speed transport, then it depends on the public 
sector to help invest to make it a little easier for us as a 
nation to at least stay at the state-of-the-art of very high-
speed transport. So, it is a careful tradeoff of where we can 
put a little money in that in turn would attract private 
capital in to enable us to stay up at the front edge of these 
things.
    I think that seed capital that you mentioned is a good 
image. And it is where those areas of science and technology 
that, even with great uncertainty, have the chance to really be 
important to us as a nation for our health, our economy, our 
security. And which are ones that will not happen by themselves 
in the market place; a market place driven by intense 
international competitiveness, a shorter and shorter time 
horizon for industrial decision making and product cycle 
lifetimes of now 20 months or less for a product that has 
revolutionized the way the industrial leaders have to think 
about their investments including research.
    How can we enter that stream and put our resources in at 
the right place that leverage our public interest in something 
with the private interest that is with it and together be able 
to make things happen? All the leading industrial countries are 
now having to wrestle with this and we are not immune from it. 
And what I think we must do is understand that reality and say 
whether we like it or not that it is the way it is.
    The question is how can we go about this in a way that 
gives us constant feedback about the utility of these 
investments and turn off those that do not work and pursue 
those that do. And that means very frequent revisitation of the 
progress of project milestones that say we are going to narrow 
our decision now down from these three candidate technologies 
to one candidate technology, other things that keep these 
things just from proliferating year after year.
    Our partnership for a new generation of vehicles is doing 
that right now. Researchers love to keep their hooks on a lot 
of different ways to get at a very, very efficient automobile 
but if you are going to build a production prototype by the 
year 2002, you have to start narrowing the field after a while 
and leaving some of these things out.
    And that is just where they are narrowing the field now. 
And I think that is an example of how we need to learn and work 
with the private sector so that our respective roles are well 
identified, our mutual interests, each of us, are well 
identified and everyone has money on the table.
    If everyone has money on the table, and we look very hard 
constantly at how well it is working, then the notion of 
corporate welfare disappears as far as I am concerned.
    Mr. Lewis. Dr. Gibbons, beauty lies in the eyes of the 
genuflector it has been said. It is also been suggested that 
the longest standing element of socialism in the world lies 
with that partnership between the U.S. Federal Government and 
agriculture. And I appreciated your general response and some 
of the specifics. I would hope you would feel free to add to 
that question for the record, as well because it is an 
important subject area that is going to be a part of the 
discussion out there in the general House, not just in this 
Subcommittee.
    Dr. Gibbons. Mr. Chairman, I would be happy to send you a 
brief extension of my responses because I share with you the 
concern that this is probably one of the most important focal 
points that we need to continue to work on together and see if 
we can resolve it. I would first want to send you a very 
thoughtful, but brief statement from the President's Science 
Advisory Committee that examined that question of the 
rationality for public and private investment. So that is the 
first thing I would like to send to you.
    And then I will add some more remarks to it.
    Mr. Lewis. I appreciate that.
    Thank you.
    Dr. Gibbons. Thank you.
    Mr. Lewis. My colleague who has been with me all day long.

                                cloning

    Mr. Stokes. Thank you, Mr. Chairman.
    Your presentation mentioned this issue of cloning which is 
getting a great deal of visible attention in the media.
    I note that yesterday, the President issued a ban of the 
use of Federal research funding on human cloning efforts.
    Dr. Gibbons. Yes, sir.
    Mr. Stokes. And at the same time, he urged privately funded 
research, the Institute of Medicine. What role did your office 
play in this announcement?
    Dr. Gibbons. Well, it couldn't have been much more central, 
quite honestly.
    Over the past week, we analyzed the scientific information. 
We worked hand and hand with the Domestic Policy Council and 
prepared a memorandum that the chairman of that Council and I 
co-signed and sent to the President and made certain 
recommendations to him, as well as giving him the background on 
it.
    It was decided that the President did want to take some 
further action than he had done earlier, which was to say that 
his 1994 decision, relevant to this, should cover the matter.
    When we looked at it carefully enough, we found that it 
wasn't as total coverage of his concerns, as it should be. So 
we developed the paper, and he announced that yesterday 
morning, with instructions to the agencies, just as you have 
related, which includes more than just HHS. It includes all the 
agencies.
    It also does make this plea to the private sector to follow 
likewise, while the National Bioethics Advisory Commission 
responds to the President's request that they look at this 
situation carefully and report back within 60 days.
    Since that time, we have had very positive feedback from 
everyone from the religious community to the biomedical 
industrial community, and I think the President has chosen 
wisely in this regard, but we were--I guess we were--the 
instigator of the whole process, and the President was very 
deeply involved in it.
    Mr. Stokes. I think it would be instructive if you were to 
put on record and say to us what are the Administration's 
concerns relative to conducting human cloning efforts.
    Dr. Gibbons. We feel that the state of research in cellular 
and molecular biology is enormously important to us and to our 
future. It has to do with not only human health and problems of 
human infertility, but also issues of agricultural productivity 
and of pharmaceuticals. It goes across a whole gamut of health 
and related activities.
    The concern we have is that, while we feel it would not be 
entirely inappropriate to talk of cloning a human being, which 
is basically making as many identical twins as you want, except 
you space them apart and they aren't born at the same time, 
this is beyond where society would tolerate anyone going. We 
don't know anyone that wants to go that way yet, but we feel 
like there is a difference between the control of science which 
is laissez faire and the control of technology which is a 
social function.
    So we tried to draw the bright line to say cloning human 
beings is off limits, in terms of Federal support in any way, 
and we would also urge the private sector to follow suit, and 
we believe they will.
    On the other hand, we would be very much concerned if hasty 
action were taken, whether it be legislative or otherwise, that 
could say we are going to ban the research related to this 
because that would mean you might ban research on gene 
switching, which is fundamentally important in cancer and other 
tough human diseases, and other areas of fundamental research, 
which we feel should not have that kind of constraint.
    So we are trying to divide the line between the technology 
of cloning human beings and the underlying science, which is so 
important for all of our health and agriculture work.

                 national bioethics advisory commission

    Mr. Stokes. Okay. Dr. Gibbons, you mentioned this morning 
this National Bioethics Advisory Commission. Tell us who are 
these people. Who is on the commission? What is their 
relationship to the Federal Government? What is their role?
    Dr. Gibbons. First of all, I would like to send you a 
summary of that commission and the membership, and I will do 
that.
    The commission was appointed by the President about a year 
ago. It is a commission chaired by the president of Princeton 
University, Harold Shapiro. Its membership, I believe there are 
less than 20, but it is a relatively large membership that 
broadly represents the medical and scientific community, the 
religious community, the industrial community, and as a whole, 
it was enabled to give a very broad perspective on issues of 
bioethics, biomedical ethics.
    The concern was the use of human beings in biomedical 
research and activities, and they were working away on some 
issues until this one came up last week. At the President's 
request, they put aside the things they were working on and are 
focussing on this particular issue over the next 60 days.
    The Vice President, I think, as you may know, and others in 
the Senate attempted to organize some biomedical ethics 
activities, and it failed because they couldn't agree on the 
membership itself.
    I worked closely with Mark Hatfield and Ted Kennedy and 
John Glenn and others in setting up this one, so that we could 
be assured that it would have bipartisan constitution and would 
be utilitarian not only to the President and the various 
Federal agencies, but also helpful to the Congress and the 
American people.
    It is funded in a way that we could use some help on, quite 
honestly, Mr. Stokes. The administrative home for the 
commission is under the Department of HHS. At the same time, 
HHS pays for about half of the money to support the commission, 
about $800,000.
    Because other agencies are intensely interested in this and 
engaged, that is, Defense, EPA, Department of Energy, and other 
agencies, we have collected resources from each of those 
agencies to create a multi-agency pool of support.
    Now, the problem is that the Congress doesn't want that 
kind of merging and commingling of agency funds for an 
activity, even if the activity is an integration over those 
agencies. So we may need a little legislative help in making it 
legal for us to be able to combine the interests of the 
agencies in the single commission, which can serve all of their 
needs.
    I will send you the list of the commission members.
    Mr. Stokes. I would appreciate receiving that.
    Mr. Lewis. Mr. Stokes, I wonder if I could just interrupt 
you for a moment.
    Mr. Stokes. Sure, Mr. Chairman. I yield to you.
    Mr. Lewis. It has just come to my attention that there is a 
meeting of the various chairmen of the Appropriation Committee 
with the Speaker at a luncheon today, which in some way I might 
calendar that is going to be tomorrow, since they started a 
little while ago.
    I have a couple of questions that relate to Space Station 
and the Russians and items that are very specific dealing with 
air quality that I think I would like to hand over to my 
favorite chairman.
    If you would at the appropriate time recognize Ms. Meek.
    Mr. Stokes. All right.
    Mr. Lewis. Jack, if you would answer other questions that 
we may have for the record.
    Dr. Gibbons. I would be delighted.
    Mr. Lewis. I do apologize for this, but somebody just 
called and said what is the matter, ``don't you want to go to 
lunch with me.'' So I have got to do that.
    Dr. Gibbons. I understand, Jerry. Thank you.
    Mr. Stokes [presiding.] We will be happy to comply with the 
Chair. Thank you very much.

                          research on cloning

    I guess one of the questions, Dr. Gibbons, that comes to 
mind that we have discussed, this whole area that we are 
talking about, is how and where they draw the line on what 
constitutes research on human cloning. Is there some definitive 
way of our understanding of that aspect?
    Dr. Gibbons. Dr. Varmus, whom you know, is head of the NIH 
and a Nobel Prize Winner. I think he has done a pretty good job 
of this in his testimony over the past week, and I could 
summarize----
    Mr. Stokes. I was there that morning.
    Dr. Gibbons. Oh, you were.
    I believe that Senator Frist told me yesterday, he was 
organizing the hearing next week on the whole business of 
cloning and his scientific setting, and since he is a 
physician, I think it would be a very informative hearing.
    The kind of science being used to do these sorts of--to 
work with cells and with the nuclei of cells, to try to 
understand how cells move from undifferentiated forms, so-
called stem cells, to where certain triggers occur that turn on 
certain genes and off certain genes inside the cell, which then 
transform that undifferentiated cell either into a skin cell or 
a liver cell or a brain cell. Extraordinary things happen 
there.
    If we can come better to understand that, then we can come 
better to understand some of the most difficult diseases that 
we face today, the noninfectious diseases.
    That same technology leads you to increase capabilities to 
do things like cloning. Cloning is, in a way, a way of testing 
how well we understand that system.
    All sorts of different scientific disciplines come 
together, and then one of the outcomes is this question of 
cloning. So it is better to draw the line at the cloning side 
for humans than it is to try to draw the line behind that 
because then you get into a whole bunch of different 
fundamental science disciplines. Is that helpful?
    Mr. Stokes. It is helpful, and of course, I predicate my 
question upon the fact that I sit on that subcommittee, where 
Dr. Varmus addressed the matter last week. Almost every day, we 
have doctors over there who talk about gene splitting and other 
aspects of the whole gene research development, where they talk 
to us about how, through gene splitting and things of that 
sort, they can now be able, they think, to cure certain 
diseases and be able to help people avoid certain diseases and 
things of that sort, and it is a very thin line between all of 
this.
    You can ostensibly be going in one direction where you are 
simultaneously going in another.
    Dr. Gibbons. You are right. First, sickle cell anemia is 
one example of where the gene switching, if we can figure it 
out.
    Mr. Stokes. That was testified about yesterday.
    Dr. Gibbons. In AIDS research, we are beginning to figure 
out the shapes of these molecules and the viruses and how 
molecules come in and attach themselves or the viruses attach 
themselves to cells, this so-called lock-and-key business, and 
we are beginning to figure out how you can avoid the lock-and-
key system of an AIDS virus and, therefore, block its action in 
the body. They are having extraordinary effects, and this is 
immensely powerful science, but like every powerful idea, every 
powerful idea from handwriting to speech to the nucleus of 
atoms, comes with it both the opportunity for good or ill.
    It is not to say that we should eschew powerful ideas, but 
that when we come across them, we need to understand that we 
have to exercise the kind of stewardship control of the 
generators of those ideas. It is sort of the good news and the 
bad news.
    I think this NBAC, this Bioethics Advisory Commission, will 
enable us in governance, in the Congress and the White House, 
to have a sort of pulling-together of national, if not 
international wisdom on these issues, and that is why I am a 
strong believer in having these kinds of multidisciplinary 
commissions think very carefully and then come back and tell us 
what they think.
    Mr. Stokes. Thank you. I have some more questions, but at 
this time, I would like to yield to Ms. Meek.
    Ms. Meek. Thank you so much, Mr. Chairman.

                                 sr 124

    To you, Jack, I am very much interested, as I have been 
around higher education for many years, started out as a 
biology teacher and never lost interest in the area of which 
you just discussed. However, I am interested in what I see as 
contradicting policies in the Congress, and I never thought I 
would ever agree with Senator Gramm on anything, but I like his 
SR 124, in that he is trying to get the Congress to address 
some of the very strong needs in the area of research and 
science.
    There isn't much interest in it on this side of the 
Congress. I don't know whether Lou and I and some of the rest 
of us should get behind this particular initiative, in that 
everything that everybody is looking at, to the glide path to 
the 2002, and because of that, we would have extreme difficulty 
trying to do that, but it is something that I think we should 
continue to strive for.
    I don't think that science should take a back seat to the 
budget as being one area that we must take a slow path toward, 
and I don't know how we can do this, but I think that we should 
try and push and provide incentives toward getting there. I 
think the President's Budget has addressed it, but not to the 
point that we can address science and research.
    Instead of a question, my comment is, I am happy to meet 
you and hear your focus on it. I don't think you are a voice in 
the wilderness. I think we all feel very strongly about what 
you said, but it is very difficult to get the other members of 
Congress.
    I have listened many years when I was on Appropriations 
before to many of the arguments for the science and research 
subcommittees or the committees of substance, the authorizing 
committees, to discuss this.
    So I would just like to say that I would certainly be 
willing to join any effort to help to try to do this from the 
appropriations point of view, and I am here now and I will do 
the best that I can, but there is a lot of money being spent in 
research for the Defense Department. Maybe some of that could 
be shifted to non-defense kinds of research.
    I don't want anyone to block the door and hit me over the 
head about this, but I would like to see some changes made in 
the way the money is allocated.
    Dr. Gibbons. Ms. Meek, I am very much sympathetic with your 
concerns, and I think Senator Gramm has done a first-rate job 
of saying let's really be serious about the reflecting.
    See, his background is in economics. I can just see it now. 
He said 50-percent rate of return. That is the best public 
investment we could make. Why don't we put more money on the 
head of that horse--or on the nose of that horse, I guess? I 
would say that is fine, but the problem is, if we are living 
with a discretionary spending cap, then we always have to ask, 
if we put another dollar there, where does it come from, and 
that, of course, is the reality of trying to get this moved 
toward this balancing of the budget.
    I would hope that his voice and that of other members, both 
sides of the aisle and both sides of the Hill, are voicing 
increasingly these days. I know George Brown, for example, has 
been a strong and vociferous advocate of expansion, and if we 
look behind us at Japan doubling their R&D budget, all we have 
to do is slow down a little bit and someone is going to go 
right on past us.
    If it does, in fact, have such a rate of return and if we 
can combine it with higher education so that we get not only 
new knowledge, but also new people, then it merits every bit of 
support we can give it.
    I am pleased the President personally drew some bright 
lines on the cuts in the science budget. At the same time, I 
think in the next several years, it is going to be increasingly 
the case of asking just the question you asked, and I would 
hope that my work and that of Neal Lane and yourselves and 
others in raising this constantly before the American people 
will result in a further feedback to people like the members of 
Congress and the President that says, hey, let's support this 
because this is really something that is good for all of us. It 
is an investment with high payback.

      department of defense share of science and technology budget

    Ms. Meek. If I may go a little further with that. I don't 
think that we are going to get that much more money. I don't 
think we would.
    We have got to look at what we have and what is already in 
the budget. That was my thinking in terms of looking at the 
money for research that is placed in defense types of issues or 
initiatives and whether there is any room there for any 
shifting of some of the monies into non-defense research.
    Dr. Gibbons. We have done some shifting. The ratio is down 
substantially from where it was; that is, of defense versus 
civil applications.
    Also, within the Defense Department, the so-called 6.1 
programs, which are the fundamental science programs supported 
by the Department of Defense, where, for instance, about three-
fourths of all our new computer engineers are supported in 
graduate school, the money in those 6.1 programs is up 
substantially, I think about 7 percent, but the other defense 
development programs, hardware and the likes, have been cut, so 
that we have been differentially--even with the Department of 
Defense, we have been upping the basic research, compared to 
the applied hardware, and I think that is an appropriate move.
    Ms. Meek. Do I have a little more time, Mr. Chairman?
    Mr. Stokes. You certainly do, Ms. Meek.

        science and technology funding for minority institutions

    Ms. Meek. When I was on the Energy and Water Subcommittee 
of Appropriations, I was appalled to see the paucity of 
research money that went to minority institutions.
    I ask you the same kind of question that I asked them. What 
plans do you have for increasing what you are doing in minority 
institutions in bringing the level of research and development 
much higher than it is now? That list was one that showed very 
little being done in historically black colleges. So I ask you 
the same kind of question. What is your vision for historically 
black colleges in terms of research and development and science 
and technology?
    Dr. Gibbons. We strongly support things like the EPSCOR 
programs, which are aimed at trying to specifically go to the 
smaller universities and colleges and the more rural states as 
well and give extra support to their building new consortia and 
to give them extra attention in terms of the funding of 
research.
    EPSCOR has gone from just an NSF project to where it is now 
embedded at DOD, at NASA, and other of the agencies, and we are 
going to continue to encourage that direction.
    What you don't want to do is somehow create two tiers, sort 
of the good tier and the mediocre tier. That is not what we are 
after. What we are after is helping bring these institutions in 
line with the finest of research going on by teaming and 
pairing them with the so-called research universities and to 
give them the extra breaks that the EPSCOR program does. So I 
and Neal Lane and others are strong supporters of continuing 
that program.
    Ms. Meek. What that does, however, is to maintain the 
universities which have always got money for research. It sort 
of grandfathers them in, and there is just so much money to go 
around, and they continue to be grandfathered in, and the HBCUs 
are never really given the chance, by the mere fact they are 
considered, but the word ``minority'' is the same as lack of 
capability, when my argument is that it is not.
    Dr. Gibbons. Right.
    Ms. Meek. I certainly would like to see you as being the 
person who is--you are sort of a guru in this, I hear--would be 
able to do more of this, make this mix a little richer.
    Dr. Gibbons. I would be delighted to try to help, and I 
would also appreciate having the chance to talk with you at 
greater length about this because I am greatly concerned not 
only about the research support in these institutions, but also 
our ability to----
    Ms. Meek. George Washington Carver never had a grant from 
the Federal Government.
    Dr. Gibbons. That is right. He did pretty well.
    Ms. Meek. Some of the greatest research in this country was 
performed by him.
    Dr. Gibbons. And I am concerned, also, about the attraction 
of promising young students of the under-represented minorities 
into science and engineering and am very interested in the 
activities that are now going on for mentoring, and we have 
established--the President has established a mentoring award 
now to a number of people each year who are recognized for 
helping people get through that period where many of them get 
turned off from science and pursue some other direction, but 
coax them in, and once they are there, mentor them along, so 
that they can get the kind of extra help they might need.
    Ms. Meek. Lou Stokes has mentioned this to me. I will be 
calling a clone of his and be looking for a clone, except that 
the gender is different, and I understand you are not going to 
worry so much about gender when you start some of these cloning 
initiatives, but with that aside, I would like to make that 
point.
    Dr. Gibbons. Thank you.
    Ms. Meek. Certainly, if we are to advance, that is one way 
we need to.
    Dr. Gibbons. I agree with you, and I think for many, many 
reasons, it is very important for us to give much more 
consideration now because we are underlying a demographic shift 
of our population mix in the coming decades. More and more of 
student bodies are African American and are traditionally 
under-represented minorities in these very areas of research 
and education; that we need to coax them in and give them every 
bit of nourishment.
    Ms. Meek. Thank you.
    Dr. Gibbons. Thank you.
    May I come to see you about that sometime?
    Ms. Meek. Yes, sir, I would like you to come and see me.
    I am finished. Thank you.
    Mr. Stokes. All right. Dr. Gibbons, I might say, too, that 
Ms. Meek is absolutely correct, I think, in raising that 
particular issue.
    The EPSCOR program is a great program. It was initiated by 
this Subcommittee a number of years ago, and the gentleman from 
Arkansas, of course, as you know, the former head of the 
University of Arkansas----
    Dr. Gibbons. Ray Thornton.
    Mr. Stokes. Ray Thornton is thought of as the leader in 
this effort and honchoed it through every year in terms of its 
funding, but it does not present a level playing field as it 
relates to these historically black colleges and universities.
    So I would be interested, also, in any discussion you might 
have with Ms. Meek relative to pursuing her concerns in that 
area.
    Dr. Gibbons. Good. That is great. Thank you.
    Mr. Stokes. Just a couple of questions, and then we will 
let you get on to other things, but I want to talk to you a 
little bit. You mentioned ``Cleveland Tomorrow,'' and I know 
that out in Cleveland, the Case Western Reserve University is 
in my district. They are going to be concerned about the 
research budget.

           increase in fy 1998 science and technology budget

    I note that you addressed the nature of the Federal 
Government's research budget here on pages 3 and 4 of your 
statement.
    Dr. Gibbons. Yes.
    Mr. Stokes. Then, on page 78 of the President's budget, it 
portrays an increase of $1.6 billion in the total R&D budget 
with the defense side increasing by $212 million and civilian 
side by $1.436 billion, which is a little misleading in this 
sense.
    More than $1 billion in civilian increases for the 
Department of Energy's facilities are positioned, as the 
footnote indicates, it says primarily in defense. When we take 
this into account, doesn't the 1998 budget really represent a 
very status quo budget as far as domestic science and 
technology is concerned?
    Dr. Gibbons. It is close to status quo, which means we have 
held the line with increases typically in the range of 
inflation offsets, like 3 percent. Within defense, as I 
mentioned to Ms. Meek a while ago, they shifted more support to 
the 6.1 or the fundamental science part, and they did this by 
moving funds away from the more applied hardware programs, and 
I think that is the right direction to move, but you are right. 
I think one has to take into account the defense-related 
expenditures in the Department of Energy before you get an 
accurate picture of that budget, and the way you have described 
it is the way I understand it.

                   russia's role in the space station

    Mr. Stokes. I have just one other question in another area. 
I want to get into a question about NASA.
    One of the main issues facing NASA last year, and this is a 
continuing inability of the Russian government to provide 
adequate funding to keep its part in the National Space Station 
and especially the service module on schedule.
    According to the latest promises of the Russians, the money 
flow was to have been turned on by the end of February. It is 
now March 5th, and that still has not happened.
    What has been the role of OSTP in this continuing saga, and 
has your advice been followed?
    Dr. Gibbons. Well, my role--as you recall the activities of 
the National Space Council, they were also folded into OSTP at 
the beginning of President Clinton's first term. So I do have a 
continuing responsibility to work with NASA, and I have worked 
with Dan Goldin on the Russian situation.
    In fact, I worked with Dan since we devised early on in 
1993 the notion of internationalizing the station and bringing 
Russia and its expertise into the system and at the same time 
using that as a vehicle for encouraging the Russians to move 
along the paths we sort of like to see them move in terms of 
use of their missile technologies.
    Now, we can't predict the future, especially in a country 
like Russia that has so many inherent uncertainties and 
difficulties associated with it, but we are not at all deterred 
by these difficulties in our feeling that this is a situation 
in which our continued working with the Russians is worth every 
penny of the investment and all the tribulations that go with 
it.
    We used to spend more than $50 billion a year defending 
ourselves from the threat of Russia, and what we are trying to 
do now is avoid having to go back to that kind of time, and the 
Space Station is an example of a convergence of important 
technological capabilities, but with a country that has 
extremely volatile political, and financial conditions. That 
means we simply have to--in a sense, you might call it a river 
boat gamble. I wouldn't call it that, but I would call it a 
speculative investment that is well worth the cost.
    What we are faced with now in Russia is the fact that while 
they have all the technical capabilities to do the things they 
indicated they would do and while they have done what they 
promised in return for our purchasing a vehicle from them, 
which is the first power unit that they have made, it is on 
schedule. It is on budget. It will be ready by this fall, and 
that will be the first of the launches.
    The command module was going to be a piece that the 
Russians themselves would furnish without us buying it or 
purchasing it or contracting for it. That was along with our 
arrangements with Mir and the likes.
    What has happened now is that the Russian government's 
resources have shrunk and with the requirements of their 
military and all the rest of their economy, they are so far 
beyond that they really had to pinch here and pinch there, and 
they have pinched this one to the point we are now running 8 to 
10 months late on the command module.
    When Prime Minister Chernomyrdin was here in January, he 
committed to the Vice President that he was going, and had the 
agreement of the Duma, to provide funds to the Russian Space 
Agency to get the space control module back on course. We are 
cautiously optimistic, but we are also realistic in saying we 
will believe it when it happens.

             ostp role in resolving space station problems

    So what we are trying to do now, we will be sending General 
Stafford over with a group later this month on the site. The 
Russians have said we can look at their books. We can see when 
the money arrives, and we can go in the labs and see what they 
are doing, but we are at the same time getting more and more 
concerned about our backup options.
    We have a couple of options. You don't go into this 
business without having some alternative ways to go. The 
alternative ways to go will cost us some money, and we are 
concerned about the impact that will have on the overall 
envelope of funding for Space Station, and we don't want to 
commit to those options unless the Russians, in fact, fall flat 
on their face.
    It is a very difficult time, Mr. Stokes, but when I think 
about the opportunity we have in using this as a vehicle for 
working with these people and moving them along in the 
direction of a civilian-dominated market economy, I still think 
it is worth the gamble.
    Mr. Stokes. Any concern along the line that Space Station 
may be being held hostage in terms of the non-related issues 
such as NATO expansion in the former Soviet bloc country?
    Dr. Gibbons. I don't want to speculate on that too much. I 
do know the Russians are very much concerned about NATO coming 
to the East. They have a mother country feeling, and they see 
Western Europe marching closer to their original borders, and I 
am sure that worries them.
    Whether or not this is somehow related to that, I can't 
tell you. I do know there is a parallel. I have had nominations 
for two associate directors at OSTP that have been up on the 
Hill since last July, and I have been told that there is 
nothing wrong with the people, but they are being held hostage. 
So it is a reality in politics.
    Mr. Stokes. I agree with that.
    Well, thank you very much, Dr. Gibbons.
    At this point, we will submit--I have some additional 
questions to submit, and of course, we will submit to you some 
additional questions from Chairman Lewis, as he has already 
indicated.
    Dr. Gibbons. All right, sir.
    Mr. Stokes. We certainly appreciate your appearance here 
this morning, and I guess we are recessed until tomorrow 
morning.

[Pages 66 - 93--The official Committee record contains additional material here.]


                                          Thursday, April 10, 1997.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

DR. NEAL LANE, DIRECTOR, NATIONAL SCIENCE BOARD
DR. RICHARD ZARE, CHAIRMAN, NATIONAL SCIENCE BOARD
DR. JOSEPH BORDOGNA, ACTING DEPUTY DIRECTOR

    Mr. Lewis. The meeting will come to order. This morning the 
Comittee hearing is on the funding of the National Science 
Foundation. With us today are Dr. Richard Zare, Chairman of the 
National Science Board and Dr. Neal Lane, Director of the 
National Science Foundation. The budget request for 1998 is 
$3.3 billion; an increase of $100 million above the 1997 
appropriation.
    This increase represents a 3 percent growth over the 1997 
year which barely keeps up with inflation. We will be 
interested in hearing your comments on what such a small amount 
of growth means for the health of science programs. In 
addition, we will have a number of other subjects to discuss 
with you.
    Dr. Lane, welcome, in a little different environment since 
the last time I spent some time with you. Dr. Zare, welcome, 
for the first time before the Committee. For both of you we 
welcome you to present your testimony in summary form, whatever 
you really would choose, but it will be included in the record 
in its entirety, and Dr. Lane, at the beginning maybe we can 
introduce for the record the colleagues who are with you at the 
table.
    Yesterday, I bypassed Mr. Stokes because he was at another 
meeting, but I am not going to bypass him today.
    My colleague, Mr. Stokes, the gentleman from Ohio.
    Mr. Stokes. Thank you very much, Mr. Chairman.
    I have no opening statement as such. It is a pleasure to 
welcome Dr. Lane and Dr. Zare and all of the panelists here 
this morning; it is a pleasure to have you back.
    Mr. Lane. Thank you, Mr. Chairman, Mr. Stokes, other 
Members of the Committee, I really do appreciate the 
opportunity to appear before you this afternoon to talk about 
NSF's budget request for the coming year. It is a very good 
request and we look forward to talking about it. With your 
permission, I would like to submit my full written statement 
for the record.
    I am very pleased to have joining me today, Professor 
Richard Zare, Chairman of the National Science Board, the 
oversight and policy-making body for the Foundation; Dr. Joe 
Bordogna, who is Acting Deputy Director for the National 
Science Foundation; Dr. Luther Williams, who is Assistant 
Director for Education, Human Resources Director; Dr. Paul 
Young, who is the senior consultant and former Assistant 
Director for the CISE Director, computer information, science 
and engineering; and at the table are experts on the new 
partnerships, the new super-computing center program and other 
colleagues that I will introduce perhaps as we go along and we 
take questions in various areas. We have here, essentially, all 
the senior staff of the National Science Foundation.
    Mr. Lewis. Before Dr. Lane goes, Mr. Stokes, I do not know 
if you realize this but it ought to be on the record, so that 
you will approach Dr. Lane and his colleagues with great 
caution. Dr. Lane believes in effectively communicating or 
communicating in every way possible with people who may affect 
his budget. And he went so far as to take me almost a mile 
under the ocean about a year ago, just off the coast of 
California.
    Mr. Lane. I brought you back. [Laughter.]
    Mr. Lewis. Yes. It must have been half-way productive, 
because I survived.
    Mr. Stokes. Well, a few years ago the then Director at that 
time took me about a mile down, down in the Caribbean and I 
have not been back since.
    Mr. Lewis. My hair turned white, what happened to you?
    Mr. Stokes. It is a different world down there, I can tell 
you that.
    Mr. Lane. Mr. Stokes, as I recall, we tried to get you to 
the Antarctic, too, on more than one occasion.
    Mr. Stokes. You sure did. [Laughter.]
    It is cold enough in Cleveland.
    Mr. Lewis. Now, back to the formal world.
    Mr. Lane. Thank you, Mr. Chairman.
    Before I make a few more summary remarks, I would like 
toask Dr. Zare to make some remarks on behalf of the National Science 
Board.

                         Statement of Dr. Zare

    Mr. Zare. Thank you, Dr. Lane.
    Chairman Lewis and Members of the Subcommittee, I 
appreciate the opportunity to testify before you this morning. 
I am Chairman of the National Science Board and professor of 
chemistry at Stanford University.
    First, I would like to thank the Subcommittee for its 
strong support of the Foundation in the past. Your continuing 
commitment to a strong national effort in research and 
education is extremely important to the NSF as we carry out our 
various responsibilities.
    The budget before you has the wholehearted approval of the 
National Science Board. I would especially like to call your 
attention to a new initiative in the area of knowledge and 
distributed intelligence, KDI, which holds immense potential as 
a driver of progress and opportunity for all Americans.
    This is a new set of investments spanning a wide range of 
Foundation programs including NSF's part of the next generation 
Internet and, going beyond that, for example, to better link 
research and cognition with technologies for teaching and 
learning.
    I wrote an editorial that appeared in Science magazine on 
February 21st and with your permission, I would like to submit 
that editorial for the record.
    Mr. Lewis. Without objection.
    [The information follows:]

[Pages 97 - 98--The official Committee record contains additional material here.]


    Mr. Zare. The Foundation's Fiscal Year 1998 budget also is 
important for improving education in science and mathematics: 
to educate the workers and entrepreneurs who are able to 
understand and use research results and new technological 
capabilities to keep the nation at the forefront in today's 
global marketplace; to refresh the pool of researchers who can 
design novel processes and products and who are able to 
capitalize on discoveries made by other societies; and to give 
the public as a whole, and especially its future leaders, a 
sufficient foundation in science, mathematics, technology and 
problem solving to make sound decisions about important 
national and global issues.
    The Board is also providing oversight to the National 
Science Foundation as it develops methods and processes to 
comply with the present and forthcoming requirements of GPRA, 
the Government Performance and Results Act.
    In addition to our close and continuing oversight of NSF, 
the Board has a special role in monitoring the health of 
science and engineering in the U.S. and providing advice on 
national policy in research and education. We have been 
discussing ways to give considerable attention this year to 
research priorities within NSF in the context of the overall 
picture of support by various other Federal agencies.
    The world is changing more quickly than ever. Each of us 
sees the speed and force of those changes around us every day 
in ways we perceive as wondrous, elegant and profound; even, 
sometimes, a little bit overwhelming.
    I need only mention four examples. First, developing, when 
it is working, a nearly instantaneous worldwide information 
delivery capability that is promising to cause a revolution in 
scientific publishing comparable in its impact to the Gutenberg 
printing press.
    Second, the ever-increasing use of micro-processors and 
robotics, from what you see in the home to those used in 
manufacturing and something that I have a very personal 
involvement in, namely, finding possible evidence of primitive 
life on ancient Mars.
    Third, global competition in manufacturing continues to 
grow, challenging our economic base, and fourth, that the 
public's expectation about combatting terrorism, violence, 
disease, poverty and environmental problems continues to rise.
    Although research, alone, cannot solve these problems, it 
is one of the most important contributors to their solution.
    Because the Federal Government plays a critical role in 
supporting the fundamental research that underlies progress in 
these areas, it is more important than ever that a robust and 
well-considered level of overall Federal investment in long-
term research be sustained.
    The Board is very concerned about the possibilities for 
reduction or compression of the overall Federal investment in 
research. We are concerned as well for the possible fate of the 
various research programs in Federal agencies, whose budgets, 
indeed, whose very existence continues to be challenged.
    Mr. Chairman, we urge the Congress when considering funding 
for Federal agencies that have science, engineering and 
education programs to do so with explicit regard for the 
relationships among those programs across the government and 
with industrial research and development. It is important not 
to take actions that will undercut areas of science and 
engineering vital to our national interests.
    Thank you, Mr. Chairman.
    I will be glad to take any questions at the appropriate 
occasion.
    [The statement of Dr. Zare follows:]

[Pages 101 - 106--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you, Dr. Zare.

                         Statement of Dr. Lane

    Mr. Lane. Mr. Chairman, our budget request is $3.367 
billion. That request will provide us with the resources to 
continue to support approximately 19,000 research and education 
projects in science and engineering, all competitive, merit-
reviewed, peer-evaluated projects. These investments in people 
and in ideas in exploring the unknown--in the ways that my 
colleague, Dr. Zare, who has already commented on--will guide 
our future course as a nation and provide the opportunity to 
improve the quality of life for all Americans as, history tells 
us, has been true in the past.
    The 1996 Nobel Prize in Chemistry was awarded for research 
on the carbon molecules known as buckyballs--which is short for 
Buckministerfullerene--that NSF has supported for over a 
decade. Today, these NSF-supported researchers are now 
stringing buckyballs together into things called nanotubes--
tiny, tiny, long pure carbon tubes that are 100 times stronger 
than steel but only one-sixth the weight of steel. In the words 
of the Washington Post these could be the ``drop-dead super-
fiber of the future.''
    NSF-supported discoveries have had a large impact on the 
world from understanding how plants respond to disease and, 
thereby, paving the way to plants that will resist parasites 
without pesticides; to developing microbes that can 
purifycontaminated groundwater; to using auditory detection strategies 
first identified in frogs as models for improved hearing aids. Where 
would we be without frogs? Even in cloning frogs, again, in the news.
    Mr. Lewis. Everybody has their own priorities.
    Mr. Lane. Furthermore, NSF has a unique role of supporting 
university-based research in education in all fields. This has 
been found to be among the most productive of all public 
investments. One seminal study has estimated that the rate of 
return on investment in academic research exceeds 25 percent on 
an annual basis, out-pacing even the stock market over the long 
haul.
    We are struck by the recent commitment by Japan to increase 
by 50 percent its support for basic research over the next five 
years, in effect, an effort to double its investment between 
the years 1992 and 2000. This is one more reminder that strong 
support for research and education is essential if the U.S. is 
to remain a world leader economy in the 21st century.
    How can we expect to compete in the world's aggressively, 
technologically driven markets if we reduce the very 
investments in people, ideas, and instrumentation that create 
the technology?
    Let me turn for a moment to what is new in our budget. As I 
mentioned, the total request is $3.367 billion, an increase of 
nearly $100 million, $97 million. It represents a strong 
commitment to research at the time of constrained budget 
discretionary spending.
    Of this increase, roughly half, $49 million, will go to 
research project support of activities ranging all the way from 
individual investigators to major centers and collaborative 
research activities.
    Just under a quarter of our increase, $22 million, will go 
for national research facilities and another quarter, $23 
million, for education and training.
    The remaining 3 percent, $3 million, will go for 
administration and management. The additional funding provided 
in this request will allow NSF to focus on several 
multidisciplinary areas of research and education, developing 
them into coordinated programs.

                    emphases with nsf fy 1998 budget

    The first of these, as Dr. Zare mentioned, knowledge and 
distributed intelligence or KDI, we call it, a Foundation-wide 
effort that will link various research and education programs 
that have strong communication or computational components. It 
focuses on how to design and construct smart systems to reach 
out across the Web and tap the power of new computational 
tools, complex data, images and other information.
    In short, it is the research and education activities that 
will get all of usable knowledge in the hands of the people 
from widely distributed and complex sources of information.
    An infrastructure part of KDI will be our participation in 
the President's five-year program to move toward the Next 
Generation Internet. NSF's $10 million contribution will be 
devoted to participation in a multi-agency program and will 
build on its leadership and its current programs or networking, 
infrastructure development and research.
    A secondary multidisciplinary area of emphasis in our 
budget request is life and earth's environment. Increasingly, 
NSF is focusing on how living organisms interact with their 
environment, including how humans affect their environment and 
vice-versa.
    The study of life in extreme environments from hot vents of 
the deep sea floor to the rocks and ice or the Antarctic 
continent can provide important new insights to how an organism 
is formed and about the range of adaptive mechanisms that allow 
them to function in these extraordinary environments.
    Researchers can then examine how to mimic these mechanisms 
for uses critical to human life such as bio-remediation or bio-
processing.
    A third broad area highlighted in our budget request is 
educating for the future. America's system of higher education 
sets a world leading standard for excellence and inclusiveness. 
Yet, even this outstanding system faces challenges in preparing 
students to deal with the rapidly changing scientific and 
technological landscape that we expect in the 21st century.
    NSF is addressing these challenges by supporting 
innovative, systemic approaches to education and training at 
all levels, the entire continuum, especially through activities 
that link learning and discovery.
    Through our CAREER program, which is an acronym for Faculty 
Early Career Development, which will increase by 21 percent to 
more than $82 million, we are encouraging junior level faculty, 
faculty at early stages in their career, to link explicitly 
their research activities and their teaching and mentoring 
responsibilities.
    The Research Experiences for Undergraduates program, REU we 
call it, which enables several thousand undergraduate students 
each year to participate in ongoing research, one of our most 
popular and we think most effective vehicles for helping young 
people understand what is the nature of science, how does one 
do it, what is special about it and, in many cases, show them 
that, indeed, this is the kind of career they would like. This 
program, REU, will increase by 11 percent to $30 million in 
1998.
    Our brand new program called Integrative Graduate Education 
and Research Training, IGERT, funded at $20 million, reflects a 
shift in the way we support graduate education through research 
grants to a more focused and flexible approach. It is a way to 
work with institutions that are seeing the need to broaden, in 
many ways, the Ph.D. program that they offer their students in 
science and engineering.
    Finally, in 1998, NSF-based funding for EPSCoR totals more 
than $38 million. We further expect that improved linkages 
between EPSCoR and other NSF programs will result in an 
additional $8-to-$10 million for research in EPSCoR states.
    Our budget request also includes a number of facility 
investments. Advancing the frontiers of science and engineering 
simply requires that major research platforms that support the 
activities of a broad spectrum of researchers and educators be 
built.
    Fiscal Year 1998 will see the completion of funding for the 
Laser Interferometer Gravitational Wave Observatory, or LIGO, 
continued investments in facility improvement at the South Pole 
and starting support for two new facilities, the Polar Cap 
Observatory and the First Phase of the Millimeter Array.

                   Conclusion of Dr. Lane's Statement

    NSF remains committed to delivering the highest possible 
returns on the nation's investment in research and education. 
We have traditionally maintained a very low overhead rateand 
have received national recognition for our commitment to efficiency and 
productivity. This past December, NSF became the first Federal agency 
to receive the prestigious National Information Infrastructure Award, 
which recognizes innovative uses of the Internet and the World Wide Web 
in business, education and government.
    Mr. Chairman, today's budget realities require that every 
dollar work harder and yield the highest possible dividends. At 
the same time, the possibilities and the opportunities that we 
see in every area of science and engineering remind us that 
this is truly a remarkable era for research and education in 
America. Investments in this request will help ensure that our 
nation gains the full benefit from these emerging opportunities 
and that the future brings greater progress and prosperity to 
all Americans.
    Thank you for this opportunity to discuss some of the 
highlights of our budget request. Dr. Zare, Dr. Bordogna, other 
senior members of our NSF staff will be pleased to respond to 
any questions that you or members of the committee might have.
    [The statement of Dr. Lane follows:]

[Pages 110 - 117--The official Committee record contains additional material here.]


             support for science in the president's budget

    Mr. Lewis. Thank you very much, Dr. Lane and Dr. Zare. I 
intend to ask a series of questions, and there will be 
additional questions submitted for the record and we would like 
to have you respond to those.
    As you may know, in this time of the Appropriations 
Committee meeting and all 13 Subcommittees there are all kinds 
of problems and conflicts and it may be that Mr. Stokes is 
going to have to leave for another subcommittee shortly. I am 
going to ask just a general introductory question and then turn 
over the time to Lou for whatever time he could use. In the 
meantime, you will excuse members coming and going, they have 
the same difficulty.
    Dr. Lane will remember, I think, a discussion that we had 
following a meeting that some of our subcommittee chairmen had 
with the Speaker last year and the bottom line of that meeting 
was that the Speaker was expressing very high concern about 
dollars being available for research, both fundamental and 
applied. So, as support, it really is nonpartisan on the House 
side, I believe, and expressed at the highest level in the 
House. Dr. Zare indicated that there was a wholehearted and 
enthusiastic support of his National Science Board for this 
budget for NSF.
    So, with both of those as background, the President's 
budget request highlights an increase of $1.6 billion in the 
total Government R & D budget. However, more than a billion 
dollars of the increase of that $1.4 billion is for Department 
of Energy facilities, so, the real increase is more like $400 
million.
    As these details are more widely evaluated, it appears that 
the general science community is challenging the perception 
that this budget represents strong support for science. In 
fact, on March 4th, a large number of research organizations 
publicly expressed concern about the decline in the 
government's investment in R & D and announced that they were 
going to pursue a 7 percent increase in the Federal R & D 
budget. Do you agree that a detailed analysis of the 
President's budget leads to the conclusion that support for 
science is almost minimal? And, how do you feel about the 
science's community call for a 7 percent increase in the 
Federal R & D budget?
    Mr. Lane. Well, Mr. Chairman, I would want to be clear 
that, as I was in my opening comments, that the 3 percent that 
the President is requesting for NSF we feel reflects strong 
support for science, particularly in the academic community, 
universities and colleges, because that is our primary 
partnerships; that is where our investments are made, through 
the competitive peer-review process.
    The President has said that he would like to do more, that 
he feels it is important to make larger investments in science 
and technology, R & D and in education and we feel his support 
for the National Science Foundation is fully consistent with 
that.
    About the suggestions many are making that the request be 
higher, that the investment be higher, for example, a 7 percent 
increase. The way one might think about 7 percent for the NSF 
budget is to recognize that over the last couple of years we 
have lost about 4 percent in buying power and with inflation 
going into 1998, you could come up with a number of about 7 
percent.
    So, one way to think about what 7 percent would mean, would 
mean that it would pretty well maintain the buying power, 
perhaps do a little better, of the NSF portfolio. Certainly we 
want to work with anybody, everybody on better ways to explain 
to the public the importance of this investment. I think the 
past demonstrates unequivocally why investment in science and 
technology, at the Federal level and in the case of 
universities, is particularly important because of its relation 
to education, why that investment is so important to the 
American people.
    So, we certainly would want to work with anybody on 
developing that case to be a stronger one.
    Mr. Lewis. I presume, Dr. Zare, your Board would not turn 
down additional funding if it came along?
    Mr. Zare. No, it would not. And, indeed, our initial 
requests were yet for more funds than what you see before you.
    Mr. Lewis. Ah, really?
    Mr. Zare. That is right. Let us talk about the real process 
that goes on. We live in a time of very tight budgets and we 
have to, I think, actually be pleased that we have a proposal 
to you for a budget that----
    Mr. Lewis. Is not a decrease?
    Mr. Zare [continuing]. Is not a decrease, that is right. 
Because there are other situations which are worse than this. 
But I do want to point out to you we are missing opportunities 
by not being able to invest more, and the Board is agonized by 
that.
    Mr. Lewis. As I termed it, Mr. Stokes, I think I can repeat 
myself to say that what I would describe as minimal, you may 
describe as worthy of a sigh of relief and we are missing 
opportunities.

                 investment in research and development

    Mr. Stokes. Thank you very much, Mr. Chairman.
    I appreciate the accommodation you are affording me to be 
able to proceed ahead of you in order to accommodate the next 
engagement I have this morning, I appreciate it very much.
    Dr. Lane, if I could just follow-up with a question along 
the lines posed to you by the Chairman a moment ago. An 
analysis prepared by the American Association for the 
Advancement of Science indicates that from 1995 to the year 
2002, total R & D funding at the Science Foundation in constant 
dollars would decrease by 7.5 percent. And during the same 
period, overall Federal R & D would decline by 14 percent under 
the administration's proposals.
    In your opinion, what does this bode for the future 
economic leadership of our nation?
    Mr. Lane. Well, Mr. Stokes, I think if one looks at the 
larger picture the whole U.S. investment in R & D, one has 
reason for great concern. There is always the question about 
who should make which kind of investment. We have a very strong 
industrial R & D base and much of its expenditure has come from 
the Federal government, that has been decreasing. An increasing 
amount of its investment has come from its own funds. That 
growth has been substantial until recent years and that has 
been plateauing out.
    I think if you look at that whole investment--and it is 
reasonable to do that because of the way in which the pieces 
are integrated to work effectively--the fact that that is 
plateauing out, perhaps, starting to decrease at a time when 
other nations, Japan, for example--but, increasingly the group 
called the Asian Tigers--are rapidly increasing their 
investments in R & D, you might ask the question whether those 
countries know something we do not know. Because they believe 
somehow that a substantial investment in R & D is important to 
their future but somehow not so important to our future.
    I think it is a serious problem. I do not believe that the 
United States can be in a position of world leadership in the 
21st century without continuing, perhaps, expanding its overall 
investment in R & D.
    I would like to second that last statement.
    Mr. Stokes. Thank you, Dr. Zare.

                          impact of inflation

    Dr. Lane, the Administration, the American Association for 
the Advancement of Science and most other interested parties 
compare science budgets in relation to inflationary increases. 
Generally the inflation adjustment used is the GDP deflator.
    However, it seems to me that many scientific endeavors, 
especially those relating to medical research and university 
activities are probably experiencing inflation greater than the 
GDP deflator. If this is the case, in a largely status-quo 
budget like 1998, what really results is an even greater loss 
in terms of purchasing power or number of investigators 
supported. Do you agree with this assessment?
    Mr. Lane. Well, that is a very important point you make, 
Mr. Stokes. One thing I could say--and I would like my 
colleagues to give their own opinions here--one thing which I 
would say which is factual about our own portfolio is that for 
several years while we have tried to maintain the buying power, 
defined as the government defines it in terms of consumer 
price, flat, we really have not quite been able to keep up in 
terms of the average grant size with the budgets that we have 
had over the last five, six years.
    So, that is already a problem. During this period, the 
number of grants we have been able to make has turned over and 
begun to go down. The success ratios, which means, you know, 
what is your probability of getting a grant funded when you 
send in a proposal, has started to go down.
    Those things have unpredictable negative impacts on the 
whole enterprise. It is non-linear. I mean you cannot just say 
a few percent down means a few percent loss in productivity. 
But I also do not claim to know how great the damage is.
    A personal opinion I will venture because I am not an 
economist and I am happy I am not. [Laughter.]
    Mr. Lane. No offense to anybody. I am a physicist and I 
have always been happy to be a physicist, but I was the 
university administrator for many years. My sense was that 
inflation, in quotes, in science was, indeed, higher, has been 
for some time than CPI and there are various reasons for that.
    Some really have to do with the advancing technology ad the 
costs associated with the research. In chemistry, for example, 
the costs of chemicals during certain periods has really 
skyrocketed. On the other hand, I think what has happened in 
computational information technology is you get so much more 
for the dollar. So, there are trade-offs.
    The third thing I would say, which probably does not help 
to clarify this any, is that in order to stay at the frontier, 
in order for the nation to be a leader in the world in various 
fields of science and technology, we really have to be at the 
frontier and there is an inflation in expectations and 
requirements, if you like. You really have to do more to make 
those great discoveries and that is not linear either. But it 
does, in my own personal view, lead to more rapid growth in 
costs than the usual numbers would indicate.
    Mr. Stokes. Dr. Zare, do you care to comment?
    Mr. Zare. I might add that in terms of what NSF does, it's 
not only involved in supporting research and investigators, its 
involved very much in training people. That is important, it is 
very much investing in people. If you ask what type of people, 
many of them are young people. And, so, we are very much 
talking about the future in what we do.
    So, when we cut back, we are one way or another losing 
these opportunities. They are amplified because what we do to 
our young determines the future.

                       urban systemic initiative

    Mr. Stokes. Thank you.
    Now, Dr. Lane, I noticed that in your budget the urban 
systemic math and science education program will increase by 
about $8.15 million. Can you tell us something about the 
objectives under this part of your budget?
    Mr. Lane. I will make just a brief comment and ask my 
colleague, Dr. Williams, to respond. The Urban Systemic 
Initiative program is sort of one prong of our systemic 
effort--our effort to work with schools, and the instructional 
workforce institutions, to change the whole delivery system of 
science, math, and engineering education. A systemic change is 
based on standards and on inquiry-based mechanisms for teaching 
and learning.
    The urban challenge is in many ways the greatest challenge 
in K-12 education. NSF feels a responsibility to try to do what 
I just described in the cities of the country. That is 
important to us. We started with the focus on States. We have 
moved to also focus on the urban and rural areas where many of 
the kids are seriously disadvantaged.
    But for your specific question, I would like to ask Dr. 
Williams to comment.
    Mr. Stokes. Sure. Dr. Williams, we are pleased to hear from 
you.
    Mr. Williams. Thank you.
    Well, Dr. Lane has, in effect, described well the objective 
of the program. The only thing I would add presently is that 
the budget increase to which he referred is intended to 
increase the number of supported cities from currently 20 to up 
to 25. His explanation is precisely what the objective is.

                   improvements under the usi program

    Mr. Stokes. OK.
    Let me ask you this. I recently obtained a copy of your 
document entitled, Women, Minorities and Persons With 
Disabilities in Science and Engineering, which was published 
here in 1996. Probably one of the most comprehensive documents 
I have been privileged to read.
    Let me just make a couple of references before I pose a 
couple of questions if I may, Mr. Chairman?
    Mr. Lewis. Certainly.
    Mr. Stokes. In one section you say, substantial differences 
in course taking by racial and ethnic groups remain. Black and 
hispanic high school graduates in 1992 were far less likely 
than white and asian students to have taken advanced 
mathematics courses; far more likely to have taken remedial 
mathematics courses; 31 percent of black, 24 percent of 
hispanic, 35 percent of American Indian graduates compared to 
about 15 percent of white and asian graduates had taken 
remedial mathematics in high school.
    You tell us that despite gains, racial and ethnic 
differences persist in high school science course taking. Black 
and hispanic students are far less likely than whitestudents to 
have taken advanced science courses.
    It goes into a great deal of extensive information about 
this. But I also notice even with the exception of asians, 
minorities are a small proportion of scientists and engineers 
in the United States. Asians were 9 percent of scientists and 
engineers in the United States in 1993 although they are only 3 
percent of the U.S. population.
    Blacks, hispanics, and American Indians as a group are 23 
percent of the U.S. population but only 6 percent of the total 
science and engineering labor force.
    Taken comprehensively, all of this seems to point up what I 
have described as a rather tragic situation in this country as 
it relates to minorities and women, am I correct?
    Mr. Williams. Generally, yes.
    In fact, the data you cited that have to do with the K-12 
sector could, in effect, be part of the preface to the 
establishment of the Urban Systemic Initiative program. It 
turns out, as you know well, that large urban school districts 
are comprised of a very large fraction of racial and ethnic 
minority students. That is not the only reason for the program.
    The reference point that you use, 1992, is accurate. I mean 
that is precisely the case. That is why, as Director Lane 
indicated, the intent of NSF is to completely revise the math/
science delivery system in these large communities. It means 
eliminating the need for remedial courses, especially when they 
are used to track individuals as you were inferring. Those 
options structurally and organizationally simply should not 
exist in schools. All the students should have to take math, 
science, standards-based high-quality performance curricula, K-
12. That is the only reasonable hope the country has of 
ameliorating the difference which is referenced. Only, I would 
argue, by making major gains in the K-12 sector is one going to 
have increased numbers and quality of enrollees or matriculants 
at the undergraduate level and then we can address the issue of 
their participation as scientists and engineers.
    Mr. Stokes. OK.
    What I would like to do is just tell you what I would like 
for you to do for me, if you will, put into the record. I do 
not want to take up the time of the Committee. But if I can 
just have you give us a status report on the Cleveland USI 
program and under that category if you will put into the record 
for us and tell us how are the total funds of the district 
being used to support higher quality math and science 
education; tell us do the major stakeholders--business, 
political leaders--support the NSF effort and how is that 
reflected?
    If you will tell us how are you monitoring the gains in 
student performance and what is the remaining major barrier to 
math and science education improvement in this system? If you 
will do that for me in the record, I would appreciate it.
    Mr. Williams. Yes, I will, sir.
    [The information follows:]

[Pages 124 - 125--The official Committee record contains additional material here.]


    Mr. Stokes. Mr. Chairman, I appreciate very much your 
accommodation.

       reduction in elementary, secondary, and informal education

    Mr. Lewis. Thank you very much, Mr. Stokes.
    It is my intention to go to my colleagues, since we have a 
number here and I mentioned the conflicts that we have.
    As a follow-up to Mr. Stokes' last commentary, perhaps it 
is appropriate to ask this question before moving on. Could you 
explain the reasons behind your decision to reduce elementary, 
secondary and informal education by 7 percent compared to 
Fiscal Year 1997? And how does this reduce the level of funding 
put into the President's education initiatives and would you 
back up those responses with additional material, such as Mr. 
Stokes is suggesting?
    Mr. Williams. Yes, I will. I will provide additional 
material. But as you noticed the proposed overall change in the 
pre K-12 education budget is modest. I mean in the 
approximately $375 million base budget, I think the change is 
only a couple of million.
    It primarily reflects two areas within our total portfolio. 
NSF has essentially the exclusive responsibility for developing 
instructional materials for standards-based curricula. That is 
elementary science, middle school math and science and high 
school math and science.
    We have had, as the Committee knows, a very, very robust 
effort in that regard and we have completed an awful lot of the 
math materials at the middle school and elementary levels. So, 
that slight reduction shows the completion of that phase of 
materials development.
    The other explanation for a change is that we are also 
pioneering the development of standards-based assessment 
systems. What I am trying to contrast is that there is a 
plethora of assessment systems, the National Assessment of 
Educational Progress (NAEP) and others. But they are not 
standards based. So, if, in fact, you move into a reform 
standards-based system you need to assess students' performance 
in a standards-based context. We are doing that.
    However, we were able last year to get two agencies, one of 
which is the Department of Education, to join us in this 
venture. So, there is a slight reduction that shows co-funding. 
But it does not affect our priorities.
    Mr. Lewis. If you would broaden your response to Mr. 
Stokes' question so that it fits the general interest of the 
committee, I would appreciate it.
    Mr. Williams. I shall.
    [The information follows:]

[Pages 127 - 128--The official Committee record contains additional material here.]


    Mr. Lewis. The gentleman from New York, somewhere I 
believe, there may be an institution in his district. Is it 
Cornell? I think that is right.
    Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman.
    I hate to correct the Chairman, but Syracuse University is 
in my congressional district and is very important to my 
congressional district. Cornell, however, is not.
    Mr. Lewis. Is that right?
    Mr. Walsh. But----
    Mr. Lewis. How come you visited me when I visited Cornell 
with my daughter? [Laughter.]
    Mr. Walsh. I would go anywhere with you, Mr. Chairman. 
[Laughter.]

                       decision process for paci

    Mr. Walsh. Cornell is, obviously, very important to New 
York State and to the nation and to the betterment of science 
in our country and around the globe. So, I probably will 
address some of my questions to the Cornell theory center.
    But I would, first of all, like to thank Dr. Lane and Dr. 
Zare for the leadership they provide our nation. I could not 
agree with you more, doctor, on the need for us to continue to 
invest in research and that is the only thing that will ensure 
our leadership and we have our challenges, as you know, trying 
to meet those priorities and we will do ourbest. I think 
everybody on this Committee feels very strongly--and I think that is 
why they are here--about the need for research and science basic and 
applied.
    I would like to take my five minutes or so to talk a little 
bit about the decision that was made by the Science Board and 
the Science Foundation regarding the Partnership for Advanced 
Computational Infrastructure that was made just recently. I 
would also like to associate myself with the remarks by my 
colleague, Congressman Boehlert, in the science committee and 
also the letter you received from Senators D'Amato and 
Moynihan. We are all very, very concerned about the decision, 
its impact certainly on our State, as New York State begins its 
economic rebirth we need all the infrastructure support we can 
find. I am also concerned about the decision as it impacts on 
the nation and the need to be first in research.
    If I could, first, focus on the process whereby the 
decision was made. I do this with some degree of trepidation. I 
certainly do not want to give any indication that I have 
anything less than confidence in either of you or in the Board. 
I have all the confidence in the world. I am just concerned 
about the process and if it needs to be reviewed, then it 
should be reviewed.
    As I understand it, there are so few people who are 
involved in this research, the computational research and 
computer science at this level that there are very few people 
who can make these decisions. I certainly could not.
    But my concern is that as I understand it, the meeting was 
called for the last week of March. At the time some of the 
decision making members were recused because of the potential 
for conflict of interest. The meeting was conducted. There was 
not a quorum. And then at the last minute, either the request 
for recusal was withdrawn or there was a waiver provided that 
allowed individuals to vote who had been recused who would 
seemingly have a conflict of interest and the decision was 
made.
    Obviously, if it had helped Cornell I would probably ask 
the same question because I think it is important that it be 
asked. So, if you would like to comment?
    Mr. Lane. Could I make a comment and then turn to my 
colleague to get the Board perspective.
    Thank you, Mr. Walsh, for your comments and your questions. 
I would also want to say that not only Syracuse but also 
Cornell are very, very important institutions of higher 
education of the country. NSF has had in the past and will 
continue to have, I know, a very good partnership with these 
universities and the scientists and engineers there. I have 
been on the campuses many times and I am very positively 
impressed with the strength of those institutions and those 
kinds of institutions are really the core of higher education 
in the country and the future.
    The second thing I would say is that this competitive 
process that we run is not always pleasant. Tough decisions 
have to be made and if it is truly competitive then everybody 
will not win, not even all of the good ideas will win. We feel 
that we are required to ensure the very highest standard, to 
keep that competitive process strong. I understand from your 
comments, Mr. Walsh, that you agree with that and your 
questions about the process are to help ensure that we do our 
job well.
    In this particular case, the reason that Dr. Zare and I had 
conflicts was not because there was any possibility that we 
would get any personal gain from this action but because of our 
affiliation with universities, in my case, Rice University.
    It was not a leading-edge site, but it was a strong partner 
in more than one of the proposals, not only the winning 
proposals but the proposals that did not, in the end, win. So, 
that is the basis on which my general counsel advised that I 
should recuse myself unless a waiver were provided.
    Several months ago we did request, through my general 
counsel, with discussions and a formal request, a waiver for 
both Dr. Zare and myself. The reason it was so important that 
we have a waiver was that it was a very important decision. We 
are in positions of leadership in the Foundation. We should be 
involved, if it is appropriate, in any major decision. But the 
response to that request did not come through until that Friday 
morning.
    When we requested the waiver--I speak for myself--I had no 
thought in mind about how this might play out, that there would 
be a quorum problem. We expected all 24 members of the Board 
would, indeed, be confirmed by that time and would be in place. 
But, even though they were reported out from Committee, it was 
not possible for the Senate to get them confirmed. Therefore, 
we ended up with a quorum problem.
    By statute, the Executive Committee can do the business of 
the Board if the Board so delegates and the Board has a 
standing delegation to the Executive Committee to do Board 
business when necessary. I think there really is a quorum or 
policy issue here and I would like to ask my colleague, Dr. 
Zare, to address any of this that he would like.

                         paci decision process

    Mr. Zare. The issue that troubles the Board most is it is 
unable to set the quorum other than how it has been set as the 
majority of all possible members. Now, we have a whole class 
that has waited for over a year to become members. And we have 
actually hoped to have some change about the definition of 
quorum, but that hasn't happened.
    I, too, was recused because my university, not me, was a 
participant of this partnership. At the core of this whole PACI 
business is partnerships. So, it is not surprising that so many 
people found themselves one way or another associated with the 
universities that were part of winning and losing proposals. 
So, that explains some of what happened.
    Let me give you a sense of what took place. The total 
attendance at the March 27 meeting was 12 members. We missed 
the quorum. And eight consultants were present.
    Because again, so many people were conflicted, we had only 
10 people altogether who were unconflicted--seven members and 
three consultants. And they had discussions. We did get a 
waiver and we then had to catch up.
    Now, we had been getting material all along which we had 
been looking at on this. It was very much the sense of the 
Board and I think my sense, too, that if there were any 
substantive issues, if there were questions concerning the 
propriety of the review process, if there were questions about 
facts that needed to be gained for making this decision, we 
would not want to act. Instead we were presented with a 
situation in which the Board was nearly unanimous--one person 
abstained--the rest saying that there is nothing more that 
needs to be studied about this.
    There were two groups that were then chosen as winning this 
competition. We told all four supercomputer centers they were 
going out of business. We finished that program and we think 
that was a very successful program, our supercomputer program. 
And we have started something which we think is going to be 
even more successful because of its use of partnerships, of 
making use of advances in parallel processing architecture in 
computers, as well as linking computers together at different 
sites, so that it can serve yet more people in the nation than 
when it was originally set up.
    So, there was no reason for us not to act when we had our 
Executive Committee. And, so, I think it was our responsibility 
at that point to act but we also recognized that no matter what 
we were in a situation that was not as pleasant as if we could 
have had the full Board. Here the problem, I think, is not so 
much with the recusal matter--that gets very legal--but rather 
with our definition of quorum which is not our doing.

                          nsb quorum for paci

    Mr. Walsh. There was no thought to waiting another month 
until you had a quorum?
    Mr. Zare. The thought was first, we might wait another 
month and not have a quorum. Our Board members still would not 
have been confirmed. Secondly, there was no gain by waiting 
that period of time. In fact, what I saw was real loss. We 
would leave a community in a position inwhich the people could 
not get on with their business. We could not get on with either 
helping people phase out what they were doing, or helping 
people who would be the winners to get in place. I think the 
whole nation loses a month.
    Mr. Lane. Let me just add, I want to be sure we are clear 
on the process. I completely agree with what Dr. Zare said. By 
statute I chair the Executive Committee. If the waivers had not 
come through, in principle, the Executive Committee could still 
have acted but there would have only been two members of the 
Executive Committee non-conflicted out of a total of five of 
the Executive Committee. I would not have been there because I 
would have been recused but I think that the Executive 
Committee in that situation would not have acted on behalf of 
the Board.
    With the waivers then, there were four members of the 
Executive Committee without conflicts. The fifth member still 
has a conflict and is still recused. I convened the Executive 
Committee. We sat with all of the members present, members and 
consultants, who had had five hours or so, I think, of 
briefings and Q and A with staff and, of course, had read all 
the material, as we had.
    And we asked all the Board members questions about issues 
that came up. What did you talk about or what were the 
questions on your own mind and are we satisfied with the 
answers?
    Mr. Walsh. You did not participate in the presentation 
earlier?
    Mr. Lane. We could not participate in the presentations on 
Thursday because the waiver did not come through until Friday 
morning. I did not participate at all inside the Foundation 
prior to that. So, I was not a part of any of the discussions 
or any of the preparation of the Board package. But, of course, 
we had people in the Foundation who had the clear 
responsibility to do all the necessary things. It was not a 
pleasant situation to be in, and I think the reason we were in 
it really is the quorum issue, as Dick said, rather than the 
recusal issue.
    Mr. Zare. If I could add further to what I said. We heard 
from all Board members, I think, except one, and all 
consultants except one who were not conflicted in this process. 
We heard everybody.
    Mr. Walsh. The ones that did not attend the meeting?
    Mr. Zare. In terms of all the people, only one person.
    Mr. Lane. Yes, one non-conflicted person did not attend.
    Mr. Zare. And that was a family emergency, I understand.
    Mr. Lane. That is right.
    Mr. Zare. That happens.
    Mr. Walsh. Well, yes. We need to move on and I have lots of 
questions to ask. I am not sure how much time the Chairman is 
going to give me. My question and your answer took up all my 
time.
    Mr. Zare. I wanted to give you a full answer.
    Mr. Walsh. You needed to do that and I wanted you to do 
that and if I have to wait, I can wait.
    Mr. Lewis. Mr. Walsh, I think it is important that you had 
this discussion. It is a significant piece of what we are about 
here. If you would yield for a moment regarding that, I would 
like to extend your questions just for a moment.
    Mr. Walsh. I would be happy to yield.

              continued funding for supercomputer centers

    Mr. Lewis. It is my understanding that the Foundation will 
continue funding of two of the partnership proposals that are 
location centers for a period of two years, Cornell and 
Pittsburgh who were competitors and did not receive these 
awards.
    What is the reasoning behind the continuing of that funding 
for two years?
    Mr. Lane. May I ask Dr. Young to respond to that?
    Mr. Lewis. Sure.
    Mr. Young. Well, there will be a transition to the new 
program, and as we do that we need to continue to provide 
resources to the user community. We have substantial 
investments in those two sites and we expect those resources to 
be available to the user community for a period of up to two 
years.
    In addition, we would like to be able to enable these sites 
to phase down in a manner that is most useful to them and 
consistent with NSF rules and stewardship of Federal money.
    Mr. Walsh. To that point, if I may?
    Mr. Lewis. Please.

                       transition period for paci

    Mr. Walsh. As I understand it, currently Cornell and 
Pittsburgh, Carnegie Mellon, provide about 60 percent of the 
high-end users. And if my math is correct that means that each 
of the two new centers will have to handle an increase of 150 
percent in high-end users. And if the transition to that is to 
be seamless, as you proposed, I cannot imagine how you can do 
that by funding them at the level you have funded them. I mean 
there is no way that they can recreate the IBM processors out 
at San Diego in the short period of time.
    Mr. Young. So, let me address that question.
    There are several aspects to it. One is, as I mentioned, 
that we expect that during the transition period, the current 
facilities at Cornell and Pittsburgh will be available to the 
community. The other is that this technology develops and 
changes very rapidly. The life expectancy of the technology is 
three to five years.
    What happens in the program is that as we put resources in 
one place, the extent to which they are a major contributor to 
the program, and their percentage contribution to the total 
cycles available in the total program changes. For example, 
right now--this year--we have seen a major increase in Cornell 
because of the equipment that was put in the last year or two.
    Part of this is a matter of phasing when new equipment 
becomes available and old becomes more obsolete. What will 
happen is that we will put the most up to date equipment into 
the new sites. That action will enable us to continue to ramp 
up the program.
    Basically we have been putting about one-third of the total 
resources of the the current program into high-end hardware for 
the program as a whole. That decision has enabled us to 
increase the overall capacity of the program as a whole by 
roughly, on average, 50 percent a year and we expect this 
pattern to continue. But there will be a change in leading-edge 
sites as the new program comes on-line.
    [The information follows:]

Transition to the Partnership for Advanced Computational Infrastructure 
                                Program

    The two new leading-edge sites replace the former San Diego 
Supercomputer Center and the National Center for Supercomputing 
Applications at the University of Illinois at Urbana-Champaign. 
The operating budgets of these two leading-edge sites will be 
very similar to those of the supercomputer centers that 
preceded them. The PACI program as a whole will realize 
significant savings by operating only two large centers. For 
example, it is expected that the new program will invest 
roughly a third of its budget in advanced computing hardware 
for the partnership as a whole, which will result in 
substantially more resources at the two sites than in the old 
program.
    Consistent with the vision of the program, funding for the 
activities at the non-leading-edge partners will represent a 
very significant part of the budget. Final funding levels for 
all of the partnering activities will be part of the 
cooperative agreement with the partnership and thus subject 
first to approval by the partnerships' executive committees, 
and to NSF review and approval, thus facilitating balance in 
the program.

    Mr. Lewis. Thank you.
    Mr. Price.

                advanced technological education program

    Mr. Price. Thank you, Mr. Chairman.
    I want to add my welcome to you, Dr. Zare and Dr. Lane and 
I appreciate your and your colleagues' appearance here today.
    I certainly wanted to be here because North Carolina is a 
State with a large stake in the work of the National Science 
Foundation. As you know, you are a valued partner in our 
education and research community in the State with numerous 
engineering research centers, cooperative research centers, a 
lot of activity in our State and in my part of the State, in 
particular.
    I am sure you recall I have had a particular interest in 
your work with community colleges and in your support of 
technical training in those critical years just past high 
school, the training that most of our new jobs require.
    And, of course, in North Carolina, we are proud of our 
community college system, they are an important part of our 
educational network. So, in the time I have this morning I 
would like to concentrate on what you are doing at that level.
    And, in particular, on the work you are doing under the 
advanced technological education program which I introduced 
with the help of Tim Valentine and a lot of other people that 
got passed about five years ago. It is a program designed to 
help community colleges improve their science and math and 
technology programs and to create a partnership between the 
National Science Foundation and those community colleges, 
comparable to the partnership that has so long been available 
to four-year institutions for the development of curricula and 
teaching methods and upgrading what this country is doing in 
advanced technical training.
    Now, this program, of course, has been launched 
successfully and I am pleased that North Carolina is an active 
partner and participant in this program. I think one of the 
projects in my district illustrates the educational niche which 
this advanced technology program fills, the so-called Capstone 
project, at Wake Technical Community College.
    It is using ATE funds to help students to learn how to 
integrate what they are learning in the classroom with the 
skills they are going to need in the work place. Now, this 
project requires teams of students to complete an application 
oriented ``Capstone Project'' which improves their skills and 
cooperation in adapting to work place requirements and, at the 
same time, institutionally strengthens the link between the 
community college and the businesses in the area that are going 
to be employing these graduates.
    So, I am encouraged by the progress we have made and I want 
to use my time here today to get you to bring us up to date on 
the progress you are making in this ATE program and in your 
work with two-year colleges and in advanced technological 
training in general. I notice you did not particularly focus on 
that in your testimony. I would like to ask you to provide a 
summary progress report for the record. And, here this morning, 
if you would just give us a brief oral overview of how you 
think this program is faring?
    Mr. Lane. Thank you, Mr. Price.
    I would like to make a comment and then ask my colleague, 
Dr. Williams, to add.
    We thank you for your leadership in this area. I think it 
is just very clear to all of us that the two-year colleges play 
a critical role and, perhaps, an under-appreciated role 
historically in the education continuum. For so many of our 
young people, that is their only experience in higher 
education. To many others, it is their only opportunity toward 
four-year colleges and universities and there are extraordinary 
success stories.
    We do have a focus, in general, on strengthening science 
and math education in these institutions. If you look at our 
whole budget in terms of the key function areas, you see that 
we expect to increase our whole investment in education and 
training by over 3.5 percent, even under a 3 percent increased 
budget. Within undergraduate education there are two particular 
foci. Systemicreform of undergraduate education and research 
experiences for undergraduates. We invest approximately $200 million, 
totally, in undergraduate education.
    In two-year colleges, in particular, our investment is 
expected to be approximately $44 million in awards made 
directly to these institutions. And within that is the ATE 
program which is a very successful program and clearly has 
captured the attention of that community and I would like to 
ask my colleague, Dr. Williams, to give us some specifics on 
the ATE program and anything you would like to add to correct 
my comments.

                       community colleges and ate

    Mr. Williams. Before providing specifics on the ATE 
program, just to reiterate the point that Dr. Lane made, is 
that increasingly community colleges are participating in all 
of our undergraduate programs including efforts to promote 
institution-wide reform, by design. These efforts span two-year 
colleges to comprehensive and then to research institutions 
dealing with the faculty.
    Two other points of interest are that community colleges 
have become major players in a variety of our K-12 systemic 
initiative efforts, because they are very excellent sites for 
retraining and providing professional development of K-12 math 
and science teachers.
    The centerpiece, obviously, of the community college effort 
is the ATE program. And over three years it has really grown 
into a major operation. We operate the program in two modes. We 
have national centers, as you know, to concentrate on 
curriculum, faculty, and all of the facets of a quality 
education in a given domain. A domain might be, say, 
information technology; that area might characterize one 
center.
    Mr. Price. Centers of excellence now you are talking about?
    Mr. Williams. Right, yes, sir.
    Mr. Price. And how many are there of those nationwide now?
    Mr. Walsh. We have eight.
    Mr. Price. And you are anticipating in this budget adding 
one more?
    Mr. Williams. We plan to go to at least nine centers 
nationally configured around the country. Several months ago we 
had a review of those eight centers. We brought them in to the 
Foundation and engaged them in a comprehensive several day 
review.
    One of the most impressive outcomes of that review is the 
extent to which each center has built a cadre of local, as well 
as national businesses around them. The centers are probably 
averaging 70 or 80 affiliates, business affiliates, local as 
well as national ones.
    So, the continuum from matriculation on the part of the 
students into the work force is really well facilitated by that 
process. But beyond the centers, we have in excess of 100 
individual projects, as we term them--Capstone, as you 
described in North Carolina, being an example.
    There are indications of other players who are joining us. 
While the program is centered in two-year colleges, the 
projects are primarily joint-ventures with four-year 
institutions. So, there is a significant number of four-year 
institutions affiliated with them. We talked about the business 
partners, but also there are well over 300 high schools, who 
are now affiliated with the two-year colleges. In other words, 
especially during the 11th and 12th grade we are actively 
engaging secondary schools with the two-year college sector.
    For the future, out of this review we conducted several 
months ago, we decided in the next Fiscal Year to concentrate 
in four areas. First beyond increasing the number of centers 
and the number of projects, we will seek to involve more 
industry personnel in the ATE program, because they showed 
enormous interest in doing so. We will try to leverage 
additional industrial resources outside of the National Science 
Foundation budget.
    Second, for example, we are increasingly trying, where 
appropriate, to align our program with school-to-work--to 
attract funding from the Department of Labor. There are funds 
in the Department of Labor that could be configured for 
leverage, if you will.
    Third, we need to continue to demonstrate the impact and 
effectiveness of the program. And fourth, given the fact that 
we will have at least nine of these centers and in excess of 
100 projects, we need to see if we could use technology to 
build a virtual nationwide ATE operation. In other words, find 
ways to connect with those two-year colleges we do not fund. 
They could be the recipients of the instructional materials and 
so forth that come from the sites we actually fund.

                          funding rate for ate

    Mr. Price. That last objective I think is especially 
important. You know, you are not going to be able to fund more 
than just a handful of projects and institutions relative to 
the need but the idea has always been to use these as pilot 
projects where the results are then disseminated across the 
country and benefit the broad range of institutions.
    On this project side of the program, what kind of 
applications are you getting, what number of proposals, for 
example, did you receive in the most recent competition? What 
percentage of proposals, meritorious proposals are you able to 
fund?
    Mr. Williams. The number of proposals I do not recall. I 
could provide that for the record. But the funding rate, has, 
the success rate, has decreased each year since Fiscal Year 
1994. That simply speaks to the fact that we are getting a 
very, very large volume of proposals relative to what we can 
actually fund. But I will provide that.
    Mr. Lane. But so has that been true of many of theprograms. 
It is not clear that this is out of sync with many of our programs at 
the Foundation.
    Mr. Price. I know the time this morning is limited, but let 
me just ask you if you could include that information that 
would give us a measure of the kind of interest this program 
has generated, the kind of outreach you have done, the kind of 
applications you are getting and how many of them you would 
like to fund and how many you are able to fund.
    And, also, I think whatever further information you could 
furnish the Committee about the dissemination strategy and also 
one component of the program we have not been able to discuss 
here orally is attempting to help students move on to four-year 
institutions and integrate the work of the community colleges 
with the engineering and land grant schools. So, any progress 
you can report on that score.
    Mr. Williams. Well, just quickly, I will provide that in 
detail but that is what I made reference to when I said we 
built the linkages between two-year and four-year colleges. 
That is exactly what that is about.
    [The information follows:]

[Pages 138 - 139--The official Committee record contains additional material here.]


    Mr. Price. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Price.
    Having said that, there is a lot of interest in the work of 
NSF.
    We will probably be recessing at noon or shortly 
thereafter, but we will come back at 2 o'clock, and there will 
be some additional time there. I don't know what the conflicts 
will be with the members, but we will try to complete our work 
as quickly as we can.
    Mr. Hobson.

                     cost increases at universities

    Mr. Hobson. Thank you, Mr. Chairman.
    Mr. Director and gentlemen, it is nice to see you this 
morning. I enjoyed meeting with you.
    I would like to make a couple of comments before I get to 
my questions, and I hope you can give me some brief answers. I 
will tell you that I think if we could balance the budget, we 
could have a lot more--as I told you guys, we could have a lot 
more money for you.
    One general comment I will make, and it is a little shot at 
universities, generally having sat on some boards and having 
paid for some tuitions and being a businessman, I have got to 
tell you, one of the worst-run places I have seen as far as 
cost containment and control, with all due respect, sir, 
gentlemen, is our universities. When you look at their increase 
beyond the CPI, not just because it is science, but a lot of 
mismanagement--or I wouldn't say mismanagement, but lack of 
innovative management, some of it caused by certain contracts 
they have and things, I think it is a real problem with 
universities.
    I have now got a situation where universities, rather than 
looking at costs, are going out and buying kids, and they raise 
their tuitions, and then they give away money to get the kids 
in to people who don't even need it. I am on one board that is 
doing that, and I really don't like it. We have got a lot of 
universities in my State, but that is just one of my pet 
peeves, and I guess you have to hear that since you are here.
    Anyway, I really have enjoyed our discussion, and I want 
you to know that I have enjoyed meeting also with members of 
the Science Coalition. They have done a good job of coming in 
and talking to me and keeping me up on the Federal investment 
that you all are making.
    I am a little parochial on some of these questions, but I 
would like to know of NSF's relationship with the Science 
Coalition and particularly any comments about Ohio State and 
other Ohio connections that you might have in that regard.
    Mr. Lane. I might start, Mr. Chairman. Who is Mr. Chairman?
    Mr. Hobson. He is right now.
    Mr. Lane. Sorry, sir.
    I would make just a very brief comment on the university 
side. I think that from NSF's point of view, of course, we are 
very concerned about how the investment of our funds is made in 
university campuses. There are issues of direct cost and issues 
of accountability.
    My sense is--and it is not a policy statement, but just my 
personal view based on my own experience--is that you cannot 
understand this without addressing all the other many issues 
that have to do with university business, how it conducts 
business and how it brings in money and spends it. My sense is 
that the research activities in many of our universities are 
really subsidized by the other part of the university's budget, 
whether the institution is funded by tuition or State or 
private funds that are brought in.
    We, the Federal Government, for a very long time, I think, 
have not paid anything like the full cost of the research 
activity on the campuses around the country. There are lots of 
questions to ask. All I am saying is that when we place a grant 
on a campus to support the activities of a faculty member or a 
student, buy some equipment, in many of those cases, we require 
cost sharing. In general, we probably pay less than the 
indirect cost in support of that work, but that is a negotiated 
amount. We pay what is negotiated.
    Mr. Hobson. You must be doing something right if you get 
30,000 applications for 10,000. They want you.
    Mr. Lane. They want us, but my belief is that that has to 
do with them wanting the highest-quality faculty, the people 
who really are working at the front tier teaching their 
students. It has something to do with the image and the quality 
of the whole university as opposed to being any kind of crass 
effort to bring money to the campus. But that is a personal 
view.
    In Ohio, let me be very brief, but I could talk a long 
time. Ohio State is an extraordinary institution. In fact, I am 
overwhelmed just when I visit there whether I am walking across 
the campus, which one can't easily do.
    Mr. Hobson. Fortunately, the law school, I don't have to go 
far.
    Mr. Lane. Visiting one of our activities, for example, we 
have an extraordinary Engineering Research Center in Netshape 
Manufacturing. It is really remarkably innovative, or I am 
going to the football game, where I can't believe it either.
    I must tell you, Congressman, the last time I was in that 
football stadium, they were playing Rice University, my 
institution. It didn't go well.
    Mr. Hobson. From my perspective, it did.
    Mr. Lane. All right. A great institution, and Ohio State is 
one important partner in our new SuperComputerCenters Program.

                academic research infrastructure program

    Mr. Hobson. I wanted to ask one other question about a 
program that you are getting rid of for two reasons. It has 
been a small program, I understand, but a lot of science 
facilities on college and university campuses, you know, 
everybody went out and built stuff, and my undergraduate school 
which doesn't get a lot of money was beginning to look at this, 
and suddenly, they realized the program was going away.
    The other thing is that, having been on the board of the 
oldest, historically, black school in the country, this was a 
program that they might have--I mean, there was a special 
emphasis in this program. Suddenly, I realize it is going away, 
and I would like your comments about why it is going away 
because there is a great need out there for updating these 
educational things.
    Mr. Lane. The decision to terminate this program, which was 
part of our Academic Research Infrastructure program, we had an 
account in our budget until two years ago called the Academic 
Research Infrastructure Account. It got up to a level of about 
$100 million. Half of that money was invested on major shared 
equipment, and half of the money was invested in modernizing 
research laboratories. It is that half, I think, that you are 
talking about here.
    The piece that supports major research equipment, shared-
use equipment, is still in our budget. We are still going to do 
that instrumentation. The part that we terminated was the 
bricks and mortar.
    First of all, we ran that program well, I think. It was a 
competitive, peer-reviewed program, and I have been in 
laboratories renovated with that money. Good things happened, 
but it was such a tiny piece of the overall need. We were only 
one small participant compared to what States put in and what 
other institutions put into infrastructure that, when asked 
through the NPR-2 process to set our priorities, we just 
couldn't argue that that was the most cost-effective use of $50 
million consistent with our mission.
    We discussed this in great detail with the Board as a part 
of the long-range planning and budget development process, and 
recognizing that in these budget times, at least, or in those 
budget times, there did not appear to be developing a larger 
multi-agency infrastructure program which might be at some 
point in time the way for the Federal Government to get 
involved here.
    We felt we simply couldn't give it high priority, and we 
did ask that it be terminated.
    Mr. Hobson. Mr. Chairman, we have a vote on.
    Mr. Lewis. I know you do. If you would yield?
    Mr. Hobson. Sure.

                        leveraging of nsf funds

    Mr. Lewis. I would like to have you expand a bit on Mr. 
Hobson's question for the record as well.
    Mr. Lane. Sure.
    Mr. Lewis. One of my universities has similar questions. 
They wanted, for example, to make sure NSF had a real 
understanding of the fact that those local small schools often 
use NSF funding. It is a great opportunity to leverage other 
sources of funding and the need to integrate the kinds of 
special requirements that are a part of science programs in 
terms of bricks and mortar, if you will. It provides unusual 
pressures and needs at a local level that they feel have been 
affected in a very significant way, but at any rate, I will 
submit those questions.
    Mr. Lane. I would be pleased to do that.

                      additional questions for nsf

    Mr. Hobson. Since we have got a vote on, I would like to 
mention a couple of things, and then I would like to have you 
respond, if you don't mind, at a later time, but I am really 
interested in this K-12 NSF education, as we have talked about, 
in Cleveland and Cincinnati and Columbus.
    At some point, it is not my district, but I think Dayton, 
if it has a particularly difficult problem there that--and I 
don't know the size and how to fit them all and everything like 
that, but it could be a good area. I have one also on Bird 
Polar Research Center issue, but my last question, I warned you 
about yesterday, and you can do it for the record later, and 
that is your rent.
    I noticed that your rent payments went down and now they 
are going to go back up and you are in a new building. You need 
to make sure that your per-square-foot rent--we talked about 
that yesterday.
    Mr. Lane. I appreciate the question.
    Mr. Hobson. They have been in a big fight with GSA already. 
So just continue going to war because someday we are going to 
change the way we do these rents.
    Mr. Lewis. In other words, as we try to be very flexible, 
Mr. Hobson asks the questions I don't want to ask.
    We are going to vote. So we appreciate very much your 
participation.
    Mr. Frelinghuysen.

                       nsf fy 1998 request to omb

    Mr. Frelinghuysen. Thank you, Mr. Chairman. It appears that 
I am batting clean-up.
    Doctors, thank you for being with us, and thank you for 
your work and leadership. I have not been on any of those Jules 
Verne-like trips beneath the sea, but I suppose that may be in 
my future if I ever become Chairman of this--when I become 
Chairman of this committee, but let me say, though, the 
recovery here, that Dr. Lane did surface in New Jersey, and I 
want to appreciate you for coming to Rutgers.
    Wherever you go, you generate a lot of excitement and 
enthusiasm, and it is not just because you fund those 
facilities. I think it has a lot to do with your advocacy and 
personality. So I really appreciate that.
    I do have some questions. I do want to associate myself 
with some of the comments from the gentleman from New York 
relative to those two centers because New Jersey institutions 
use those centers as well, and I am not sure how all this will 
be reconciled, but there are a number of us who have some 
concerns.
    If I could just relate a small story relative to the 
operative word of these days, ``investment,'' I happen to be 
doing some work on my home plumbing and electrical plant, and I 
happened to get quite a large estimate, and it said down at the 
bottom, the total number, ``investment amount.''
    Let me say that I know that what we are investing in the 
National Science Foundation is probably far better than what I 
will be getting out of that deal, but it is an operative word, 
and I give my plumber an A-plus for ingenuity.
    I would like to get back to your overall budget amounts, 
and you sort of touched on it, Dr. Zare. You sort of tread a 
very appropriate line, but let me just put it to you here. What 
was your original request for the Foundation to OMB?
    Mr. Zare. I believe we can submit that for the record. I 
don't have the number.
    Mr. Frelinghuysen. Actually, I am sure you must know what 
it is.
    Mr. Lane. I can tell you roughly. I think the best answer 
to that question is about $3.5 billion, but there were lots of 
discussions along the way, and we never hesitate to make very 
clear how a real investment in the NSF sense can pay off and do 
good things.
    So there were a number of discussions about particular 
areas of high priority with us, and we would be glad to submit 
some of those details for the record.
    Mr. Zare. May we do that?
    Mr. Frelinghuysen. Yes.
    [The information follows:]

            Differences From NSF FY 1998 OMB Budget Request

    NSF's budget request to OMB for FY 1998 totaled 
approximately $3.5 billion. This submission had the same 
overall priorities as the FY 1998 Request submitted to 
Congress.

    Mr. Frelinghuysen. When you give us the dollars, $3.5 
billion, the areas, what specific areas?
    Mr. Lane. Yes. Surely, we will do that.

                  proposed increase in science funding

    Mr. Frelinghuysen. Like the Chair, we have had a lot of 
visitors from groups and individuals advocating a 7-percent 
increase.
    Mr. Zare. I can respond a little bit now, if I might.
    Mr. Frelinghuysen. Do you feel less constrained now that I 
have raised the issue?
    Mr. Zare. No, no. The figures, I can't do. In terms of--you 
can do more than about $3.5 billion.
    Mr. Frelinghuysen. You can talk about programs.
    Mr. Zare. I can talk about programs easily and tell you 
that the Board----
    Mr. Frelinghuysen. If you can do it briefly, because I have 
quite a few questions.
    Mr. Zare. Okay. The Board feels strongly that our Knowledge 
and Distributed Intelligence programs could use more support. 
The Board really sees that understanding life under extreme 
conditions requires more support. The Board thinks there is a 
need for more investment in people in terms of education. These 
are three types of programs.

                       statistics on nsf support

    Mr. Frelinghuysen. Thank you. You are concise.
    I must like to punish myself, but I did look at our hearing 
record transcript from last year, and the first question I 
posed, I went over the whole issue on statistics on proposals 
and awards, and I would like to know whether the figure is 
different this year.
    The National Science Foundation, and this was last year's 
amount--the National Science Foundation reviews some 60,000 
proposals each year and awards approximately some 20,000 grants 
and contracts.
    In your testimony, Dr. Lane, you said you were awarding 
19,000. Can you tell me, of the 19,000, how many activities of 
senior scientists are supported? How many graduate students? 
How many undergraduate students and college teachers? If those 
statistics exist somewhere in your materials, I would like to 
know where they are.
    Mr. Lane. Yes, Mr. Frelinghuysen. I think most of those 
numbers are actually in the budget request document, but let me 
try to be clear on all of these different numbers and how they 
might change from year to year.
    The 19,000 is the number of awards, roughly 19,000. The 
number of competitive proposals we receive every year is 
approximately 30,000, out of which we fund approximately 
10,000.
    The reason there are all these numbers is because many of 
our awards are made for two years, and so that particular PI 
does not have to write a whole new proposal and compete every 
year.
    So, on the average, our grants last about 2.4 years. That 
is the number, I think, we have in the data, but the numbers 
for all of these, I think corresponding to all of the questions 
you asked, are in here.
    The estimate for 1998, if that would be the right number, 
is 25,000 senior researchers, approximately 9,500 other 
professionals, 4,500 post-doc associates, 21,000 graduate 
students, 25,000 undergraduate students, 11,000 K-12 students, 
and about 123,000 K-12 teachers.
    I think the only number that has changed substantially is 
the number of--oh, I am not sure. All the numbers move around a 
bit, but not much over that period of time, from 1996 to 1997 
to 1998. The 1998 numbers really are estimates based on 
history, if you put a dollar here, what does that translate 
into, in terms of PIs and post-docs and graduate students. So 
they really are estimates, and we do that every year.

                       handling of patent rights

    Mr. Frelinghuysen. Very briefly, I did ask a question 
relative to the investment we make with a lot of individuals in 
institutions. The whole issue of patents, in other words, it is 
our tax dollars that are being used, in some cases, partnering 
with companies and universities. I just wondered, does the 
taxpayer benefit in some way if, in fact, a patent comes out of 
this type of research? I don't think last yearthat I followed 
up adequately, and I am not sure I got a clear response from you, where 
that line is drawn in terms of protecting our investment.
    Mr. Lane. I think the patent number is not something that 
we would have traditionally tried to put in the budget request. 
I think we have patent information on selected programs.
    Mr. Frelinghuysen. My question is not how many patents come 
out of the research, but----
    Mr. Zare. Who owns the intellectual property rights.
    Mr. Frelinghuysen. Who owns them, absolutely. This is an 
issue we debate here, intellectual property rights. If, in 
fact, we have a piece of the pie, do we own it?
    Mr. Lane. I think we leave it to the university to deal 
with intellectual property issues and their partnerships with 
industry. That is where the issue really comes up.
    Mr. Frelinghuysen. If we make an investment that enables 
the university to move ahead in some way, in some sort of 
collaborative process, do we in any way benefit from that?
    Mr. Lane. We have a license-free right to use it.

                      transition to the year 2000

    Mr. Frelinghuysen. I have a few other questions. We are 
moving ahead towards the year 2000. I ask every department that 
comes in here, do you anticipate any problems with your 
computers, and what are your plans, specific plans? I would 
like to have a general view as to what you think other people 
are doing out there. I think in some cases, we are heading into 
some real trouble, but I assume you are in pretty good shape.
    Mr. Lane. Mr. Frelinghuysen, I think it is a little bit 
scarce in general. I think we are in pretty good shape. The OMB 
has laid out a series of steps to go through. We have got a 
plan in place that we believe will allow it to implement 
whatever change needs to be made by the end of 1998, and we 
will have the year 1999 for testing.
    Mr. Frelinghuysen. Could you qualify that for us in terms 
of dollars?
    Mr. Lane. I don't have an estimate. Do you mean the cost, 
additional costs incurred?
    Mr. Frelinghuysen. It is interesting that some of the 
departments we have met with actually come right up with the 
dollar amount.
    Mr. Lane. We would be glad to develop an item for the 
record.
    Let me just ask if any of my senior colleagues actually 
have that estimate.
    Mr. Frelinghuysen. There is a hand in the back, Doctor.
    Mr. Lane. Yes. Linda.
    Mr. Frelinghuysen. Would you identify yourself for the 
record, please?
    Ms. Massaro. Linda Massaro, and I am the Chief Information 
Officer at the National Science Foundation.
    We anticipate the costs to transition to the year 2000 to 
be approximately $622,000, which we already had included in our 
budget, and 6.8 in person-years, for which 40 percent is in-
house and 60 percent--that is 284 programs in the transition.
    Mr. Frelinghuysen. This individual is not a plant in the 
audience? Surely, you knew she was here.
    Mr. Lane. Very dependable people.
    Mr. Frelinghuysen. I had better stop on that note, but I 
have plenty more questions in a few minutes.
    Mr. Lewis. As I suggest, we are going to be back this 
afternoon. I am going to be going to Mr. Knollenberg, and then 
I will go to my first round of questions. That will probably 
take us close to the time for us to recess.
    Mr. Knollenberg.

                 integration of research and education

    Mr. Knollenberg. Mr. Chairman, thank you very much.
    Gentlemen, thank you for coming in. I have really just a 
brief question or two, and it surrounds the matter of how much 
time the professors devote to research and how much they devote 
to teaching.
    It is my understanding that the National Science Foundation 
was, I guess you could say, accused of concentrating too much 
on research and not enough on teaching, and to a point, with 
the education community, felt that they were working too much 
time on research and not enough time in the classroom.
    I know that you have initiated, I think, in the past year a 
competition process, and several universities, I think to the 
extent of about $500,000, five universities did compete on bid 
and that is in place.
    Mr. Lane. Ten.
    Mr. Knollenberg. Is it 10 now? My data must be behind a 
bit.
    How effective were those programs, and if they are, are you 
planning to do more in the future?
    Mr. Lane. Mr. Knollenberg, the program I believe you are 
referring to is called Recognition Award for Integration of 
Research and Education.
    Mr. Knollenberg. It is research integration, exactly. In 
fact, I have a question.
    Mr. Lane. The reason it is called a recognition award is 
because the money that we provide, which is $500,000 for 10 
institutions, is to recognize what those institutions are 
already doing that is innovative in dealing with precisely the 
issue you talked about. These awards are designed to ensure 
that the research on that campus is benefiting student learning 
all the time, in every way that the institution can do that.
    So we received proposals. We had them peer-reviewed, and we 
made these awards. The money is to be spent by the institution 
primarily to evaluate what it is doing and to disseminate the 
success stories and perhaps to help them continue in this 
direction. There are related efforts strictly focused on 
undergraduate education that is part of the reform effort which 
Dr. Williams could talk about. Our CAREER program--C-A-R-E-E-
R--that is the Faculty Early Career Development program--has 
focused on young investigators, and it has, as a part of the 
application process--faculty members must say how they are 
going to take innovative steps to integrate their own research 
into their educational activities. That is an $83-million 
program in this budget. That is a substantial increase.
    It is controversial, I might say, because some say what is 
NSF doing evaluating education in a research proposal. We think 
it is an important thing to do. We believe that it shows--NSF 
believes its investment is supposed to be made in a university 
and a college in a way that improves student learning, as well 
as pushes the frontiers of knowledge.
    So we think institutions are doing exciting things. 
Institutions are changing. It is not easy, and so the 
recognition awards are to try to help in that regard. These 
other awards are to try to change the educational system in a 
systemic way.

                             career program

    Mr. Knollenberg. In your testimony, I don't know if you 
talked about this at any length. I was in and out of the room, 
and if you did, I apologize, but, Dr. Lane, on page 5, I know 
you refer to the CAREER program. Now, it occurs to me that this 
is more of a high school-type approach, is it not? Am I wrong 
in that respect?
    When I look at some of the wording on page 5 of your 
testimony, it talks about integration of research and 
education. It mentions the CAREER program, but it seems to be 
preparing students for dealing with the rapidly changing 
scientific and tech landscape in the 21st century, but this is 
also at the college and university level?
    Mr. Lane. Yes. The other program that I could mention that 
I think is responsive to your question is a brand-new program 
to work with institutions who want to change the way they 
deliver graduate education, Integrative Graduate Education and 
Research Training Program.
    Mr. Zare. IGERT.
    Mr. Lane. That is a brand-new program at the $20-million 
level. The award goes to a department that really wants to 
change the way they are delivering graduate education, to 
broaden it, make it more interdisciplinary, connect it better 
with industry.
    We don't tell them what to do. We just say that is the 
direction in which you need to be innovative for this program. 
Of course, the direct beneficiaries of this change are the 
graduate students because they, then, get to study in a very 
different kind of environment where they are encouraged to work 
in teams, and where they may be encouraged to work with 
industry. So that program focuses on the students.
    The CAREER program I mentioned earlier focuses on young 
faculty and helps them integrate research and education.
    Mr. Knollenberg. Do you take the--I didn't mean to 
interrupt. Go ahead if you have something else.
    Mr. Lane. No, I didn't. Dr. Zare might have a correction.
    Mr. Zare. No correction. I would like to say the Board 
really supports the integration of teaching and research, and 
we were trying get a number of the programs to act that way. 
That is really a Board policy.
    Then, I would like to mention, though, that in terms of 
education and teaching, it doesn't all happen in the classroom. 
It is important to understand that there are many other 
activities that go on, for example, getting undergraduates 
involved in research activities in the laboratory of 
investigators. Many things happen that way.

              relative emphasis on research and education

    Mr. Knollenberg. Do you take or did you take the 
accusation, if we can call it an accusation--but that is how I 
understood it to be, that you were accused, NSF was accused of 
leaning too heavily on research as opposed to----
    Mr. Zare. I want to assure you that we are trying to 
integrate research and education.
    Mr. Knollenberg. I understand, but if the accusation was 
made--I presume it was made. My research tells me that. Did you 
take that as a slap on the cheek or not?
    Mr. Lane. Mr. Knollenberg, I don't really remember any 
occasion in which I got a letter or a question----
    Mr. Knollenberg. Was this internally inspired?
    Mr. Lane [continuing]. At the hearing. I mean, there are 
certainly views in the public that too much emphasis is placed 
on research.
    Mr. Knollenberg. And it may be wrongfully viewed, but was 
this whole thing internally spawned, then, by you folks in 
trying to integrate the research with the----
    Mr. Lane. I think it is simply recognition from all the 
advice we get from everywhere, the Board, the advisory 
committees, university presidents that I talk with, that NSF 
could be--I am going back several years--could be more helpful 
in working with institutions to change what they are doing and 
give more attention to undergraduate education. So it is in 
response.
    Mr. Knollenberg. Recognition from your part that you could 
perform better if you did that. All right, that explains it. 
Thank you.
    Thank you, Mr. Chairman.

                         merit review criteria

    Mr. Lewis. Thank you, Mr. Knollenberg.
    As I indicated earlier, we will likely have to come back at 
2 o'clock--well, not have to, but we are happy to come back at 
2 o'clock, but in the meantime, Dr. Lane, the National Science 
Foundation and, Dr. Zare, the National Science Board have been 
discussing revision to the merit review criteria for NSF grant 
applications. Would you give us an update on the status of your 
merit review revisions?
    With that, I would like to know what was wrong with the 
current process which led you to conclude that revising the 
criteria was necessary.
    Mr. Lane. Thank you, Mr. Lewis.
    When I first came to the Foundation, I asked that, 
internally, we begin a study of the whole merit review system, 
not just the criteria that we use to evaluate proposals, but 
the whole system because I already knew that the community is 
stressed, and the people in the NSF building are stressed. The 
workload had gone up dramatically since I was there, 15 years 
ago. It takes its toll in terms of not just morale, but simply 
physical exhaustion.
    I knew from my experience in universities that the load in 
terms of the numbers of proposals one has to write to get 
funded, the numbers of proposals one has sent to review, the 
numbers of research articles one is asked to review, and all 
the other pressures seriously stress the faculty in the 
universities.
    So my view was if we can make some change to make more 
efficient the whole process of merit review and at the same 
time not give up at all the high standards that we use in 
making decisions, we should do so.
    In parallel with this or in discussion, the Board urged 
strongly that we look at the review criteria themselves, and it 
is prudent to do that. They haven't been looked at since 1981. 
So, working with the Board, we put together a task force that 
studied the question, interacted with the community, and 
developed recommendations for change.
    I would like to ask Dr. Zare to give the Board's 
perspective.
    Mr. Zare. If I might?
    Mr. Lewis. Sure.
    Mr. Zare. If you notice on your side of the table, if you 
ask a bunch of questions of people, you get one answer, maybe, 
two answers. You don't get your questions answered. That is 
experience.
    We were before asking four questions.
    Mr. Lewis. This sounds like my wife.
    Mr. Zare. Of course, asking four questions has a lot of 
precedence, but I won't go into that.
    Anyway, we have switched to two questions which we think 
are much more consistent with our strategic plan statement that 
we have come up with the Foundation. So we are now asking what 
is the intellectual merit and quality of the proposed activity, 
and we are asking what are the broader impacts of the proposed 
activity. We think this will capture what we need.
    We have a system of merit review that is peer-informed, 
peer-assisted in making these decisions. After much discussion 
with the benefit of input from the community, NSF developed 
revised merit review criteria I was amazed by opening this up 
electronically and asking the community to respond, about 90-
some percent came in electronically, actually. Some were 
letters, but most sent it electronically.
    We have gained by asking the community what they thought of 
what we first put forward, and we modified the review criteria 
accordingly. We just adopted these new criteria which I hope 
will go into affect around October 1st.
    Mr. Lane. You asked, Mr. Chairman, whether the system was 
not working. It was working. We don't feel we have something 
that is really broken and has to be fixed.
    On the other hand, with our previous criteria, not all the 
reviewers were addressing all the essential questions. Our 
program officers just simply had to work harder to get enough 
reviews.

                  changes in new merit review criteria

    Mr. Lewis. What were the significant differences in the 
previous set of four questions?
    Mr. Zare. The previous four questions were--what is the 
intellectual merit and quality of the proposed activity? Two 
was broader impacts to the proposed activity. Three was utility 
and relevance, and four was----
    Mr. Lewis. No. Those are the questions under the new 
criteria.
    Mr. Zare. I am not finding them.
    Mr. Bordogna. It is very similar to the first two 
questions.
    Mr. Lewis. Did I miss something?
    Mr. Bordogna. It is the first half of A-1 of the first two 
and the bottom half of the previous one. I don't know if you 
have it.
    Mr. Lewis. There they are. We may want to clarify this for 
the record.
    Mr. Lane. One had to do with the technical merit of the 
idea. The second had to do with the track record of the PI. The 
third had to do with infrastructure, and nobody knew what that 
meant. We did, but the reviewers asked questions about it 
generally. It had to do with education and other infrastructure 
issues.
    The fourth one had to do with utility. Well, a lot of our 
reviewers do not like the word ``utility.'' It doesn't mean 
they don't believe this stuff is valuable or that it pays off 
for people, but it has a kind of connotation that makes people 
think we might fund a proposal that sounds like it is useful, 
but might be less meritorious. It might not be as good an idea 
as some other proposal.
    So those are the four. Those are the four, and we thought, 
in the way Dr. Zare described, by going to two, he is making it 
very clear, intellectual merit and impact.
    Mr. Zare. See, I can't even remember the four.

                   green bank and arecibo telescopes

    Mr. Lewis. We are doing fine here.
    Your budget propose $118 million in fiscal year 1998 for 
astronomical research, instrumentation facilities as well.
    Among the facilities supported with this funding are 
telescopes at Green Bank, West Virginia, Arecibo in Puerto 
Rico. Both of these facilities have been experiencing 
construction, renovation, cost overruns in the past few months, 
as well as scheduled days, as I understand it.
    What is the nature of the problem at these two facilities, 
and what are the potential costs and scheduling implications?
    Mr. Lane. Thank you, Mr. Chairman. These two facilities, 
the Green Bank telescope and the Arecibo upgrade, are, first of 
all, extremely important research facilities to the future of 
astronomy. They are cutting-edge in design and will deliver to 
the researchers extraordinary facilities for their work.
    They are behind in schedule. The Green Bank telescope was a 
$75-million construction project. It was to open December 1994. 
It will not open until April 1998. The reasons, I think, have 
to do with weather problems, but also just complicated design 
problems, and the fact that the job was much harder to do than 
the contractor who was successful in the competition thought.
    The Arecibo upgrade is a $25-million upgrade. It was 
scheduled to be completed sometime in 1995. I don't have the 
exact date. It will likely be finished in the spring or summer 
of 1997.
    I expect to be there for the dedication, which is coming up 
in early summer.
    In both cases, the coincidence is that the contracts for 
the construction went to the same company. The same company 
just ended up being successful in two competitions, a company 
called Radiation Systems, Incorporated.
    Subsequent to them beginning these projects, the company 
was taken over by COMSAT, and now COMSAT has taken action in 
the courts against the operators of both of these facilities 
for extra money that it thinks it must have in order to 
complete these projects successfully.
    The good news is that they are going gang-busters on 
getting the job done, and everything really looks fine, even 
though they are running late. Arecibo is essentially finished, 
and Green Bank has all the major pieces on site, and the 
manufacturing of the various parts, I believe, is almost 
completed. There is pending action now between the contractor 
and the organizations that run these two facilities. In the 
case of Green Bank, it is NRAO. In the case of Arecibo, that 
facility is operated by Cornell.
    So, at the present time, NSF does not have estimates of 
possible additional costs. We have the amounts that are being 
asked by the contractor, but this simply hasn't been settled in 
the courts yet.

                     estimates of additional costs

    Mr. Lewis. These are potential costs, then?
    Mr. Lane. In at least one case, the contract is subject to 
binding arbitration. So there is that potential.
    Maybe I could ask Dr. John Hunt who is acting AD for MPS to 
come out.
    Mr. Hunt. The actual amounts involved here are $7 million 
that Cornell is being sued for by COMSAT.
    Mr. Lane. That is the Arecibo project.
    Mr. Hunt. The Arecibo project, yes.
    In that case, there was no binding arbitration. So this is 
certainly a fixed-cost contract, and what is at dispute there, 
at least one of the things that is under dispute, is whether 
the original drawings were correct. So Cornell's engineering 
contractor is actually part of the whole equation here.
    Mr. Lewis. That is not the Cornell that is in Mr. Walsh's 
district, is it?
    Mr. Walsh. It sounds like the very same.
    By the way, I would to have Cornell in my district. In the 
New York State Assembly and Senate, maybe we will take care of 
that.
    Mr. Hunt. When both of these contracts were let, RSI was a 
known contractor who had, in fact, designed and built several 
telescopes in the past. It was a contractor with which NSF had 
had experience.
    Furthermore, the bid that RSI put in was very close to the 
independent estimates for what the project should cost, and so 
we thought we were on firm ground at that point in time.
    Mr. Zare. May I just add that the Board takes very 
seriously its responsibilities to have oversight in this 
matter? Indeed, the last couple of meetings have looked into 
all of these large equipment outlays and reviewed them.

         funding for millimeter array and polar cap observatory

    Mr. Lewis. In this subject area, let me follow up just a 
little further. The budget also includes initial funding for 
Millimeter Array and the Polar Cap Observatory. In light of the 
situation with respect to your ongoing telescope projects, why 
is it necessary to move ahead with these twoprojects at this 
time?
    Mr. Lane. The Millimeter Array is a world-class telescope 
project. It is the highest priority in the astronomy community 
for a new facility. It has been roughly a decade since----
    Mr. Lewis. Where is it located?
    Mr. Lane. Sorry. The site has not been selected. It is 
pretty clear that it will not be a continental U.S. site 
because you really do need clean, dry air, and so one 
possibility would be Hawaii. One possibility would be Chile. 
They do have on the top of the volcano in Hawaii clean dry air, 
and Chile, where there are many telescopes, has extraordinary 
atmospheric conditions.
    This project is going to be handled somewhat differently 
than the projects we just talked about. What we are asking for 
right now is an R&D phase, a first phase. It would take three 
years. The total cost would be about $26 million and $9 million 
of it is specifically included in the FY 1998 request.
    There will be another decision point, then, as to whether 
to construct the full telescope. Now, obviously, we wouldn't 
bring to you the R&D phase on something like this unless we 
really felt this was high priority, and we do. What will the 
telescope do? It will look at star formation, galaxy formation. 
It will look through dust clouds at extraordinarily high 
resolution, Hubble telescope resolution, but in a wavelength 
range that allows you to see in parts of the universe that you 
cannot see with a visible observatory. It is a very exciting 
project and very high priority with the community.
    The Polar Cap Observatory is a different kind of----
    Mr. Lewis. On that----
    Mr. Lane. Yes, please.

                        funding profile for mma

    Mr. Lewis [continuing]. I am interested in your giving us 
for the record the funding profile projected----
    Mr. Lane. Yes, indeed.
    Mr. Lewis [continuing]. Assuming you go forward, and you do 
assume you will.
    Mr. Lane. We would be happy to do that. Our estimate of the 
total project cost for the whole MMA is approximately $200 
million in constant, I think, 1996 dollars, but we will provide 
detail on that for the record, and the profile.
    Mr. Lewis. And year by year?
    Mr. Lane. And year-by-year amounts.
    [The information follows:]

[Page 154--The official Committee record contains additional material here.]


                         polar cap observatory

    Mr. Lane. Polar Cap Observatory will complete a north-to-
south set of observatories. It will focus not on the rest of 
the galaxy, but on the earth's near atmosphere. This is where 
the solar wind-high-energy particles coming from the sun 
interact with the earth's magnetic field and atmosphere. This 
interaction creates things like the Aurora Borcalis, all kinds 
of less well understood phenomena.
    This will be the northern-most observatory in this set. It 
is a radar system. It will focus in the polar region where the 
magnetic field lines come down through the atmosphere and where 
there are extraordinary atmospheric phenomena.
    It is a fundamental scientific interest, but it also will 
help us to predict space weather. The recent solar flare was an 
interesting observation. But when there is a really big one, 
you want to know about it early on. You want to see the 
precursors of other kinds of events that can be quite 
destructive to communications satellites, and in general, to 
communication. More importantly, you really want to be able to 
model those things.
    By the time the solar particles hit you, it is a little 
late to do anything. You want to better understand the theory 
and the models of how the solar wind interacts with the earth's 
magnetosphere and lower atmosphere. So this is a very exciting 
project. The technology is on hand.
    The total amount for the construction of this project is in 
the budget, and we would hope to get started in FY 1998 so that 
we can have the thing finished in the year 2001, which is 
around the peak of the solar cycle. It is a very interesting 
time to look at the sun.
    Mr. Lewis. Thank you. As you complete that record, I am 
interested in international cooperation. That might be a part 
of helping with the cost.
    Mr. Lane. Yes, indeed. We will provide that.
    [The information follows:]

               Funding Profile for Polar Cap Observatory

    Funding for the construction of the Polar Cap Observatory 
is requested in FY 1998 through the Major Research Equipment 
account for a total of $25 million. Construction is expected to 
be performed over three years. Once completed, operations costs 
are expected to be approximately $2.5 million per year, to be 
funded through the Research and Related Activities 
Appropriation. Lesser amounts will be needed for operation 
during construction to operate systems as they are completed.

    Mr. Lewis. Mr. Walsh, go ahead.
    Mr. Walsh. Thank you, Mr. Chairman.
    Mr. Lewis. We are going to try to recess very shortly. I 
have got a meeting I have got to go to. We will come back at 
2:00, as I said before.

            support for users during facilities transitions

    Mr. Walsh. I would like to just revisit what we were 
discussing earlier, if I may, on the decision. This report that 
was put out, I believe by your agency, NSF '97, the comments in 
here regarding--I believe it is a San Diego proposal. I will 
just read them, ``The panel did have a major reservation about 
the NCSA partnership concerning support for high-end users, 
especially in the first years of the partnership. The NCSA has 
always supported high-end users, but in recent years, on a 
scale less than that of some of the other current centers. In 
response to this concern, NCSA is considering how best to 
increase user support forhigh-end computation. NSF believes 
that NCSA's concept for enhancing its support of high-end users is 
credible''--I don't know whether that is feint praise or that is just 
accurate scientific language--``and can be accomplished by the time it 
will be needed, but the transition of high-end users from other centers 
to NCSA support may not be fully seamless.''
    It would seem to me that the high-end user community would 
be a little bit nervous about this. Would you care to comment?
    Mr. Lane. Let me make a general comment, and then I really 
would like Dr. Young to give you as complete and precise a 
response as he possibly can.
    We want to do everything we can to ensure that the 
transition for all of our users, high end and otherwise, is as 
seamless as possible. Nobody can ever guarantee this totally. 
We just have to do the best we can.
    In most facility construction, it is not seamless. If you 
are upgrading a telescope, like the Arecibo telescope, the 
science community is disadvantaged during the period of 
construction because they can't look through the thing. At 
Arecibo, you don't look through it, anyway. It is a radio 
telescope.
    In the case of an accelerator where you want to upgrade the 
energy of the accelerator or some aspect of the detector, all 
the experimental high-energy physicists have to step aside for 
that period: They often do work at other places in the interim, 
and that is perhaps relevant here, too.
    In the case of the South Pole Station, we recognize that if 
we are provided the funds to rebuild the South Pole Station, as 
we have requested in 1998 and will be requesting over the next 
several years, there will be periods in which not as many 
scientists will be able to work in the Antarctic as they do 
currently. That is, in part, due to budget restrictions, we 
recognize there are going to be periods in which we won't be 
able to get as many scientists down there. It is also due, in 
part, because they can't work where the construction is going 
on.
    So I want to introduce the topic by saying it is not at all 
unusual if in constructing new facilities it is necessary for 
the science community to make some sacrifices. Here, we think 
we can do much, much better than the cases I just described, 
for reasons you would expect, such as the nature of the 
facility I would now like to ask Dr. Young to comment 
particularly on this transition.

                   support for high-end users in paci

    Mr. Young. When I talked with you earlier, I mentioned the 
fact that different centers go up and down, depending on the 
machines that are available and the total support they provide 
for high-end users, and that is part of the design of the 
program.
    One of the things that is true right now at NCSA--it is not 
San Diego, but it is the University of Illinois that you are 
referring to--is that their Silicon Graphics Origin machine is 
producing very, very high performance, and their use and 
support of high-end users is increasing rapidly right now.
    It is also true that over the past, as these ratios have 
gone up and down, Cornell and Pittsburgh have provided a lot of 
use for the high end. The use pattern would be changed in the 
normal course of the program simply by the machines that are 
available. The high-end users migrate very, very quickly to 
where the latest machines are.
    In anticipation of increased very high-end users at NCSA, 
the people there have come up with a plan to have more staff 
available to migrate programs to these very high-end machines, 
and we believe that is a very credible program. I think it is 
going to work.
    Mr. Walsh. As I understand it, the Pittsburgh center had a 
Cray computer?
    Mr. Young. Yes.
    Mr. Walsh. And Cornell had a partner with IBM.
    Mr. Young. They had IBM equipment. That is correct.

                             paci equipment

    Mr. Walsh. All right. What equipment will Illinois and San 
Diego be using?
    Mr. Young. We are beginning negotiations, but most likely 
thing is that San Diego will have IBM equipment. At the initial 
review phase in September, the panel was particularly 
interested in pursuing that question because part of the San 
Diego proposal was for data-intensive computing and IBM 
equipment seemed a natural thing to have there.
    Mr. Walsh. Would it be the same generation of equipment 
that Cornell is using?
    Mr. Young. No. It would be a much more recent generation of 
equipment. The equipment at Cornell is relatively old for the 
program. The switches and processors are about one-third the 
speed of current delivery, and IBM is producing new machines. 
So, we believe it is time to roll in the next generation of 
machines.
    Mr. Walsh. Did the Cornell proposal include that new 
generation of IBM equipment?
    Mr. Young. Cornell proposed upgrades as recently as--I may 
be wrong on the exact details here, but as recently as the 1996 
fiscal year, as part of their normal upgrade procedures. That 
plan did not review well at the time, and so I can't tell you 
the specifics. I assume they did propose those upgrades as part 
of the program.

                   concentration of resources in paci

    Mr. Walsh. One concept that you and I can understand as it 
relates to computers is contention. When you go from four 
centers down to two, how do you deal with that issue? You are 
just going to have a lot more people, a lot more applications, 
and only two places to go?
    Mr. Young. We will have more of a concentration of very 
high-end machines at the two leading-edge sites. One of the 
things we found in going through this review is that there are 
very significant savings in terms of the operating costs, which 
are a very significant part of the program, in going from four 
centers to two centers. There is quite a bit of overhead 
connected with operating leading-edge sites.
    Mr. Walsh. So you don't have any concerns that scientists 
and developers of applications around the country will have 
difficulty getting time on these servers?
    Mr. Young. I think those difficulties are going to be 
minimal, and as Neal said earlier, this is never entirely 
seamless. We have had high-end users express great confidence 
in our ability to manage this transition and I am certainly 
convinced that a couple of years down the road, it is going to 
be a much more effective use of Government money.
    Mr. Lane. Mr. Walsh.
    Mr. Walsh. Yes.
    Mr. Lane. Could I just add, because you used the wordsgoing 
from four to two, I just want to be really clear for the record that 
this is a whole new kind of program. We do not think of it as the old 
program with four centers and that we have just gotten rid of two 
centers. We have, based on lots of interaction with the community and 
advice and review--the Hayes task force that has looked into this--put 
in place a very different kind of program. This program fills another 
need, in addition to serving the high-end users, which we must do, we 
hope, better than we did in the past. We must do something we were not 
doing terribly well, and that is to deal with the continuum of needs. 
This partnership with many other institutions is supposed to accomplish 
this.
    Mr. Young. If I can pick up on something I should have done 
at the beginning. When we had the Hayes task force, which made 
the original recommendations, it was recognized at that time 
that we had very many users of these supercomputer centers who 
do not need the full capabilities of a leading-edge center, but 
had no place else to go.
    In the new program, there are going to be partnerships and 
a much greater diversity of places where people can go for 
computing support. This includes serving those people who 
perhaps didn't need the very highest-end resources, thus 
enabling leading-edge sites to really concentrate on high-end 
use.
    Mr. Zare. The Board's vision is that we are going to have 
computing power in the country.
    Mr. Walsh. I certainly would applaud that. My concern is 
that in this transition period, you have high-end users 
fighting with high-end users for that limited amount of time, 
and meanwhile, the Nation takes a step backwards because other 
nations and centers, which is why we got into this business in 
the first place, would start sending our high-end users 
overseas, for example.
    Mr. Lewis. If I could interrupt for just a moment, Mr. 
Walsh. I do want to explore this and have it aired, but I must 
go to a meeting. So if you would continue this for a while, 
recognizing that our friends have to have lunch before we come 
back at 2 o'clock. In the meantime, you can then recess the 
meeting. I will wander down the hall and review what is said 
here for the record.
    Mr. Walsh. All right. We will just go a few more minutes.
    Mr. Lane. Yes, good.
    Mr. Walsh [presiding]. Thank you, Mr. Chairman.
    Mr. Lane. So, Mr. Walsh, you are the chairman again.

                  concerns with the transition to paci

    Mr. Walsh. Yes, I am. I will assume the same demeanor as I 
had in the past.
    I don't want to belabor this, but there is a concern. When 
you make a plan, you have plan A, and I am not sure that you 
have a plan B here, but this transition becomes very important, 
and if the seamlessness or if the transition isn't as smooth as 
you would like, is there a way to beef up the transition 
somehow?
    Mr. Young. We are very concerned. We believe that in the 
immediate term, in the short term, all of the resources 
currently available will continue to be available as part of 
the transition plan. We normally would be putting in additional 
resources in the program as a whole, and these will continue to 
go into the program.
    The question is less whether we are going to have the 
resources; we will have the resources. Rather, it is a question 
of migration of users, and our experience has been that high-
end users very quickly move from center to center to get on the 
latest equipment.
    Mr. Walsh. Will they be able to do that?
    Mr. Young. Yes. In fact, we manage that process and will 
continue to manage that process by a nationwide allocation in 
which users apply to use the program and then allocate users to 
the centers that have the resource that is best for them.

               syracuse university participation in paci

    Mr. Walsh. Syracuse University, as I understand, has a 
fairly strong commitment to parallel computing. There is a 
fellow, Jeffrey Fox, over there who has done that. My 
understanding is they have had or had a relationship with 
Cornell, but they are also part of the Illinois consortium. Is 
that correct?
    Mr. Young. Yes. They are part of the Illinois consortium.
    Mr. Walsh. What will they contribute to that?
    Mr. Young. They will contribute expertise in parallel 
computing, and Jeffrey Fox, in particular, has become very 
interested in training techniques and application of this 
technology for students at all levels and for scientists and 
engineers who have not been using it. He intends to work 
closely as one of the partners to do that.
    Mr. Walsh. Why don't we leave it at that for now. We are 
going to come back at 2:00. There will be a little more time to 
talk. So, at this time, there is no objection. We will recess.
    [Recess.]

                           Afternoon Session

    Mr. Lewis. If we can have our meeting come back to order. 
Good afternoon.
    Mr. Lane. Good afternoon, sir.
    Mr. Lewis. Louis, we have proceeded through quite a variety 
and mix of questions, and I have a number of questions I still 
want to ask for the record. I will go forward from here and 
then I will yield to you, and I'm sure Mr. Walsh has a totally 
different subject area.
    Mr. Walsh. We'll see. [Laughter.]

                        network solutions, inc.

    Mr. Lewis. Next Generation Internet, registration fees. For 
the past three years, NSF has had a cooperative agreement with 
Network Solutions, Incorporated to provide registration 
services for the Internet community. Initially, this service 
was to support the registration needs of the research and 
education community. However, the vast majority of registration 
services today are going to the private sector.
    Is it appropriate for NSF to continue to support this 
registration service, or is it a function that might be left to 
either some other governmental entity or even the private 
sector?
    Mr. Lane. Mr. Chairman, I think it is becoming increasingly 
clear that soon it may not be appropriate for NSF to be 
overseeing Internet registration. It is certainlytrue that the 
rapidly increasing use of the Internet is really unrelated to research 
and education.
    But there are some issues that need to get settled, and one 
of them is how do we move this kind of a service, this kind of 
a system, from what we really could describe now as consensual 
authority to some kind of legal authority. In particular, how 
can the Internet naming and numbering process be put in some 
kind of appropriate legal framework to support the continued 
development of a vital new industry.
    NSF will, of course, assist the policy agencies and 
regulatory agencies of government through that process. But 
increasingly, it appears this is not something that we should 
be directly involved with. We just want to make sure that the 
transition is an appropriate one from the perspective of the 
Federal Government.

    government responsibility for investing in internet improvements

    Mr. Lewis. There have been some suggestions that the 
registration of domain names should be left to the private 
sector and be open to competition. Presumably, any resulting 
profits would be distributed to entrepreneurs of the private 
sector.
    If the proceeds were returned to investors rather than 
reinvested in Internet improvements, what should be the 
Government's responsibility for investment in Internet 
improvements? In other words, why should the Government finance 
improvements of the Internet but not receive any of the 
monetary benefits derived from domain name registration?
    Mr. Lane. I would only make a comment--and these are issues 
that we have all been involved with, so some of my colleagues 
may want to add their own perspectives on this.
    I think the National Science Foundation's role has been and 
should continue to be to invest in research and education 
activities. These activities are designed to facilitate the 
move to the next level of technology and understanding, a 
knowledge base that's going to be very important to an 
increasingly large number of people in the spheres of business, 
education, medicine, and many others.
    But NSF's role ought to be at the fundamental research end 
of things. Therefore, we expect to continue to make substantial 
investments in networking, from that perspective, to do the 
research and ensure that the scientists/engineers that we 
support have access to the current technology and help to push 
that technology. That's how NSF is able to most effectively 
make advances in areas like this, that are so broadly 
important, to support scientists and engineers, who understand 
and need these kinds of technologies, and let them work with 
computer scientists and computer engineers to push the 
technology further along.
    That's certainly where I think NSF's role is appropriate 
and would continue to be important.
    Does anybody want to add something on this?

                        next generation internet

    Mr. Lewis. No additions. Okay.
    As I understand it, one of the features of this 
registration agreement is to have a portion of the fees put 
into a fund that would support additional research and 
development related to the Internet. One of the initiatives in 
your budget request is $10 million to participate in the 
Interagency Next Generation Internet program.
    First, the subcommittee finds it quite surprising that NSA 
is playing such a comparatively small role in this $100 million 
program. After all, NSF plays the lead role in making the 
Internet widely available to the research and education 
communities. As near as we can tell, this Next Generation 
Internet has at its core the idea of supporting the development 
of an Internet which will be many times faster than the current 
one, while connecting our research institutions to this higher 
speed network.
    What kind of role will the Foundation play in the Next 
Generation Internet project?
    Mr. Lane. I expect that we will be looked to for leadership 
in this area. We have been leaders in networking research and 
in building up the infrastructure, primarily for science and 
engineering education and research activities.
    Because of NSF's special relationship with, for example, 
the institutions that are participating in Internet II, which 
is an institutional university approach to expanding the 
Internet, I think, it is essential that the agency be in a 
leadership position in this area, and we expect to be. We have 
been called upon to be intimately involved in the decision 
making and the interagency activities associated with 
developing the Internet.
    We, of course, invest in networking already--very high 
bandwidth networking that connects supercomputer centers 
together, connects them with the institutions that make use of 
those facilities, and we anticipate through our Connections 
program to expand that activity. So we invest over $40 million, 
I think, a year.
    Paul, is that roughly a right number, do you think, in 
networking?
    Mr. Young. Yes.
    Mr. Lane. So Next Generation Internet is a very important 
initiative, a $100 million initiative, and $10 million is in 
our budget for that. But our role is much larger than that 
amount of money would suggest.

                         nsi registration fund

    Mr. Lewis. Let's go back to the fund being created by the 
arrangement NSF has with Network Solutions, Inc. Can you give 
us some sense as to the current size of the fund? We've heard 
that it's growing now something like $2 million a month.
    Mr. Zare. Isn't it around $20 million or so?
    Mr. Lane. It is around $20 million, I believe, and it's 
growing at about $2.5 million a month.
    Mr. Lewis. A month.
    Mr. Lane. A month. That's correct.

                     uses of internet research fund

    Mr. Lewis. No small growth.
    Are there any legal barriers facing us that would preclude 
Network Solutions from turning over to NSF this research fund 
which is being created by a portion of registration fees?
    Mr. Lane. Well, this is kind of an unusual situation. 
Everything having to do with Internet ends up being an unusual 
situation.
    Mr. Lewis. So it seems.
    Mr. Lane. We're exploring the legal issues, as well as 
policy issues.
    There are a number of mechanisms that we're thinking about 
that might accomplish the same thing. One would be to set up a 
not-for-profit foundation into which this money would go. NSF's 
role could be--assuming there are no legal barriers to doing 
what I'm just saying--to set up the foundation, maybe get the 
board in place, under some agreement with the industry, as to 
how money wouldbe provided.
    Another way would be for the money to simply come to the 
Federal Government. Well, a last way, I suppose, would be to 
return the money to the people who put the money in. We really 
are----
    Mr. Lewis. Oh, my god. You don't want--that's almost 
subversive. [Laughter.]
    Mr. Lane. So we're looking at options on the far end of the 
spectrum, I guess.

               legal barriers to use of the internet fund

    Mr. Lewis. That's very far end.
    A $20 million pool and $2.5 million a month ends up being 
an accumulation of a lot of money. The question of legal 
barriers is a question that we need answers to as well. I 
presume you're exploring that.
    Mr. Lane. That might be an area in which providing some 
more detail for the record would be helpful.
    Mr. Lewis. It would be helpful to us.
    Mr. Lane. We would be glad to do that.
    [The information follows:]

[Pages 163 - 164--The official Committee record contains additional material here.]


          resources to participate in next generation internet

    Mr. Lewis. If it's possible, could those resources--a 
nonprofit foundation is one thing, and return to NSF is 
another. But the interplay, nonetheless, relates to this 
question in either case.
    Could those resources assist NSF to participate more fully 
in the Interagency Next Generation Internet program?
    Mr. Bordogna. We're not sure about that. As far as we have 
looked so far, NSF can accept this money into the coffer 
somewhere, the Treasury or something else. But we're not sure 
how that money can be used once we have it. That's where the 
legal entanglement comes in. So we don't know where we are on 
that. We're exploring and studying this at the moment.
    Mr. Lewis. How have you gone about that exploring and 
studying? I mean, your legal counsel----
    Mr. Bordogna. The legal counsel looking at U.S. Codes, a 
variety of them, on how to spend money out of the Treasury, how 
to set up trust funds.
    I should add that----
    Mr. Lewis. I hope you don't talk too much to OMB about it 
too soon. [Laughter.]
    Mr. Bordogna. Well, we're doing this study on our own, but, 
of course, OMB and everybody is asking questions about it.
    Mr. Lane. We have good relations with them.
    Mr. Bordogna. We only answer questions.
    I would add that we're not doing this in isolation of the 
private sector. The private sector has a lot of--one of the 
hottest ideas could be to get them all excited about their own 
foundation to support the Internet. They take a certain 
proportion of the wealth they're creating and stick it in the 
foundation, so that they themselves can invest in the research 
core.
    So there's a broad swath of ideas floating around that 
we're studying.

                     science and technology centers

    Mr. Lewis. Thank you for that.
    Let me ask some brief questions for just a moment, and then 
we'll move on to have Mr. Stokes' questions.
    In the area of science and technology centers, the budget 
includes a decrease of $6 million compared to fiscal year 1997 
for science and technology centers. During the past two years, 
the centers have been formally evaluated by three 
organizations.
    Would you explain what organizations have evaluated the 
centers and what their conclusions are, and will any centers be 
terminated as a result of those evaluations? And lastly, what 
is the Foundation's long-range plan for the science and 
technology center program?
    Mr. Lane. Mr. Chairman, the evaluations were not of 
particular centers but of the program as a whole. It was always 
understood from the beginning, and is clear in the Board's 
approval of the centers program, that the existing centers 
would be phased out after a certain number of years. That did 
not preclude there being a new program and now, in fact, the 
Board has received our recommendation and approved the 
establishment of a new science and technology centers program, 
of a somewhat different scope. We do anticipate we'll initiate 
work on a competition in fiscal '98 for a new set of science 
and technology centers.
    Anyone can apply, of course. I mean, no one would be 
excluded. The existing centers would not be excluded from 
participating in the competition. But as a part of the normal, 
anticipated phase-out, we simply require less money in fiscal 
year '98 because we won't be funding new centers. We will be 
phasing out the existing centers.
    So it's not an implication of any unsatisfactory 
performance. It was a plan for the previous centers program, 
that these centers would be phased out, and we anticipate that 
funding will go down a bit. Then it will come back up again.
    We anticipate that the first competition will be for 
roughly $25 million and then another one the next year and 
another one the following year, to a steady state of around $75 
million. That's what we expect the S&T centers program to be.
    Mr. Lewis. Mr. Stokes.

                      assessments of ehr programs

    Mr. Stokes. Thank you, Mr. Chairman.
    Dr. Lane, in going to a couple of other questions, I hope 
that in my absence this morning, after I had to leave, that I'm 
not being redundant in any sense. But if these have been 
touched upon, I think it may not have been concluded in the way 
in which I hope to conclude some answers.
    The growth of the Education and Human Resources Directorate 
has slowed in the past few years. In 1998, it is proposed only 
one percent above 1997. What evaluations and assessments has 
NSF done recently on this directorate, and what, if anything, 
have you determined?
    Mr. Lane. Mr. Stokes, the Education and Human Resources 
portfolio remains extremely important to NSF. We are very 
pleased with those programs. They are being evaluated, and many 
have already been evaluated. I will ask Dr. Williams to comment 
on the specifics of that in a minute.
    What we have begun to do over the last several years is to 
stress the importance of integration of research and education 
activities. What I think was not happening so well in earlier 
years was to get the communities working more closely together. 
We tended to have programs that were strictly focusing on 
accomplishing a K-12 activity or on an activity to help bring 
in underrepresented communities. Allthose things were very 
good, but they weren't really effectively integrated, either inside our 
own programmatic structure in the Foundation, or out in the 
institutions that we intend to serve.
    We feel that, with the Board's agreement here, that more 
attention needs to be given to having the larger community 
accept responsibility for making progress in some of these 
areas.
    It is deeply disturbing to all of us, I think, where we 
find ourselves in K-12 education in many parts of our country. 
Just as deeply disturbing is that we haven't been able to make 
more progress in including women in certain areas of science 
where they are very much underrepresented, and minorities in 
essentially all fields of science, engineering, and 
mathematics. I personally believe that's probably the most 
serious problem we face in science and engineering, and it's 
probably the most serious problem we face as a Nation.
    The question about the money part is, what is the most 
cost-effective investment to make? If you look at our budget in 
a somewhat different way, according to what we call key program 
functions, you will find a category called ``education and 
training''. In this agency budget that goes up three percent, 
education and training goes up over three-and-a-half percent. 
That's because of some of these integrated activities.
    Much of the focus is on undergraduate education, where we 
feel, first of all, that the K-12 students of the future are 
totally dependent on how good a job we do in the universities 
and colleges in educating our K-12 teachers. Frankly, we 
haven't done as good a job as we should. So we feel, in those 
undergraduate programs and in others that the EHR Directorate 
and the research directorates support, we need to give more 
focus to those integrative activities.
    Can I ask Dr. Williams to add to my comments?
    Mr. Stokes. You certainly may. I would like to hear from 
Dr. Williams.
    Mr. Williams. I think there is nothing I need to add with 
respect to what the funding represents. As Dr. Lane indicated, 
the total resources requested for education and training 
obviously exceeds what one would conclude in looking at the EHR 
budget alone.
    The second point is that, on all levels, certainly focusing 
on the undergraduate sector, we are aggressively pursuing 
strategies to integrate research and education. Research 
programs, especially at the undergraduate level, but even at 
the high school level, can enhance education.
    You mentioned broadly the issue of evaluation. A lot of the 
changes that you see reflected began to occur in '97. But 
especially what you see within the EHR portfolio in this budget 
request is the product of lessons learned and the evaluations 
we have done of these programs.
    As you know, we have a multiyear evaluation cycle, and 
nearly all of our major programs have been evaluated. Dr. Lane 
mentioned our increased emphasis on math and science teacher 
education. While that is probably self-evident, the deliberate 
focus on it grows out of, if you will, an evaluation.
    Another example is the AMP program, which is very 
successful, in our view, in moving minorities successfully 
through the undergraduate sequence in science and engineering. 
We coupled to it, based on what we learned in one of the 
evaluations, a math and science teacher education program. So 
the AMP program now has two objectives. It's producing more 
minority bachelor degree recipients in science and engineering, 
but at the same time addressing math and science teacher 
education.
    To close, what I have tried to convey is three things. 
First, you have to look at the Foundation's total budget to get 
a sense of NSF's niche, vis-a-vis the larger Federal investment 
in education.
    The second point is that, in terms of programs, we have a 
much better handle on strategies, in terms of integrating 
research and education.
    The third point is we need to continue to try to actually 
get a greater return from the investments. In order to do so, 
we have to learn as much as we can about the programs in 
progress.

            support for human resource development programs

    Mr. Stokes. Let me go into it in a little different way.
    There is a reduction of about $1.2 million proposed for 
human resource development in the Education and Human Resources 
Directorate in 1998. As we have already discussed, these 
programs are largely targeted to helping women and minorities 
participate more fully in our scientific and technological 
enterprises.
    The recommended reduction does not seem to comport with the 
report of NSF's Committee on Equal Opportunities in Science and 
Engineering. That report indicates that while some progress has 
been made in attracting more women and minorities into science 
and engineering, much progress remains to be made.
    Let me just take a moment here and refer to this particular 
report. We talked this morning about your other report--Dr. 
Lane, we want you to know that we read these reports, so your 
work is not in vain.
    When I look at page 42, Table 2, where it says ``percentage 
distribution of earned masters degrees in science and 
engineering'', it has a breakdown of all citizens. It shows 
whites, Asians, underrepresented minorities.
    Now, as of 1987, for black, non-Hispanics in that category, 
you show 2.7 percent. We come over seven years here to 1994, 
which is the latest year in your report, and we have moved from 
2.7 to 3.3 percent.
    Then, if we go over to Table 3 of the next page, where it 
says ``percentage distribution of earned doctoral degrees in 
science and engineering'', also by citizenship, race, ethnicity 
and so forth, we again break it down by whites, Asians and so 
forth, underrepresented minorities, and in this category we 
show black, non-Hispanics, in 1987, 1.6 percent. Seven years 
later, in 1994, it has moved to 1.9 percent.
    Now, obviously, we would be stretching our imagination to 
say that progress is being made in these areas. I would like 
for you to tell me, in light of your own report, how do you 
explain this reduced emphasis in this particular area?
    Mr. Lane. Let me start, Mr. Stokes, and then ask Dr. 
Williams to make a comment. I won't repeat what I said earlier, 
but I do stand by it, in terms of my own view about the 
importance of these issues.
    It is not obvious how to do this well. I think I'm agreeing 
with what you're suggesting. We haven't made very much progress 
here. But it's not for lack of wanting to; it's not for lack of 
careful investment; it's not for lack of trying new things. We 
have to somehow do a better job in figuring out what works most 
effectively, what is it that is being done in mentoring 
relationships in the classroom, in other places, to make an 
impact.
    Our investment in dollars, of course, is a very important 
part of our portfolio, and every dollar of taxpayers' money 
counts. But it's a small amount of money compared to the larger 
effort that really needs to go on.
    I think we need acceptance of the responsibility. We need 
everybody in the science and engineering community to say, not 
what we probably were guilty of saying in the past, namely, 
``this is a serious problem, but there is a program over here 
to deal with this. So that's being taken care of. This is not 
my problem. This is a problem that's being dealt with in 
another way.''
    We need everybody to say this is my problem, or this is my 
issue, or this is at least, in part, my responsibility.
    Now, I don't claim to know how you get that, but I think, 
until we expand that sphere of ownership of the problem and the 
responsibility for dealing with a solution, we aren't going to 
make much headway.
    Mr. Stokes. Do you give them encouragement or motivation by 
reducing----
    Mr. Lane. I think the most effective way is through 
motivation and incentives. I think that's probably in the kind 
of environment which we all work, where all the drivers for 
researchers and faculty members are in terms of motivation; 
Most of this is self-motivation, because there is no money to 
be made, there is no power to be gained. So it really takes a 
change in attitude.
    It's not that all the people I'm talking about don't think 
this is an important issue or that it isn't critical to the 
future of the country. But I think, in many cases, they don't 
really know how to get at it. It is our job to try to help 
identify the means by which they can be more involved and be 
more effective.
    I have expressed a personal view. As a matter of policy, we 
have programs, and we are evaluating them. We see some good 
things happening. The AMP program does some really terrific 
things. But when you start to compare the numbers, just the raw 
numbers, in comparison with the whole, then it can be 
discouraging.
    Before I get in trouble, may I ask Dr. Williams to----

                programs for human resource development

    Mr. Stokes. We would be happy to hear from Dr. Williams.
    Dr. Williams, you have had a long history in this 
particular area. I would relish hearing what you have to say. 
But I am concerned in our being able to see more Dr. Luther 
Williamses. I look at this table, and I look back behind you, 
Dr. Lane, and look at who accompanies you here, it is nice to 
see Dr. Williams at this table, but I would like to see other 
Dr. Williamses represented here.
    Mr. Lane. I would as well, sir.
    Mr. Stokes. Dr. Williams.
    Mr. Williams. Okay.
    Mr. Lane. Would you like to see more Luther Williamses? 
[Laughter.]
    Mr. Williams. No, I was going to react to his last comment. 
Yes, I would.
    Three comments, Mr. Stokes. First of all, the reduction in 
the human resources development budget, there are three 
categories. There are programs for women and girls, programs 
for persons with disabilities, and programs that focus on 
minorities.
    It is approximately a $1.5 million reduction within the 
total budget. But it is entirely associated with one program, 
which is the Centers for Research Excellence in Science and 
Technology. The highest priority in the Human Resource 
Development budget is the K-12 program that focuses on 
minorities. That is not reduced, and, of course, AMP is not 
reduced.
    So yes, there is a reduction, but it has to be put in 
context. That reduction is from $10 million to about $8.5 
million in the research centers program, we think we can 
accommodate that without a major import on the program.
    With respect to the overall resources that NSF has 
invested, as Dr. Lane indicated, you can't get the full answer 
by looking in the human resources budget of EHR, because there 
are significant and nontargeted investments in the rest of the 
Foundation and elsewhere. That's point one.
    Point two, the statistics you cite, without equivocation, 
are dismal. No question about it. But I do want to reiterate 
that there have, in fact, been gains made at the undergraduate 
level. In the case of----
    Mr. Stokes. The undergraduate level, right.
    Mr. Williams. At the undergraduate level, the number of 
minorities receiving undergraduate degrees in science and 
engineering increased. From my perspective, primarily within 
the last ten years, that increase is owing to three efforts: 
the Minority Access to Research Careers (MARC) program of the 
National Institutes of Health, the AMP National Actio Concil 
for Minorities in engineering program of NSF, and the (NACME) 
program in engineering. Those three ventures are responsible 
for the bulk of that number.
    In the case of NSF's programs, from 1991 to date, our 
programs alone have increased the number of minorities who 
receive bachelor degrees in science and engineering from about 
4,000 to almost 14,000. So a great amount of the reported delta 
for bachelor's degrees that you cited, from 5.0 percent to 
almost 6.6 percent, is contained therein.
    Is that sufficient? Of course not. But we have to find a 
way to identify programs of the sort--program strategies like 
the three that I cited--and invest in them. First of all, we 
need to learn why they work, and then make targeted investments 
to sustain that progress.
    Sadly, the undergraduate to graduate transition has notbeen 
sustained. If you look at the graduate and Ph.D. level, the results, as 
you cited, are not improved. In fact, I would say overall, as a Nation, 
we have accomplished very little in about 25 years of funding from the 
government, from private foundations, you name it.
    My view on this subject is the same as Dr. Lane. I think 
basically what we need to do is, at the graduate level, is to 
break ranks with all of the program strategies that we have 
had, that obviously don't work, and be willing to rethink the 
issue.
    I do feel, in agreement with him, that part of the 
difficulty--I don't have any evidence to support it--but part 
of the difficulty is that the issue has been approached in a 
very, very targeted fashion. The majority of the science and 
engineering community has felt outside of it. It continues to 
believe that it is to be pursued separately. I think we have to 
find a way to seriously engage the community.
    So you're citing statistics is entirely appropriate. What I 
have attempted to convey is that, in my view, certainly our K-
12 and undergraduate programs are, in fact, making a 
difference. We have to learn to do that better.
    The second point I am making is that it's inadequate, 
despite what we have done. The last point is that, in the 
graduate sector, as far as I'm concerned, we need entirely 
different strategies.
    Under Dr. Bordogna's leadership in the Foundation, there is 
a human resource development task force that is comprehensively 
looking at these issues. One of the areas it is focusing on is 
the graduate arena, where there is massive underrepresentation. 
I'm sure he would be glad to share with you the outcome from 
that report, once it's completed.
    Mr. Stokes. I thank both of you for your answers. I respect 
both of you very highly.
    Mr. Chairman, I know this is an area that you have 
displayed an interest in, along with my interest, for a long 
time. I am very appreciative of that, also.
    Mr. Lewis. Mr. Stokes, I must say that this dialog brings 
another thought to my mind. Louis knows that my youngest sons, 
twin boys, are young college professors, one in history and one 
in psychology. They are most proud of the fact that they are 
teachers. I would be very interested in having this 
conversation with them and what are they doing about this. It's 
very interesting.
    Mr. Walsh.

                   phase out of supercomputer centers

    Mr. Walsh. Thank you, Mr. Chairman.
    If I could return to the PHDI decision and this idea of 
transition, this period of transition. I think it is certainly 
of great importance to two institutions and a number of 
scientists and other users.
    If I could direct your attention to this document, on page 
4 of the chart, regarding Cornell and the transition, the NSF 
document, NSB-9751, dealing with the phase-out of funding for 
Cornell and Pittsburgh, you recommend that providing phase-out 
funding over a two-year period with a total amount on the order 
of one-half of the normal operating funding for each year.
    Now, we appropriated $16 million for the Cornell program, 
and $16 million for the Pittsburgh program, for '97, fiscal 
year '97. So it is probably safe to assume that the first $8 
million of those dollars has been expended, since a half-a-year 
has passed--and correct me if I'm wrong in a second.
    Well, why don't you do it now. I notice you had sort of a 
reaction to what I just said, so go ahead.
    Mr. Young. When the Board initially approved the new 
solicitation in December of '95, the conditions were that there 
would be a phase-out period that would begin essentially 
immediately upon approval of the new program, which is 
essentially now, and that there would be a relatively rapid 
phase-out of centers that were not successfully recompeted.
    In addition, there would be, during fiscal year 1997 a 
withholding of funds that might not be necessary to expend in 
1997 for centers that might not be continued. In fact, what we 
normally do, with centers that have been funded at roughly $16 
million a year, about $11 million of that is for operations and 
about $5 million or so of that is typically for hardware.
    So what we have done is instructed the current centers to 
not expend fiscal year 1997 funds for hardware delivered in 
1997 until the Board took action on the new competition.
    Mr. Walsh. All four?
    Mr. Young. All four, as part of the transition plan, and to 
save that money, in effect, for possible transition.
    The normal operating funds for a year are $10- or $11 
million per year, and the additional $5 million or so is for 
hardware costs. There are hardware savings in the first part of 
this year that can be carried forward. They differ a little 
from center to center but are fairly uniform across all the 
centers.
    Those hardware savings are available during the second half 
of fiscal year 1997 as part of the base for the transition 
period.
    Mr. Walsh. So all four centers basically put their upgrade 
plans on hold for how long?
    Mr. Young. Basically for equipment to be delivered in 
fiscal year 1997. There were some past payments due for 
equipment that was delivered earlier, and that's why it varies 
a little from center to center. We actually referred to that 
earlier this morning.
    The basic plan is that we've got a year's operating funds 
for each of the centers, assuming they were operating and doing 
all the things they normally do during phase-out, and they 
won't do all of the things they normally do. It's reasonable to 
have less than full operation cost during that phase-out 
period. We are going to talk with them about the best way and 
the best plan for spending that money.
    Roughly, we have $22 million for phase-out, and we expect 
to spend that over the course of up to two years, as the 
centers produce plans to do this.
    I might say that we also, early in this process, asked each 
of the centers to begin putting together what might be 
reasonable phase-out budgets.

          available funding for supercomputer center phase out

    Mr. Walsh. Let me interrupt for a second. You said $5 
million was held in abeyance because that's normally equipment, 
so that leaves $11 million for the year for each institution, 
Cornell and Pittsburgh. So that would leave, for operations, 
$11 million for '97. We're half-way through '97, so that leaves 
about $6 million, $5.5 million, that has been spent----
    Mr. Young. In each case, it's a little more than the $5.5 
million, because there was some carryover hardware funds. So 
it's a little more than five-and-a-half.
    Mr. Walsh. Has been spent?
    Mr. Young. That has been spent. But it's not half.
    Mr. Walsh. Well, as I read this chart, $3 million is the 
additional phase-out operational funds. If you assume that half 
of the '97 funds have been expended, that would leave 
approximately $5.5 million for the remainder of '97 and $3 
million phase-out funds, for a total of about $8.5 million, 
until March of '99, which is a two-year period.
    Mr. Young. But, in fact, that money has not been spent. For 
the second half of fiscal year 1997, there is about $8 million 
so far unspent in the Cornell account. That needs to be added 
to the base. If you add 3 to 8, you have the $11 million, which 
is one year's operating cost.
    Mr. Walsh. Then you're really spending money that was 
already appropriated for a different purpose and, in fact, 
Cornell was not able to spend it, nor was Pittsburgh, nor were 
the other centers.
    Mr. Young. The $16 million that we've been spending is, in 
general, for support of the centers. Within that figure the 
details of the budget on what's been approved is not a line 
item. That's a matter of judgment for the program.
    Mr. Walsh. Okay. But if you read this statement again, 
providing phase-out funding over a two-year period, with a 
total amount on the order of one-half the normal operating 
funds, is that, in fact, true?
    Mr. Young. Normal operating funds are approximately $11 
million a year. The hardware funds are an additional $5 
million. We don't believe that it makes sense to put new 
hardware into centers where we expect to phase out NSF support, 
but we do believe it makes sense to continue operating funds so 
that their current facilities can be of use to the user 
community during the phase-out period.

               planning for a new generation of equipment

    Mr. Walsh. Well, I won't nickel and dime you to death. It 
just strikes me that--You know, San Diego has put their upgrade 
plans on hold, as has Illinois. They're going to have to get 
wrapped up real fast. You've got to buy a whole new hassle of 
equipment, a new generation of equipment that's hopefully been 
beta tested someplace else so that they know it works, but if 
there's some problems, with a brand new generation of 
equipment, you're going to need a transition period. You're 
going to have some seams.
    Mr. Young. Yes. I'm glad you acknowledge that it's a 
transition period for actually four groups. It's the two 
centers that are being phased out.
    Mr. Walsh. No, I think you made that clear.
    Mr. Young. That's always true in bringing in new equipment. 
Certainly you're correct. This is not going to be absolutely 
transparent. It is a change in the program. As Dr. Lane pointed 
out earlier, there are always costs. But we think this is an 
achievable plan.
    Mr. Walsh. What happens if they can't get up to speed fast 
enough at San Diego?
    Mr. Young. We already have in place a certain amount of 
equipment in the current four centers that we expect to be able 
to use, so we do not expect any diminution in capacity. The 
question is how quickly can we wrap up the kind of increases in 
capacity that we've had in the past.

           effect of transition on supercomputer center staff

    Mr. Walsh. I am also very concerned about the loss of 
staff. I mean, when we look at this budget, they can add 3 and 
8 and five and a half and realize that the funding is not long. 
Part of the transition, I would think, for a center like 
Pittsburgh or Cornell, is trying to find alternate sources of 
funding so that we don't lose those good people.
    Has this been considered at all?
    Mr. Young. That has been considered. The central thing for 
the people is the operating funds, the $11 million. I don't 
think it's appropriate to continue that level of support across 
two years, since that does not seem a cost-effective thing to 
do. We do expect to work with them on what was the most----
    Mr. Walsh. So you're anticipating that people will be 
leaving. So as you----
    Mr. Young. Either that, or as you pointed out, that other 
sources of support will be coming in.
    Mr. Walsh. If there's time to do it.
    Mr. Young. Well, two years is probably a reasonable time to 
think about that. We will work with them on what the 
appropriate funding profile for each individual case is. We 
intend to do that.

                      length of transition period

    Mr. Walsh. Are you saying that if there is some motion 
toward alternate sources and operations are different than 
perhaps what was anticipated, and the transition is not as 
seamless as you anticipate, that there may be an opportunity to 
extend this transition period?
    Mr. Young. Within that funding profile, that would be true. 
But we do not have authorization for more funds than are there, 
so part of what we need to do is to work with the current 
centers, to take what the accumulation has been in the past six 
months, together with what full funding would be in the next 
six months, and develop with them a profile that is in their 
best interest, and the best interest of the program as a whole, 
I might add.
    Mr. Walsh. Mr. Chairman, I think at this point I will 
``cease and desist''. I would like to----
    Mr. Lewis. Cease for now.
    Mr. Walsh. For now, exactly. I would ask for the 
opportunity to address this again as we go along, perhaps with 
an opportunity to sit down with you or Dr. Lane.
    Mr. Lewis. Mr. Walsh, I am sure they will work with you, 
and if you want to refine these questions for the record, or 
add to them, I'm sure they will be responsive as well.
    Mr. Young. We will.
    Mr. Walsh. Thank you all very much.
    Mr. Lane. Thank you, sir.
    Mr. Lewis. Dr. Lane, one of the delights of the 104th 
Congress is that we have a new member on our Committee who has 
proven to be more than stimulating to those people who have a 
chance to have an exchange with her. So it's a pleasure for me, 
by way of this meeting, if you haven't met before, to at least 
in part introduce you to Carrie Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    I have an off-the-record statement to make before I start.
    [Discussion off the record.]

          role of historically black colleges and universities

    Mrs. Meek. I have a very strong interest in science, 
particularly with the historically black colleges and 
universities. As a matter of fact, I just left their national 
meeting. You are doing some things with them. I wish it could 
be much more, because there is a paucity of scientists and 
engineers in the area of minorities.
    I represent Florida International University in Miami, one 
of the largest minority universities in the country, and I 
represent Florida A&M, Bethune-Cookman, and Florida Memorial, 
and almost all the others. But those are in Florida.
    I am concerned on how well you're doing in the area of 
engineering with historically black colleges and universities, 
and also those who have the other designation of not being 
historically black colleges and universities, but who have high 
minority populations.
    Mr. Lane. I think, Mrs. Meek, the areas that you mention 
are extremely important in our efforts to try to make some 
progress here on these very difficult issues. Engineering is 
clearly a profession that depends on human resources and needs 
representation, as it occurs all across the country.
    Our approach to historically black universities and 
colleges is to try to ensure that we have the programs in place 
so that, given the NSF way of doing business, through the 
competitive peer review process, that we can assist those 
institutions and communities that are a part of those 
institutions to become increasingly competitive. That's good 
for everybody. That lifts the whole enterprise.
    That is sort of in the spirit of our earlier comments, 
about looking at our programs and trying to find out what 
works. That is one of our primary considerations. We don't have 
a particular fenced amount of money that we commit to any 
particular kind of institution, but we do try to ensure that 
the programs we have encourage and provide the opportunities 
for all institutions.
    On the particular question you asked, I would ask Dr. 
Williams to add any comments.

                      funding for hbcu activities

    Mr. Williams. Three comments.
    As Dr. Lane indicated, a priori, we don't have a fenced 
fund for HBCU's, but as is true with all Federal agencies, we 
do an annual report for the White House initiative on HBCU's, 
so we do have some sense of the overall investment over a 
fairly long period of time. In the last report, NSF's total 
expenditures in HBCU's for the last fiscal year was about $29 
million. I recall five years ago it was $7 million less. So it 
is positive.
    Expanding that further, your interest is largely in HBCU's. 
In the majority of the programs that NSF operates, it serves 
not only HBCU's but what we call minority serving institutions 
in general----
    Mrs. Meek. Like FIU?
    Mr. Williams. Like FIU. The AMP program includes all of 
those institutions in Florida, and Florida A&M is the 
administrative center for it. The Centers for Research 
Excellence in Science and Technology, the crest program I spoke 
about, is spread through a variety of such institutions that 
includes Hampton, Howard University, Clark-Atlanta, but also 
minority-serving institutions such as the University of Puerto 
Rico and the University of Texas at El Paso.
    The Model Institutions of Excellence program, this is 
another program that NSF operates. It is also a capacity 
builder. It is designed to improve the overall quality of the 
institutions. The same thing in HBCU's and minority-serving 
institutions.
    In the specific instance of engineering, certainly in the 
student focus programs, probably more than 50 percent of the 
students we serve are undergraduate majors in engineering, 
whether that's at the schools in Florida or Texas or wherever.

         support for human resource development in engineering

    Mr. Lane. May I ask Dr. Bordogna to add a comment on the 
engineering aspect?
    Mrs. Meek. Yes.
    Mr. Bordogna. I would like to comment very much.
    We have in the Engineering Directorate at NSF a line called 
Development of Human Resources, which is some $33 million. In 
fact, it hopefully is going to increase 3.7 percent this year. 
Within that there are many activities going on, a large one of 
which is called the Engineering Education Coalitions, in which 
there are 60 of the 300 engineering schools in the country, and 
eight teams, attempting to change undergraduate educational 
experience.
    Each one of those coalitions has a very strong emphasis on 
underrepresented minorities and women. Southern University, 
Florida International University, Central University, and 
Tuskegee University are members of these teams. We're very much 
intent on a very systemic approach to making these changes, and 
we're investing these monies, which incidentally aren't added 
into the EHR Directorate; they're in addition to this.
    I would turn to my colleague, Dr. Elbert Marsh, who is the 
Assistant Director for Engineering, to make any additional 
comments.
    Mr. Lewis. Dr. Marsh, please identify yourself. I want to 
make sure the recorder has your name right.
    Mr. Marsh. Clearly there needs to be a lot more done in 
this area. As Dr. Bordogna mentioned, we're addressing this in 
part through the coalitions.
    One of the things we did a few years ago was to have 
planning grants for all HBCU's, to help them become more 
competitive in securing engineering research grants. I think 
that endeavor was very successful and we had a few schools that 
really increased their ability to compete in engineering 
research activities.
    There are some other things that we're working on now, 
which we haven't evaluated the results of yet. For example, one 
of the things we're currently looking at is linking some of our 
NSF engineering people to the underrepresented communities' 
professional associations. We have been attending these 
meetings and the idea is to build connections with those 
groups.

                 Natural High Magnetic Field Laboratory

    Mrs. Meek. Thank you.
    If I may go a little bit further with my inquiry here, when 
I was in the Senate in Florida, we were very supportive of the 
magnetic field project located on FSU's property----
    Mr. Lane. Yes, the high magnetic field----
    Mrs. Meek. Yes. And Florida A&M was supposed to have a real 
big amount of participation in that. But I understand they do 
not, and that minority scientists are not being used that much 
in that lab. We worked very hard for that when I was there. I 
am sure Federal money went into that.
    So my question to you is, do you know what's going on 
there?
    Mr. Lane. I think maybe we could get a comment from Dr. 
Hunt.
    Mr. Hunt. What I would like to do is provide for the record 
information on the extent to which Florida A&M has 
participated. Frankly, I don't have the numbers in my head.
    Mrs. Meek. I asked this question and was not able to get to 
anyone associated with the lab. Because when it first started, 
it did have fairly good participation by Florida A&M and 
minority scientists. But it's my understanding now that that 
doesn't exist. So would you look into that, please?
    Mr. Hunt. I certainly will.
    [The information follows:]

[Pages 178 - 179--The official Committee record contains additional material here.]


    Mr. Lane. I'm very surprised. Dr. Williams has a comment on 
this.
    Mr. Williams. Actually, the involvement of Florida A&M 
students, not only from Florida A&M but also from some of the 
other institutions, generally has been sustained over the 
years. You are correct, that the initial involvement of science 
and engineering faculty members was substantial and it has 
decreased.
    But what I really wanted to share with you is that we just 
received a proposal from the lab, the national laboratory, that 
is being looked at jointly by EHR and the Materials Science 
Division at NSF. That proposal is designed to bring modest 
supplemental funds to forge a very good working relationship 
between scientists and engineers from the HBCU's, as well as 
students, and the national laboratory. We're looking at it 
favorably.
    So this effort, this modest increase in resources, will 
address the problem you are raising.

                    Federal Involvement in the NHMFL

    Mrs. Meek. Now, I just want to embellish on that a little 
bit.
    Are you doing anything to bring in other Federal partners 
in this program, like the National Institutes of Health and 
some of the other Federal partners, to come into the national 
high magnetic field program to make it a better program?
    Mr. Lane. For example, there is a discussion with NIH about 
research that will be carried out on a new nuclear magnetic 
resonance facility, because the center expects to build what 
will be the highest magnetic field and the largest bore kind of 
machine to enable you to put samples in for extraordinarily 
sensitive analysis, where you can find a single strand of DNA 
in a clump of--I wouldn't want to describe what. But it's very, 
very impressive research activity and my understanding is NIH 
is very interested in this. We are encouraging the laboratory's 
discussion with both agencies.

                   Competitives of Small Institutions

    Mrs. Meek. All right.
    I will end by just saying that this concern of mine is 
based on the fact of a long-time empirical observation of 
what's going on in terms of the sciences and the minority 
institutions.
    In the Congress before the last Congress, I sat on the 
Energy and Water Subcommittee. I found out that the big 
universities are still the leaders in research and development 
throughout our country. What is prohibiting the smaller ones, 
the ones dealing with minorities, of getting in is they can't 
do the kind of competitiveness which Dr. Williams just 
mentioned. Unless there is some capacity building, they will 
never get to the point where we can do these kinds of things.
    So I wish we could put some strong focus on trying to build 
this competitiveness. You want them to be able to produce. You 
don't want to just put grants out there and you don't get 
productivity, and in order to do so, you have to build some 
things.
    Mr. Zare. I wanted to just comment that the Board is very 
interested in this question, looking at the possibilities of 
various partnerships between different institutions to solve 
exciting problems. It's directed toward just those type of 
issues.
    Mrs. Meek. My last comment is, a lot of this has gone north 
and west. Remember, you have some southerners in Congress and 
we're going to be watching you. [Laughter.]
    Mr. Williams. Mrs. Meek, the program I was describing to 
you, Model Institutions of Excellence, is a capacity-building 
program. It is designed to do precisely what you have just 
described, and so is the centers program. So NSF has two 
efforts designed to address exactly the issue that you raised.
    Mr. Lane. Also, the new supercomputer centers program 
emphasizes partnerships. That is the way to think about it as 
being a major transition from the old centers program to the 
new centers program. This new one is much more outreaching and 
will involve many more institutions.
    Given the importance of information to computing, 
communications, networking in general, to everything that all 
of us in science and technology are going to do, we think the 
PACI program has great potential here to be much more inclusive 
of the larger community.
    Mr. Bordogna. Knowledge and Distributed Intelligence is a 
big initiative in next year's budget and beyond. The purpose of 
this initiative to increase accessibility by the ``have nots'' 
through the Internet and other mechanisms. The supercomputer's 
capability can be accessed by a lot of people using the 
Internet. Knowledge and Distributed Intelligence in ``have 
not'' universities will have access to greater capacity. So 
this is a strong flavor of what we're about in a general 
strategic way here. So you have to try to see the connections 
among those big efforts for what you're talking about.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you, Miss Meek.
    Mr. Frelinghuysen.

                    Security of Data on Individuals

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I'm sorry to be 
a little bit late.
    Relative to the whole issue of access, I started down this 
road a little bit this morning. If you take the issue of 
intellectual property rights and you take the issue of the 
public's right to know, which is sort of the whole access 
issue, where does national security tied into the overall 
equation?
    I have been looking over some of your materials relative to 
the social, behavioral, and economics sciences portion of your 
budget, and I see terms like ``discouraging misuse'' on page 
165, ``promoting confidentiality, anonymity, a range of 
security techniques, giving social scientists access to highly 
valuable human capital data.''
    What do we have to protect on our national interest? If you 
can give me sort of a brief, very brief overview of what exists 
out there.
    Mr. Lane. Mr. Frelinghuysen, maybe we could start with the 
particulars here, from the social, behavioral, and economic 
perspective of our portfolio, and then add a general comment so 
that we don't take a lot of time.
    Bennett.
    Mr. Frelinghuysen. I don't want a lengthy answer. I just 
want to get a general assurance while we're promoting access 
here. There is a tremendous amount of excitement for a 
scientist to share data to, you know, promote stability and 
also to advance worthy projects.
    When it comes down to issues that relate to our national 
security, are we properly covered, or are our national 
interests properly covered?
    Mr. Lane. A general comment I can make is that, as far as 
the activities we support, across the whole portfolio as far as 
NSF is concerned, the direction that we have been going is for 
the Federal Government to open up information, data bases, to 
the use of scientists that are determined to be not in any way 
risking our national security.
    Mr. Frelinghuysen. How do you know if somebody in Pakistan 
or Mongolia or at the University of Timbuktu has the same 
degree of unselfishness and, let's say, scientific resolve that 
many of the people in our centers of learning are that you 
support?
    Mr. Lane. Well, just to make sure I'm understanding your 
question, I might ask, in the case of basic research, which is 
all we do, basic research and education activities, the 
knowledge that is generated is not predictably of any immediate 
value. It is ultimately----
    Mr. Frelinghuysen. Why do you use such terminology as 
``discouraging misuse'' and introduce into your materials here 
concerns about anonymity and confidentiality, if they don't in 
some way relate?
    Mr. Lane. In terms of those general issues, we encourage 
social behavioral scientists to study those questions from a 
research perspective. These are complex issues and it is 
perfectly consistent with our mission to support research 
activities that answer basic questions in these areas, as well 
as in any other areas. So----
    Mr. Frelinghuysen. So nothing you're working on would be 
classified as privileged information?
    Mr. Lane. Nothing that I'm aware of. I may be missing 
something, but I'm not aware of any.
    Mr. Bordogna. I'm going to ask Bennett to respond, because 
I think he has the answer. But I think what is at issue here 
is, if we want our researchers to be able to access sensitive 
and private information, we have to ensure that they access the 
data base and do their statistical analysis but don't violate 
individual privacy. I think that's primarily what that is.
    Bennett, do you want to add to this?
    Mr. Bertenthal. Just to reinforce what has been said--I'm 
Bennett Bertenthal, the Assistant Director for Social, 
Behavioral, and Economic Sciences.
    Here the issue of security is not national security. I 
realize that might be the first association, but----
    Mr. Frelinghuysen. How would you classify it?
    Mr. Bertenthal. Security has more to do with 
confidentiality of data, specifically in terms of personal 
identity. This is something that's extremely important to all 
of us.
    There are tremendous amounts of data. The tables that Mr. 
Stokes was just referencing come from a very large data base 
from one of our surveys. We would be very happy to provide 
access to other researchers to this data base if we had ways to 
maintain confidentiality. This is going to be an imperative 
that we expand our knowledge base and use it more broadly. 
That's just one specific example of the types of new 
opportunities that have become available through the new 
technology. But at the same time we must protect the individual 
and review all of the copyright issues and other intellectual 
property issues that arise.

                 Protecting National Security Interests

    Mr. Frelinghuysen. So it's fair to say that it is nothing 
within the realm or jurisdiction of the National Science 
Foundation that you're working on.
    Mr. Zare. On the other hand, if I might, there are things 
that we're doing that do pertain to the national security. 
National security has changed, from a time when we worried very 
much about massive retaliation with nuclear deterrence----
    Mr. Frelinghuysen. We don't worry about that any more?
    Mr. Zare. Not to the same extent, no. No, I think it has 
much more changed to a matter of worrying about terrorism, 
about facing multiple----
    Mr. Frelinghuysen. There are a lot of people who do worry 
about the potential use of chemicals, of----
    Mr. Zare. Yes, I wanted to say that, as opposed to----
    Mr. Frelinghuysen. They are certainly weapons of mass 
destruction, at least from everything I have listening to.
    Mr. Zare. Absolutely.
    Mr. Lane. There is one area that comes to mind that I think 
is directly responsive to----
    Mr. Frelinghuysen. I think we're all on the same side here. 
I'm just wondering----
    Mr. Lane. No question about that.
    Mr. Frelinghuysen. I would like a higher level of 
reassurance.
    Mr. Lane. May I ask Dr. Corell to give an example, where we 
try to provide access of our scientists to data such as----
    Mr. Corell. I'm Robert Corell, Assistant Director for 
Geosciences.
    We have been working for several years with the 
intelligence community to be sure that the national security 
interests are protected as some of these data that historically 
have been collected are becoming available for scientific and 
environmental research purposes.
    There is a committee called the Civil Applications 
Committee, which has been in existence for about 25 years, to 
provide a firewall between the national security data files and 
those that would be important for national interests. Let me 
give you an example.
    When an earthquake or a flood occurs, or a volcano 
explodes, there are national security data systems that can 
provide information to help us to respond, or to provide data 
for scientific purposes so we better understand these events. 
These data help us to mitigate the damage next time these 
events occur.
    Sitting on that committee, I really do believe that 
national security interests are always dominant when decisions 
are made with respect to protecting data or releasing it. More 
often than not, when it comes through the firewall, it comes 
through as what we call a derived product. It's impossible to 
go back through and understand precisely how that data was 
obtained, but it does then provide for our national interest to 
deal with floods or hurricanes or other matters of that nature.
    NSF only recently has become a party to that process. In my 
view it has been a very healthy development within NSF to be a 
part of that. We are not active participants in research that 
is undertaken with regard to those data, however.
    Mr. Frelinghuysen. But I'm not actually too far off the 
mark by raising the issue. You don't have to agree with me just 
because I'm here, but this is a valid issue.
    Mr. Corell. It is.
    Mr. Frelinghuysen. I mean, you invoke a term like 
``firewall'', in these halls here we give that a fairly 
definitive meaning.
    Mr. Corell. Yes, and I was using it in a practical sense.

                     confidentiality of peer review

    Mr. Frelinghuysen. I have some concerns in this area, but I 
have a lot of confidence in all of you to make sure that we're 
doing the right thing.
    Not a related matter, but last May you won a victory in the 
D.C. Circuit Court of Appeals relative to keeping confidential 
the names of individuals who do peer review. Is that litigation 
completed in every sense, and are there any other cases pending 
concerning peer review problems?
    Mr. Lane. May I ask my General Counsel, Larry Rudolph, to 
comment?
    Mr. Frelinghuysen. Certainly.
    Mr. Rudolph. My name is Lawrence Rudolph, General Counsel.
    Congressman, the answer to your question is yes, that 
litigation has been completed. There were no further appeals. 
That's the definitive law in the District of Columbia and in 
that Circuit. There are no other cases that we are aware of, 
and we hope there will not be, challenging our ability to keep 
confidential the names of reviewers.
    Mr. Frelinghuysen. Thank you very much.
    Thank you, Mr. Chairman. I have a number of questions that 
I would like to submit for the record.
    Mr. Lewis. They will be included in the record.
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis. Dr. Zare has got to catch a plane to California. 
The only problem with that is I can't go with him. [Laughter.]
    Dr. Zare, I'm going to be asking just a couple of questions 
that I think Dr. Lane can deal with, but they relate to the 
United States Antarctic program. I know of your work in 
connection with that. If there are things you would like to add 
to the record, fine. But I am very comfortable with your----
    Mr. Zare. The Board wholeheartedly and enthusiastically 
supports the efforts to build a South Pole station. I'll stop 
there. Thank you.

                           South Pole Station

    Mr. Lewis. It was nice to be with you, and we appreciate 
your presence.
    Dr. Lane, last fall you established the U.S. Antarctic 
External Review Panel, which was chaired by Norm Augustine. The 
panel is expected to issue a final report some time this month, 
but Mr. Augustine testified before the House Committee on 
Science on March 12th and identified the major findings and 
recommendations of that panel. We have had a chance to look at 
that. It is that testimony which serves as the basis for the 
questions I will be asking.
    First, early in 1996, there were estimates that the cost of 
rebuilding this South Pole station was in the range of $200 
million. Subsequently, we heard $150 million. The panel 
recommends $120 million.
    What are the specific differences between those dollar 
amounts? Give me a feel for that.
    Mr. Lane. I would like to ask Dr. Sullivan to comment on 
the specifics.
    I would first of all say that I think it was an 
extraordinary panel that Norm Augustine chaired. We went into 
this with the thought that we would try to get on the panel the 
most hard-nosed analysts and experienced people who have dealt 
with large projects, that had substantial logistics issues 
associated with them, construction and cost control and all the 
kinds of things that are so important in this area, to give us 
the very, very best advice.
    It is a wonderful part of the world to visit, and we are 
much looking forward to your being there. It's warm between 
here and there.
    The panel did a wonderful job. I was not surprised with the 
results of the panel. They perhaps were even stronger in their 
praise of the job NSF is doing, the importance of the U.S. 
presence there that NSF has responsibility for, and they were 
very thorough in their probing of every cost aspect I could 
imagine of the whole Antarctic program.
    Their final recommendation was for a station that is 
somewhat reduced in scope from what was originally discussed, 
and they have made recommendations on how we might go about 
finding the money for that.
    If I could ask Dr. Sullivan to----

                       cost of south pole station

    Mr. Lewis. Yes, Dr. Sullivan. And as you describe the 
dollar amounts and the differences, if there are differences in 
configuration, construction or whatever, would you indicate the 
differences in the time frame that might be involved?
    Mr. Sullivan. Certainly. I would be glad to do that.
    I am Neal Sullivan, Director of the Office of Polar 
Programs.
    Certainly building on what Dr. Lane said, and what you 
said, Mr. Chairman, we have had various versions of the budget 
of the South Pole station. The early versions I think reflected 
an analysis we had done almost six years ago as we were working 
through the design plans and working further with the Board to 
refine those plans.
    We actually had to examine 2,000 specific line items. We 
completed that second analysis during the Augustine committee 
and found real cost savings and reductions in some of those 
items. That helped to contribute to a reduction in the cost.
    But other reductions in the cost came as a result of 
looking at reduced requirements at the South Pole station. When 
we went from $180- to about $150- and then finally down to the 
$125 million station, we actually found the requirements for 
aircraft fuel storage were reduced by a million-and-a-half 
dollars. Six years ago we believed that the aircraft approach 
radar systems would be useful, but with the advent of GPS and 
the change from the Navy to the Air Guard in flying our 
aircraft, we were able to delete almost $6 million worth of 
requirements.
    But we have also had value engineering reductions. We went 
from a three-pod version of a station to a two-pod version and 
reduced and consolidated some of the functions within the South 
Pole Station, but maintained all throughout that the same 
number of people. The berthing accommodations were still for 
110 persons, which is the size station we have currently for 
maintaining both the presence and the support of science, 
including and some very special science in a number of areas, 
especially astronomy and astrophysics and geophysics and upper 
atmospheric chemistry.
    Some of our communications and computing systems were 
overlapping, and we were able to reduce those. Then, finally, 
in the energy and environmental technology area, some of the 
ideas we had six years ago for fuel cells really hadn't 
materialized and for wind-generated power had not materialized, 
and when examined now, just weren't cost effective.
    In summary, we were able to reduce $30-million worth of 
cost for the new South Pole Station and the optimized version 
as it is referred to, and that has been a $125-million station.
    The panel recommended that it will take us--even if we can 
go forward in 1998 to build the station, the panel has 
recognized that with the $25 million in the President's budget 
request for this year--until about 2004 in order to complete 
the station. In that interim period, we need about $5-million 
worth of support to address some of the health and safety 
issues at the existing station while we are building the new 
one, to take the people out from under the dome and put them 
into the new berthing areas.
    The final $15 million for the total of the $145-million 
cost that is identified in Mr. Augustine's testimony comes from 
other health and safety issues that were identified by the 
panel, both at McMurdo Station and Palmer Station. So we start 
with the $145 million. We are looking broadly at the program to 
contribute to that. We have $30 million of possible reductions 
in the transition from our operations now, particularly with 
the Navy transition to the Air Guard, and for privatization in 
general, we project $30 million worth of savings.
    Then, finally, everybody in the program was expected to 
contribute, and that included the scientific effort in 
Antarctica. We have developed a plan which we are putting 
forward for obtaining during the development period $20 
million, that is over five years, a $4-million per year 
contribution to reallocation of science and science support 
monies to offset the cost of the program at the South Pole 
Station. We have a plan for that, that I could tell you about, 
if we have time. That would leave a $95-million need for 
building the station which is about the sum over a five-year 
period that we would plan to request from the committee.

               potential reduction in Antarctic research

    Mr. Lewis. I think, following up on that, the panel's 
recommendation, moderate reductions in the field of research 
and operational support, what would a $20-million reduction in 
Antarctic field research mean in terms of the number of 
researchers or projects not funded?
    Mr. Sullivan. $20 million in one year would have a 
devastating effect, but over five years, we believe we have a 
plan that will preserve the integrity of the science program. 
The reasons are that many of the people in the program and new 
people coming into the program, as you have heard here, through 
the peer review system receive a two- or three-year grant. In 
many cases, this program has been thought of for the last 30 or 
40 years. It is entirely a field program, and what we envision 
is encouraging people to come for one or two years of their 
three-year grant to the Antarctica and get the support that 
goes along with that presence in Antarctica. But then they 
would go back to their home in the second or the third year and 
analyze the data and do Antarctic science at home in their home 
universities. They can do research that in that manner. They 
can also do research by remotely accessing instruments that are 
currently in place in the South Pole Station.
    For instance, some of the astronomical facilities there, 
the telescope and so forth, can and are being accessed from 
Chicago and Yerkes Lab Observatory and other places, and we 
expect to encourage people to do that.
    We have emphasized in meetings with the National Academy of 
Science Polar Research Board and our upcoming meeting with our 
office Advisory Committee, 16 scientists from this community 
who we will be talking to the week after next, that this idea 
is undoubtedly important to address the current needs in the 
short term for South Pole. But having people go for part of the 
time also opens up space once the South pole station is 
rebuilt. It opens up opportunities for new investigators and 
particularly young investigators in the year, say, 2005, 2006, 
and 2007 to come into the program. It makes room for new 
investigators, and we think it is much healthier. So we see a 
double benefit to that contribution. Both our experience as 
well as the panel's has been very encouraging in that the panel 
spoke to a number of scientists in other places from the South 
Pole and McMurdo Station and people who use the ships. There 
has been a very positive sentiment that building a great 
laboratory like the Crary Science and Engineering Laboratory 
has benefitted them. Having a world-class research platform 
like the Palmer, the Nathaniel Palmer, an ocean-going and ice-
breaking vessel has benefitted another group of scientists. I 
think they feel that it is fair that we provide a safe and 
first-rate science platform in the South Pole for the 
scientists who work there.
    So, in spite of perhaps an initial knee-jerk reaction of 
don't touch the science, more thoughtful consideration has 
revealed that, I would say, almost everyone I have talked to 
has gone on board with this idea.

            reducing utilization to facilitate construction

    Mr. Lewis. Just a piece of what, what you have described, 
is there a requirement to reduce utilization by scientists in 
order to help construction go forward more smoothly?
    Mr. Sullivan. There is. You have both the need for 
reallocating some of the science dollars, but also making room 
at the South Pole. There will be a substantial flux of 
materials and people up there working intensely during the 100 
days where you can work at South Pole before temperatures drop 
to minus-80 or minus-100. So that will be an important part, 
too.

                transition from year-round navy support

    Mr. Lewis. Wait until the sun shines.
    You mentioned approximately $30 million of savings or 
reduction in costs of transition functions from the Navy to the 
Science Foundation and so on. Could you give us a little more 
specific information regarding that?
    Mr. Sullivan. I can, but I think one of the easiest ways to 
come to understand it is to talk about privatization, which 
reduced our costs in measurable and clear ways.
    The most recent example is privatization of the 
helicopters. We have saved almost $2.5 million on a two-year 
contract. We have had excellent service, and the science 
community is very happy with the support they received this 
year.
    Another is the realization that when we had Navy support of 
the program year-round--and we still do have Navy support--we 
paid for the Navy and part of the VXE-6 training mission during 
the summer when they weren't working Antarctica. Now with the 
transition to the Air National Guard, the Air Guard clearly has 
both a military mission and a science mission in our northern 
summer or the Antarctic winter. So they are working in 
Greenland and the Arctic, and we don't support their mission 
there unless they are doing science, in a sense, under 
contract. That comes out of our Arctic science budget and 
across the Foundation and other agencies, and of course, their 
military mission in the Arctic.
    So, when they come to the Antarctic, we are paying them to 
do Antarctic work, and that has enabled us to reduce from about 
780 military billets down to 350. So there are substantial 
savings there.
    I could go on and on into detail.
    Mr. Lewis. You can elaborate more for the record.
    Mr. Sullivan. I would be more than happy to do that.
    [The information follows:]

[Page 189--The official Committee record contains additional material here.]


               INTERNATIONAL COOPERATION IN THE ANTARTIC

    Mr. Lewis. The panel devoted some of their efforts to 
review international cooperation. The conclusion and 
recommendation is that international cooperation, cooperative 
scientific research and logistical support should be 
encouraged, but core facilities and infrastructure at permanent 
U.S. sites in the Antarctica should be provided by and 
maintained by the U.S.
    Does the Foundation agree with that? I was going to ask 
whether the Board did as well. Maybe you can speak for them, 
too.
    Mr. Lane. Yes, Mr. Lewis. We do feel that way. There are 26 
nations as signatories to the international agreement. There 
are a number of nations with conflicting claims on territory in 
that region of the world. It is a very complex part of the 
world to do international cooperation.
    Our approach to international cooperation in general is to 
ensure that if there are barriers between scientists in the 
U.S. and scientists in other countries to do their work 
together, that we do what we can to lower those barriers, and 
the same would be true here. There are many activities that are 
international in character now in the Antarctic, and I am sure 
that that will increase. But in order to build and operate a 
facility of this complexity in this rather hostile environment, 
you need, somebody in charge of the operation. Somebody has to 
be responsible for looking out for the health, safety, and 
welfare of all the people there and ensuring that the fuel is 
there for the plane, that the light is on, storage is taken 
care of, food is provided, and all the other things that go on 
down there.
    The thought of doing that with some kind of co-owned 
facility and, therefore, shared management responsibility has 
struck the panel as not workable, and we agree with that. The 
Board certainly agrees with that position.

                           affirmative action

    Mr. Lewis. That generally concludes my questions. I do have 
additional questions for the record that we did pass by.
    The discussion a while ago caused me to want to mention an 
experience, just a very quick snippet that took place in my 
office before coming back here. I had about two dozen kids at 
the teenaged level who are from the District in my office. The 
first question they asked was how did I feel about Proposition 
209, which is a proposition on the ballot in California that 
essentially takes on the question of affirmative action and 
essentially would suggest that we have solved most of the 
problems of the world in California and there is a need to deal 
with some of the excess that some people see in this subject 
area. As they asked me how I felt about that, I reversed it on 
them and said how do you think I would feel about it, how would 
you think I would feel about it.
    Three of those young people responded by saying, well, we 
think you probably support Prop 209. That caused me to react 
pretty strongly in the sense that the proposition has at its 
core the leadership of a member of the Board of Regency at the 
University of California who happens to be black, who happens 
to feel strongly that maybe we have done some things here; that 
I couldn't disagree more strongly with his position and felt 
compelled to talk with these young people about that.
    I look at this audience, and we have had discussions here, 
and this audience is a better reflection today than it was when 
I first came on this committee, but it is a long ways away from 
looking like America, and I would submit, and Louis and I have 
discussed this more than once, that like Prop 209, there is a 
tendency to presume that it has all been done when you are 
happy with what you got, but in the meantime, I don't want any 
of our agencies to presume that what we got is necessarily 
where we ought to be, and we all have work to do together.
    More questions, Mr. Stokes? I will give you the remainder 
of whatever time we might need.
    Mr. Stokes. Mr. Chairman, after that eloquent statement, 
anything that I might say would be totally out of order. I 
would reserve to put all the rest of my questions in the 
record.
    Mr. Lewis. Well, Mr. Stokes, thank you very much, and thank 
you all. This is a particularly enjoyable session. The 
conflicts are real, and we did have a lot of participation this 
morning. I was pleased with that. So thank you all.
    The meeting is adjourned.
    Mr. Sullivan. Thank you, Mr. Lewis. Thank you, Mr. Stokes.

[Pages 193 - 452--The official Committee record contains additional material here.]






                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bordogna, Dr. Joseph.............................................    95
Gibbons, J.H.....................................................     1
Lane, Dr. Neal...................................................    95
Zare, Dr. Richard................................................    95







                               I N D E X

                              ----------                              

                Office of Science and Technology Policy

                                                                   Page
1996 Science and Technology Highlights...........................     4
Bipartisan Support for Science and Technology....................     2
Cloning..........................................................    56
Department of Defense Share of Science and Technology Budget.....    61
Federal-Private Sector Partnership...............................    53
FY 1998 Budget Request to Congress...............................     7
FY 1998 Science and Technology Budget............................     4
House Support for Research and Development.......................    50
Increase in FY 1998 Science and Technology Budget................    63
Introductory Remarks of John H. Gibbons, Director................     1
Making the Most Efficient Use of Resources.......................     3
NASA--Commercial Use of Space Shuttle............................    50
National Bioethics Advisory Commission (NBAC)/Cloning............    66
National Bioethics Advisory Commission...........................    57
Next Generation Internet.........................................    51
OSTP FY 1998 Budget Request......................................     4
OSTP Role in Resolving Space Station Problems....................    65
OSTP/NSTC/PCAS FY 1996 Summary of Accomplishments................    27
Questions for the Record from Chairman Lewis.....................    86
    Federal-Private Sector Partnerships..........................    86
    NASA-Commercial Use of the Space Shuttle.....................    86
Questions for the Record from Mr. Stokes.........................    84
    Cloning......................................................    84
    Development and Promulgation of Government Regulations.......    92
    Discretionary Budget Authority...............................    90
    Federal Government's Research Budget.........................    93
    National Bioethics Advisory Commission.......................    93
Registration of Internet Domain Names............................    52
Research on Cloning..............................................    58
Russia's Role in the Space Station...............................    63
Science and Technology Funding for Minority Institutions.........    61
SR 124...........................................................    59
Supercomputing...................................................    91

                      National Science Foundation

Academic Research Infrastructure Program.........................   141
Advanced Technological Education Program.........................   134
Affirmative Action...............................................   190
Assessments of EHA Programs......................................   166
Available Funds for Supercomputer Center Phase Out...............   172
Career Program...................................................   147
Changes in New Merit Review Criteria.............................   150
Cleveland Urban Systemic Initiative..............................   124
Community Colleges and ATE.......................................   135
Competitives of Small Institutions...............................   180
Concentration of Resources in PACI...............................   157
Concerns with the Transition to PACI.............................   159
Conclusion of Dr. Lane's Statement...............................   109
Confidentiality of Peer Review...................................   185
Continued Funding for Supercomputer Centers......................   133
Cost Increases at Universities...................................   140
Cost of South Pole Station.......................................   185
Decision Process for PACI........................................   129
Effect of Transition on Supercomputers Center Staff..............   173
Emphases with NSF 1998 Budget....................................   108
FY 1998 Budget Justification.....................................   222
Federal Involvement in the NHMFL.................................   180
Florida A&M Participation in the National High Magnetic Field 
  Laboratory.....................................................   178
Funding for HBCU Activities......................................   175
Funding for Millimeter Array and Polar Cap Observatory...........   152
Funding Profile for MMA..........................................   153
Funding Rate for ATE.............................................   137
Government Responsibility for Investing in Internet Improvements.   160
Green Bank and Arecibo Telescopes................................   151
Handling of Patent Rights........................................   145
Impact of Inflation..............................................   120
Improvements Under the USI Program...............................   122
Integration of Research and Education............................   146
International Cooperation in the Antarctic.......................   190
Investment in Research and Development...........................   119
K-12 Funding.....................................................   127
Knowledge and Distributed Intelligence...........................    97
Length of Transition Period......................................   174
Leveraging of NSF Funds..........................................   142
Merit Review Criteria............................................   149
Natural High Magnetic Field Laboratory...........................   176
Network Solutions, Inc...........................................   160
Next Generation Internet.........................................   161
NSB Quorum for PACI..............................................   131
NSF FY 1998 Request to OMB.......................................   143
PACI Decision Process............................................   131
PACI Equipment...................................................   157
Phase Out of Supercomputer Centers...............................   171
Planning for a New Generation of Equipment.......................   173
Polar Cap Observatory............................................   155
Potential Reduction of Antarctic Research........................   187
Programs for Human Resource Development..........................   169
Proposed Increase in Science Funding.............................   144
Protecting National Security.....................................   183
Questions for the Record from Chairman Lewis.....................   192
    Academic Research Infrastructure.............................   192
    Administrative Expenses......................................   196
    Administrative Support Funded through R&RA...................   196
    Effect of Stops and Starts in Federal Programs...............   193
    Funding for Completion of LIGO...............................   197
    Integrating Research and Education...........................   200
    Integrative Graduate Education and Research Training Program.   204
    Knowledge and Distributed Intelligence and the Next 
      Generation Internet........................................   195
    Knowledge and Distributed Intelligence.......................   194
    Large Hadron Collider........................................   198
    Laser Interferometer Gravitational Wave Observatory..........   197
    Nature of Vessel Retrofit....................................   199
    NSF Role in Education Initiatives............................   200
    Presidential Directive on Math/Science Education.............   201
    Program Support Costs........................................   196
    Progress in K-13 Math and Science Education..................   202
    Recommendations for Undergraduate Education..................   203
    Recommendations from Review of Undergraduate Education.......   204
    Retrofit Ocean Drilling Vessel...............................   199
    Scheduled LIGO Completion....................................   197
    Spaces Required for Integration of Research and Education....   193
    Support for Graduate Education...............................   205
    U.S. Operating Cost for LHC..................................   199
    U.S. Utilization of LHC......................................   198
Questions for the Record from Rep. Stokes........................   206
    Construction Funding for LIGO................................   209
    Coordination with NIH........................................   207
    Experimental Program to Stimulate Competitive Research.......   207
    GPRA Strategic Plan Development and Customer Involvement.....   206
    Long Term for Supercomputer Acquisition......................   208
    NCAR Supercomputer Acquisition...............................   208
    Programs for Minorities in Science and Engineering...........   210
    Status of Chilean Participation in the Gemini Telescopes 
      Project....................................................   209
    Status of Large Hadron Collider..............................   209
Questions for the Record from Rep. Hobson........................   212
    Byrd Polar Research Center...................................   214
    Coordination of K-12 NSF Science Education...................   213
    NSF's Relationship with the Science Coalition................   212
    Rent for NSF Office Space....................................   215
    Science Education Programs in Dayton.........................   214
    Termination of the Academic Research Infrastructure (ARI) 
      Program....................................................   212
Questions for the Record from Rep. Frelinghuysen.................   216
    Additional Funds for NSF.....................................   216
    Differences from OMB Budget..................................   216
    Diversity in the Sciences....................................   216
    Major Research Equipment.....................................   219
    Medical/Disease Research.....................................   220
    Phase-out of Supercomputer Centers...........................   218
    Protection of Current Supercomputer Users....................   218
    Proton Therapy R&D...........................................   220
    Upgrade in Leading-Edge Supercomputer Capacity...............   219
    Value of Proton Therapy......................................   220
Questions for the Record from Rep. Fazio.........................   221
    Funding for Nutrition and Food Safety Programs in California.   221
Reducing Utilization to Facilitate Construction..................   188
Reduction in Elementary, Secondary, and Informal Education.......   126
Relative Emphasis on Research and Education......................   148
Resources to Participate in Next Generation Internet.............   165
Role of Historically Black Colleges and Universities.............   174
Science and Technology Centers...................................   165
Security of Data on Individuals..................................   181
South Pole Station...............................................   185
Statement of Dr. Lane............................................   107
Statement of Dr. Zare............................................    96
Statistics on NSF Support........................................   144
Support for High-End Users in PACI...............................   156
Support for Human Resource Development Programs..................   168
Support for Human Resource.......................................   176
Support for Science in the President's Budget....................   118
Syracuse University Participation in PACI........................   159
Transition from Year-Round Navy Support..........................   188
Transition Period for PACI.......................................   133
Transition to the Partnership for Advanced Computational 
  Infrastructure Program.........................................   134
Transition to the Year 2000......................................   146
Two Year Colleges................................................   138
U.S. Antarctic Program Transition of Functions...................   189
Urban Systemic Initiative........................................   121

                                <all>
</pre></body></html>
